<html>
<title> - SERIOUS OSHA VIOLATIONS: STRATEGIES FOR BREAKING DANGEROUS PATTERNS</title>
<body><pre>[Senate Hearing 110-879]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-879
 
  SERIOUS OSHA VIOLATIONS: STRATEGIES FOR BREAKING DANGEROUS PATTERNS 

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON EMPLOYMENT AND WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

    EXAMINING OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION (OSHA) 
   VIOLATIONS, FOCUSING ON STRATEGIES FOR BREAKING DANGEROUS PATTERNS

                               __________

                             APRIL 1, 2008

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-699 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 












          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

                 Ilyse Schuman, Minority Staff Director

                                  (ii)












                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, APRIL 1, 2008

                                                                   Page
Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  opening statement..............................................     2
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     3
    Prepared statement...........................................     4
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio, 
  statement......................................................     6
Frumin, Eric, Health and Safety Expert, Change to Win, New York, 
  NY.............................................................     8
    Prepared statement...........................................    10
Morrow, Doris, Member, UFCW Local Union 227, Robards, KY.........    29
    Prepared statement...........................................    31
Scannell, Gerard F., Former OSHA Director and Former Chair of the 
  National Safety Council, Washington, DC........................    34
    Prepared statement...........................................    35
Bianco, Carmen, Executive Consultant, Behavioral Science 
  Technology, Inc., OJAL, CA.....................................    36
    Prepared statement...........................................    39

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Obama................................................    86
    Uniform and Textile Service Association (UTSA)...............    89
    Letter from Dennis H. Treacy, Vice President, Environmental 
      and Corporate Affairs, Smithfield Foods, Inc...............    92
    Letter from Roger Cocivera, President, Textile Rental 
      Services Association of America (TRSA).....................    93

                                 (iii)

  


  SERIOUS OSHA VIOLATIONS: STRATEGIES FOR BREAKING DANGEROUS PATTERNS

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                                       U.S. Senate,
Subcommittee on Employment and Workplace Safety, Committee 
                 on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room SD-430, Dirksen Senate Office Building, Hon. Patty Murray, 
chairman of the subcommittee, presiding.
    Present: Senators Murray, Kennedy, Brown, and Isakson.

                  Opening Statement of Senator Murray

    Senator Murray. Good morning, this hearing will come to 
order. We have another witness who is trying to get here in a 
taxi. I know several Senators, including Senator Isakson, will 
be here shortly, but I'm going to go ahead and begin, and give 
my opening statement and get us started this morning.
    I want to first thank all of our witnesses for being here 
this morning to discuss a critical and fundamental issue facing 
too many of our workers and their families across the country 
today--job safety.
    Less than a year ago, I chaired my first oversight hearing 
on OSHA, to determine whether the agency was fulfilling its 
responsibility to protect workers on the job. What I heard from 
our witnesses was a resounding, ``No.'' I learned that OSHA was 
failing to live up to its mission to, ``Assure safe and 
healthful working conditions for working men and women.''
    I wish I was here to celebrate OSHA's recommitment of its 
mission, the issuance of new standards that protect people on 
the job, or its increased emphasis on workplace inspections. 
Unfortunately, none of those statements are true.
    Instead, the news seems to be full of an endless string of 
industrial disasters--workers dying unnecessarily in chemical 
and refinery plant explosions, high-rise cranes falling in New 
York and Miami, and construction trenches collapsing. What's 
most disturbing to me, is that these tragedies are happening 
over and over again, in the same industries, and they are 
happening far too often at the same companies, where workers 
are doing jobs that their employers know are dangerous and 
unsafe.
    I'm very concerned, because the evidence shows that in the 
last 7 years, OSHA has been dangerously ineffective. According 
to the National Council for Occupational Safety and Health, an 
average of 16 workers die on the job every day in America, and 
close to 4 million suffer serious injuries on their jobs, every 
year.
    Yet, how has OSHA responded? It has sent letters to 
employers, telling them to be more careful. Rather than holding 
them to standards set by law, inspecting aggressively, and 
imposing severe fines on repeat offenders, the agency 
responsible for workers' safety has insisted on simply asking 
these repeat offenders to partner with the government on 
improved safety.
    Rather than proactively addressing the root of the problem 
at the national management level, OSHA has continued to respond 
to one incident at a time, if at all.
    Fortunately, members of the media have taken their job 
seriously, and have written extensively about the blatant 
disregard for workers' safety. Five years ago, the New York 
Times shocked all of us with a series of articles about a 
negligent Alabama pipe company, responsible for the deaths of a 
number of its workers at facilities around the country. OSHA's 
response was to fine the company a few thousand dollars, and 
then it allowed these already paltry fines to be reduced, on 
appeal.
    Recently, we were again reminded of the risks to workers' 
safety through a series of articles published in the Charlotte 
Observer that focused on horrifying and rampant abuses in the 
poultry industry in North Carolina. We also know that new 
hazards, like diacetyl, and the threat of pandemic flu, have 
been ignored. Despite the number of injuries and deaths caused 
by well-known hazards like dust or repetitive motion, the 
Administration has largely expected industry to solve these 
problems voluntarily.
    Clearly, something has to change. That is why I am an 
original co-sponsor of Senator Kennedy's Protecting America's 
Workers Act.
    Among other important reforms, the bill calls for stiffer 
fines and criminal penalties for repeat and willful violations 
of our Nation's health and safety laws. It is passed time for 
OSHA to take a proactive approach to protecting workers on the 
job.
    I believe that corporate bad actors with a track record of 
repeat violations must be held accountable. OSHA should work to 
bring these companies into compliance, under a national safety 
plan. Our country's economy is built on the back of these 
hardworking Americans. They deserve a government that works to 
protect them, just as hard as they work for America--not one 
that turns a blind eye to the risks they face on the job.
    Today, our hearing will address the hazards workers face, 
and how we can break the dangerous patterns we have seen in the 
last 7 years of this Administration. Our witnesses have some 
valuable insight on these important issues, I look forward to 
hearing from each one of them.
    But first, I will turn to Senator Isakson for any opening 
remarks he may wish, and following his remarks, we'll have 
Senator Kennedy speak.

                  Opening Statement of Senator Isakson

    Senator Isakson. Well, good morning, and I want to thank 
Chairman Murray for calling a hearing on workplace safety, and 
I want to welcome all of our witnesses here today.
    The recent tragedy in my State at the Imperial Sugar 
Refinery in Savannah remains on the forefront of my mind this 
morning. As we know, 13 workers lost their lives in that 
disaster, 8 workers remain in a burn center in Augusta, GA, 3 
are listed in critical condition, 1 in serious condition, and 
only 1 in fair condition, and 3 in good condition. We all 
rejoice that another worker was released just last week, and a 
life was saved.
    I thank Senator Murray for her strong support, as we await 
answers to the root causes of that disaster. The Port Wentworth 
tragedy reminds us all that it is our challenge to persuade 
every employer and employee to make safety a top priority at 
all levels within their organization.
    For most American companies and all good American 
companies, their employees are their most valuable asset. When 
I ran my business, I used to always say, my assets had two 
legs, and they could walk out the door, or if they were 
injured, they couldn't work. My first priority was to see to it 
that the workplace was safe, that all of our company procedures 
were safe, and the first thing we focused on was the health and 
welfare of those individuals.
    At a glance, numbers show that we're moving in the right 
direction, through a concerted effort on the part of employers 
and employees alike, the rate of workplace fatalities is now 
down to 3.9 deaths per 100,000 workers. Similarly, the national 
injury and illness rate is down to 4.4 per 100 workers.
    Both of those are the lowest levels in the 33-year history 
of the Occupational Safety and Health Administration.
    We all recognize that achieving workplace safety requires 
efforts on all fronts. OSHA, however, only governs the physical 
environment in which employees work. It, in no way, regulates 
workers behavior within that environment, which is every bit as 
important, nor does it regulate automobile crashes, which are 
the largest contributor to workplace fatalities.
    In closing, I agree with our panelist, former administrator 
Scannell, who recently wrote, and I quote,

          ``Safety should be ingrained in every process and 
        decision that takes place at the company. Values are 
        passed on from employee to employee, and from personal 
        agenda, for the way work is done in that company.''

    Again, I want to thank Senator Murray, I thank Chairman 
Kennedy for being here today, and I appreciate the time.
    Senator Murray. Thank you very much.
    Senator Kennedy.

                  Opening Statement of Senator Kennedy

    The Chairman. Thank you very much.
    I want to thank Chairman Murray for her longstanding, 
continuing, ongoing commitment to workers' safety in this 
country. It's been an extraordinary commitment, one that she's 
had since she arrived in the Senate, and I'm enormously 
grateful for her leadership with our committee today. I thank 
Senator Isakson, as always, for his presence, his concern, and 
his interest.
    I was here when we passed the OSHA legislation in the 
Senate a number of years ago. It was a very dramatic time. We 
had extraordinary testimony about the safety of American 
workers. There was a common sense, at that time, when Senator 
Pete Williams and Representative Bill Steiger were able to 
convince the Senate and the House of the fact that here, in the 
strongest economy of the world, we shouldn't see progress and 
profits made at the expense of the health and the safety of 
American workers; that that was completely inconsistent as a 
value for our country. It was a very good debate, and very 
important legislation and its effects were really dramatic. We 
have people here, on this panel, that remember that.
    So, we can look and say, ``Well, look, we've made important 
progress over the period of the years, in terms of the total 
numbers of deaths, and why are we really bothering having this 
hearing?'' Well, all we have to do is look at what Senator 
Isakson has said--look what happened in Georgia recently. All 
you have to do is look at what is happening at MSHA, in mine 
safety. The report of the Inspector General on the Crandall 
Canyon disaster, talks about MSHA failing to provide the 
protections for miners. All we have to do is look at the series 
of repeated actions by OSHA that has really looked after the 
low-hanging fruit, and refuses to look at the patterns and 
practices and dangers, when we have repeated kinds of laxity in 
safety in the workplace.
    All you have to do is listen to someone like Paul O'Neil of 
ALCOA, Republican, former member of this Administration, and 
listen to him talk about how he put the safety of the workers 
first, and saw ALCOA go from a way behind company, to lead the 
Nation in terms of safety for American workers. It can be done. 
It can be done. American workers are entitled to have it done, 
and it is not being done.
    That is what we are concerned about today. I'll ask consent 
that my full statement be put in the record, with the 
illustrations particular to my own State, of the repeated 
fatalities that we have seen, particularly in the construction 
industry. The Chairperson has talked about the poultry industry 
with the high rates of carpal tunnel syndrome, other kinds of 
risk factors, but what you have is that companies too often 
that are seeing the loss of lives, are companies that are cited 
time, after time, after time, after time, and that is wrong--it 
doesn't have to be that way.
    We have seen enlightened corporate leaders provide the kind 
of safe sites which American workers are entitled to, and this 
committee is committed to making sure that the legislation 
which is out there, that provides the tools to protect American 
workers, is going to be implemented, and they're implemented 
correctly. If there are additional kinds of tools that we need, 
this committee is prepared to act.
    We understand the change in the workforce, the change in 
conditions, in a number of different types of industry. We are 
always interested in constructive and positive recommendations.
    I thank the Chair.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    Today we consider the important task of keeping the 
hardworking men and women of America safe on the job. I commend 
Senator Murray for holding this hearing and for her dedication 
to the safety and health of America's workers.
    The creation of the Occupational Safety and Health 
Administration in 1970 has saved thousands of lives and 
prevented countless injuries. We've reduced the death rate in 
the workplace by 78 percent and the injury rate by 60 percent. 
But what was a cutting edge program 40 years ago is out of date 
today. The workplace is still dangerous for far too many 
workers. In 2006, over 5,700 workers were killed on the job, 
and over 4 million became ill or were injured. That's an 
average of 16 workers dying every day, and nearly 12,000 
injured or made ill from dangerous conditions on the job.
    Many of these incidents could have been prevented if OSHA 
had done its job. Too often, its enforcement strategy has been 
pick the low-hanging fruit, not go after the bigger, more 
complex problems. OSHA looks only at individual incidents. It 
doesn't investigate whether a hazard is just an example of a 
larger problem in the company or industry. It's as if OSHA 
spends all its time treating the symptoms, but ignores the 
underlying disease.
    Many of these hazards, however, are not one-time events. 
Instead, they result from a company's or industry's general 
disregard for worker safety. An example is the poultry 
industry, which was the subject of a compelling series of press 
reports last month.
    Poultry workers' health and safety is threatened every day 
in a variety of ways. Their hands are crippled by hours on an 
assembly line that moves too fast. They are forced to work when 
they are sick or seriously hurt, in order to create the 
illusion that their employer maintains a safe workplace. These 
problems are repeated in plant after plant throughout the 
poultry processing industry.
    Yet, OSHA sits on the sidelines, ignoring such patterns. 
Every day, poultry workers are paralyzed by carpal tunnel 
syndrome, slip and fall on floors wet with chickens' blood, or 
are cut by knives that move too quickly to be controlled. OSHA, 
however, has reduced the number of poultry plants subject to 
investigations and inspections. Inspections are now at their 
lowest level in 15 years. Instead, OSHA issues minimal fines 
when its inspectors happen to note a violation.
    The extent of the problem in the poultry industry is much 
bigger than the sum of the individual cases that come to OSHA's 
attention. The real problem is that too many firms in the 
industry have adopted a policy of sacrificing the health, or 
even lives, of their workers to improve the bottom line. Such 
an enforcement strategy does nothing to address the industry-
wide attitude.
    Similar willful neglect by OSHA affects the construction 
industry. The safety of thousands of construction workers is 
jeopardized every year by unsafe ladders and scaffolds. Almost 
exactly 2 years ago today, three construction workers were 
killed in downtown Boston when their scaffold collapsed. This 
kind of violation happens every day somewhere in our country.
    Scaffolding accidents are symbolic of the continuing 
problem at OSHA. Too frequently, the same companies are cited 
over and over again. But OSHA's enforcement program fails to 
connect the dots. Instead of asking whether a company that uses 
unsafe scaffolds at one of its worksites is also doing so at 
another worksite, OSHA just walks away. Instead of 
investigating whether a poultry processor who is indifferent to 
ergonomic danger is also indifferent to the hazard posed by 
careless use of deadly chemicals, OSHA just walks away.
    To prevent accidents, instead of only assigning blame 
afterward, OSHA needs to root out the source of these problems. 
It should look for patterns of violations across companies and 
industries, and fix such problems on a wide scale. A broad-
based approach to enforcement has the power to transform 
workplace accidents from senseless losses to catalysts for 
changes that save lives. Every time OSHA fails to take its 
investigations to the next step--to the corporate or industry-
wide level--it loses the opportunity to save lives in the 
future.
    Hopefully today's hearing will encourage Congress to act. 
We have an impressive group of panelists, and I look forward to 
hearing from them.

    Senator Murray. Thank you, Senator Kennedy. Thank you for 
your lifelong work on this.
    Senator Brown.

                       Statement of Senator Brown

    Senator Brown. Thank you, Madame Chair, and thank you for 
your good work--and Senator Kennedy's certainly--on OSHA and 
occupational safety.
    For 7 or 8, years I've worn on my lapel, a depiction of a 
canary in a bird cage. Remember the mine workers 100 years ago, 
when going into the mines, carried this canary in a cage and if 
the canary died from lack of oxygen or toxic gases, the mine 
worker knew he had to get out of the mines quickly. In those 
days, he had no union strong enough to help him, nor no 
government that cared enough to help him.
    Things have changed in our country over the years, by and 
large, we've made incredible progress, but we also have, 
unfortunately, backslid in the last few years.
    In my State, in 2005, there were 168 workplace deaths. 
That's obviously more than three a week. I'm particularly 
concerned about food workers' exposure to diacetyl--many have 
heard of the ``Popcorn Lung Disease'' hundreds of workers have 
been diagnosed with, including Keith Campbell in Caledonia, OH.
    The danger of diacetyl exposure is well-known and well-
documented. Even the companies that make diacetyl recognize the 
danger and that American workers need protection from it. Yet 
OSHA denied a petition for a standard to regulate diacetyl 
exposure, even though the petition was supported by 42 of the 
country's leading occupational safety and health scientists and 
experts. OSHA needs to do appreciably better than that.
    I'm proud to co-sponsor Senator Kennedy's Protecting 
America's Workers Act. This builds an important first step 
toward meeting the new challenges that workers face in this 
century.
    Thank you, Madame Chair.
    Senator Murray. Thank you.
    We have four witnesses before us today. Eric Frumin serves 
as the Health and Safety Coordinator for Change to Win, and has 
worked in the field for 34 years. He is a leading National 
Trade Union spokesperson on issues of job safety, health and 
disability, including OSHA standard-setting and enforcement and 
occupational disease and injury surveillance. From 1983 to 
2003, he chaired the U.S. Labor Department's Labor Advisory 
Committee on Occupational Safety and Health Statistics.
    Doris Morrow is a member of the United Food and Commercial 
Workers International Union Local 227. For the last 12 years 
she has worked at the Tyson Poultry Plant in Robards, KY as a 
spreader at the plant, and in other line positions.
    Gerry Scannell has 40 years of experience managing safety, 
health and environmental programs, in both the public and 
private sector. He was the Assistant Secretary of OSHA from 
1989 to 1993 under President George H. Bush. Before his 
appointment, Gerry served in various positions at the 
Department of Labor in Washington, DC, including Director of 
the Office of Federal Agency Safety and Health Programs, 
Director of the Office of Standards at OSHA, and Special 
Assistant to the Assistant Secretary of Labor for OSHA.
    He has held safety and health positions in private 
companies, including Johnson & Johnson, and has served as CEO 
of the National Safety Council.
    Carmen Bianco is an Executive Consultant at BST Solutions. 
He has been with the company since 2006, where he supported new 
and ongoing implementations of BST's technology in various 
industries.
    Prior to joining BST, Carmen assisted clients at the 
executive level from around the world in improving operational 
excellence in safety performance. He has 30 years of experience 
in corporate safety and loss control, and coaching 
international business leaders from a wide variety of 
industries, such as transportation and manufacturing.
    The Chairman. Madame Chairman, if you'd just yield--could I 
join in welcoming Gerry Scannell?
    He has shown remarkable judgment in his career in 
protecting American workers, but he also shows remarkable 
judgment in living on Cape Cod.
    [Laughter.]
    Senator Murray. So, there you go.
    The Chairman. So, you don't want to forget that in the 
summertime.
    Senator Murray. It is duly noted.
    The Chairman. It is nice to welcome a neighbor.
    Mr. Scannell. May I?
    I owe you something, Senator. Several years ago, my alma 
mater gave me an Honorary Doctorate Degree, and you showed up 
for that. I want to thank you very much.
    The Chairman. There you go.
    Mr. Scannell. I haven't had the opportunity to thank you.
    The Chairman. That's fine, thanks very much.
    Mr. Scannell. It was very nice of you.
    The Chairman. Thank you.
    Senator Murray. All right. Very good.
    We will begin with Mr. Frumin and work our way down the 
panel. I would ask that all of our witnesses, please try to 
keep your testimony to 5 minutes, so that we have enough time 
for questions from Senators.
    Mr. Frumin.

 STATEMENT OF ERIC FRUMIN, HEALTH AND SAFETY EXPERT, CHANGE TO 
                       WIN, NEW YORK, NY

    Mr. Frumin. Thank you very much, Senator Murray, Senator 
Kennedy, and Senator Isakson, for the opportunity to testify 
today.
    I wish that the people depicted in these photographs--
Eleazar Torres-Gomez, and Raul Figueroa, depicted with their 
families, and Oscar Pintado--could be with us today, to tell 
you about the urgent need to make a workplace safe, but they 
can't. They were killed in preventable workplace tragedies.
    Employers bear the primary responsibility for protecting 
workers, but too often they would rather squeeze out profits 
than save workers' lives.
    The price paid by fallen workers, their families and their 
communities is unacceptable. Without stronger laws and 
enforcement, the tragic human cost of hazardous jobs continues 
to climb.
    Nobody should be killed at work, period. A year ago, Mr. 
Torres, a Cintas corporation worker in Tulsa, was pulled by an 
automated conveyor into a giant industrial dryer. He was 
trapped in 300 degree heat for 20 minutes. Badly burned and 
bruised, he died on the scene.
    The Tulsa workers were under pressure to process tons of 
laundry every day. He died while trying to un-jam a conveyor 
feeding wet clothes into the dryer.
    Cintas knew that these conveyors were dangerous. Two years 
earlier, OSHA had cited them for a similar violation. According 
to OSHA, Cintas management, ``Ignored safety and health rules 
that could have prevented this death.''
    Senator Murray, after Mr. Torres' death, Washington State 
inspectors cited Cintas for the similar violations in Yakima, 
after a worker's arm was dislocated because of, again, 
substandard guarding on the giant washing machines there.
    Later, OSHA cited them in Stockton, CA, Columbus, OH, 
Senator Brown, and in Mobile, AL. A repeated record, all within 
the same few months.
    Instead of admitting that there was a machinery problem, 
however, the CEO, Scott Farmer publicly blamed Mr. Torres. This 
hazard still exists in Cintas laundries. Workers in Illinois 
just recently filed a new OSHA complaint concerning these 
problems.
    Now, this is not just a fly-by-night small Mom and Pop 
company. It's the largest company in the uniform industry. It 
would have only cost about $20,000 to install the equipment, to 
prevent this tragedy. It had the money, the company has the 
know-how to prevent these fatalities, but it chose to cut 
corners, and risk workers' lives.
    The meat processing industry is notorious for brutal, 
filthy and wretched conditions. Smithfield Farms in Tar Heel, 
NC, relentlessly pushes workers to meet production goals at the 
world's largest pork slaughterhouse. Injury rates, here in the 
company's own records, have skyrocketed at that plant.
    Workers there suffer from chronic nerve damage, mutilation, 
unspeakable pain. If the injuries slow their work, employees 
say they're verbally abused, and even fired.
    Exactly 40 years ago, Memphis sanitation workers joined 
with Martin Luther King to fight for safer jobs, a battle that 
ultimately took Dr. King's life. Today, the solid waste 
industry continues to show the need for fundamental changes in 
labor conditions.
    Waste collection and disposal is the 5th most dangerous job 
in America, and Waste Management, Incorporated--again, the 
giant company in the industry--sets a shockingly low standard 
for health and safety. Over the last 5 years, their violations 
increased by 28 percent, and their trucks have one of the worst 
safety records in the industry.
    Raul Figueroa, a waste management worker in Miami, FL was 
just killed a couple of months ago, cut in half by a garbage 
truck. As Senator Kennedy alluded to, the construction industry 
in Massachusetts--again, unscrupulous developers, failing to 
take precautions to protect workers.
    OSHA cited the Avalon Bay Company in 2006 for repeated 
violations of fall protection, and a few months later Oscar 
Pintado falls 45 feet to his death, on another Avalon Bay 
project.
    These companies know how to protect workers from fatal 
falls, but they don't do it. The OSHA citations and fines are 
not enough, these companies have to live up to their legal and 
ethical obligations.
    OSHA has failed to stop these problems. In the time 
allotted for my testimony, another 30 workers will have been 
injured on the job. In the time allotted for this hearing, 
another worker will die.
    OSHA simply must be given the tools to stop companies like 
Cintas, Smithfield, Waste Management and Avalon Bay, from 
making choices that kill workers. Under the current law, the 
penalties are too weak, as you know. A corporation faces a 
longer jail term for killing or harassing a wild burro on 
Federal land than it does for killing a worker with a willful 
violation.
    Even the $3 million, the paltry penalty that OSHA proposed 
for killing Mr. Torres at Cintas, is about 1 day's worth of 
profits for that company.
    OSHA and America's working families need your help to send 
a clear message to negligent employers. Worker's lives must be 
valued ahead of profits. Hazards must be eliminated. Workers 
must be trained, yes, but not blamed. Managers must be held 
accountable for health and safety and corporations must be 
required to behave ethically and legally, or face the most 
severe consequences.
    The Protecting America's Workers Act that you've sponsored 
is a very good first start, but much more is needed to prevent 
more families, like the Torres-Gomez family, like the Figueroa 
family, from mourning because of unsafe jobs.
    These workers' lives are in your hands, the time to act is 
now.
    Thank you very much.
    [The prepared statement of Mr. Frumin follows:]
                   Prepared Statement of Eric Frumin
    Chairman Murray, Ranking Member Isakson and members of the 
subcommittee, thank you for the opportunity to testify today.
    I am Eric Frumin. I serve as the Health and Safety Coordinator for 
Change to Win (CtW), and have worked in this field for 34 years. CtW is 
a partnership of seven unions and 6 million workers, in a wide variety 
of industries, building a new movement of working people equipped to 
meet the challenges of the global economy in the 21st century and 
restore the American Dream: a paycheck that can support a family, 
affordable health care, a secure retirement and dignity on the job. The 
seven partner unions are: International Brotherhood of Teamsters, 
Laborers' International Union of North America, Service Employees 
International Union, UNITE HERE, United Brotherhood of Carpenters and 
Joiners of America, United Farm Workers of America, and United Food and 
Commercial Workers International Union.
    I wish that Eleazar Torres-Gomez, Raul Figueroa and Oscar Pintado 
could be here to tell you about the urgent need to stop dangerous 
working conditions. But they can't. They were killed by preventable 
workplace tragedies.
    Nobody should die on the job. Period.
    At the outset, we must establish a basic principle: employers--not 
the government and not individual workers--have the primary 
responsibility to protect workers' lives on the job. They are obligated 
under law to provide workers with safe equipment, a healthy work 
environment, and effective management systems that deliver that safety, 
or hold managers accountable when they fail.
    Because, too often, companies, including many large and 
sophisticated corporate employers, do fail, with shameful consequences. 
On average, every single day 16 workers die from injuries on the 
job,\1\ and an estimated 130 workers die from occupational diseases.\2\ 
Tens of thousands of workers are injured on the job every day.
---------------------------------------------------------------------------
    \1\ US BLS, Census of Fatal Occupational Injuries (CFOI), 2006.
    \2\ Centers for Disease Control and Prevention (CDC). National 
Occupational Research Agenda. Morbidity and Mortality Weekly Report 
45:445-446, 1996, cited at US DHHS, ``Healthy People 2010''; http://
www.healthypeople.gov/document/html/volume2/20occsh.htm.
---------------------------------------------------------------------------
    Increasingly, these victims are Hispanic. Hispanic workers died in 
greater numbers in 2007 than at any earlier time,\3\ and face a 
stunning 18 percent greater risk of dying on the job than workers 
generally.\4\
---------------------------------------------------------------------------
    \3\ US BLS, CFOI, 2006.
    \4\ Ibid.
---------------------------------------------------------------------------
    This is a reprehensible record. Worse yet is the fact that we have 
recently seen a growing pattern of large corporations ignoring or 
avoiding their obligations to insure a safe workplace.
    These dangerous patterns of abuse take several all-too familiar 
forms:

    <bullet> Corporate demands for subsidiaries, divisions and local 
managers to cut costs overwhelm any local requests for critical safety 
and health investments.
    <bullet> Production pressures that put increased output and higher 
profits ahead of the most basic worker protections.
    <bullet> Corporate safety programs that focus overwhelmingly on 
``worker behaviors''--blaming workers for alleged carelessness or 
insubordination for the results of corporate failures--while ignoring 
management's responsibility to protect workers through safe equipment, 
systems and management accountability.
    <bullet> Business models that rely on worker (and environmental) 
exploitation for profits, combined with unscrupulous employment 
schemes, instead of using smart engineering and ethical labor 
practices.

    We would not be surprised to read such conclusions about industrial 
safety in the beginning of the 20th Century when child labor, unbridled 
corporate control of workers and a laissez-faire approach to government 
regulation all conspired to kill and injure workers needlessly.
    But many of us, and many of our institutions, believed that we had 
overcome these abusive conditions. In the field of job safety and 
health, we believed that with the passage of the 1970 Occupational 
Safety and Health Act (OSH Act), and with comparable and even stronger 
provisions in our mine safety and environmental laws, we had replaced 
those abuses with a nation of laws and at least, an expectation of 
ethical corporate behavior.
    Unfortunately, we now see every day that those laws are virtually 
meaningless to many large corporations. These companies are huge, and 
when they drive down standards, they drive them down for everyone. They 
make it impossible for honest and ethical employers to compete. 
Essentially, they themselves repeal the very laws on which the rest of 
us rely.
    It is time for all of us--Congress, the media, and the ethical 
employers who know better--to put a stop to this worker abuse. 
Compliance with our Nation's laws must be a first priority, not an 
afterthought once profits are counted, bonuses calculated and dividends 
distributed. Any other outcome is morally indefensible, politically 
untenable, and on the most personal, human level, fundamentally 
immoral.
                             bp--texas city
    The patterns described above are clearly seen in the case of BP, 
one of the world's largest corporate entities. BP could have chosen to 
set the standards for excellence, just as it marketed itself as the new 
``green'' company that was ``Beyond Petroleum.''
    The record, however, shows that BP's leaders chose a different 
path, with terrible consequences for workers and their families.
    In its landmark report on the horrible explosion that killed 15 BP 
workers in Texas City in March 2005, the U.S. Chemical Safety and 
Hazard Investigation Board (CSB) pointed to BP's repeated cost-cutting 
at the expense of safety. The CCSB found that BP failed to fix serious 
hazards at Texas City, despite repeated pleas from local managers.\5\ 
The CSB cited key admissions by senior BP managers, including the 
Business Unit leader who commented:

    \5\ U.S. Chemical and Safety and Hazard Investigation Board. 
Investigation Report: Refinery Explosion and Fire, BP, Texas City, 
Texas, March 23, 2005. Report No. 2005-04-I-TX, March 2007.
    Key Organizational Findings.--(1) Cost-cutting, failure to invest, 
and production pressures from BP Group executive managers at all levels 
impaired process safety performance at Texas City, (p. 25). (8) 
Numerous surveys, studies and audits identified deep-seated safety 
problems at Texas City, but the response of BP managers typically was 
``too little, too late,'' (p. 26).
    Chapter 10: Analysis of Safety Culture.--The BP Chief Executive and 
the BP Board of Directors did not exercise effective safety oversight. 
Decisions to cut budgets were made at the highest levels of the BP 
Group despite serious safety deficiencies at Texas City. BP executives 
directed Texas City to cut capital expenditures in the 2005 budget by 
an additional 25 percent despite three major accidents and fatalities 
at the refinery in 2004, (p. 189).
    Chapter 9: BP's Safety Culture. 9.4.17 2005 Budget Cuts.--In late 
2004, BP Group refining leadership ordered a 25 percent budget 
reduction ``challenge'' for 2005. The Texas City Business Unit Leader 
asked for more funds based on the conditions of the Texas City plant, 
but the Group refining managers did not, at first, agree to his 
request. Initial budget documents for 2005 reflect a proposed 25 
percent cutback in capital expenditures, including on compliance, HSE, 
and capital expenditures needed to maintain safe plant operations. The 
Texas City Business Unit Leader told the Group refining executives that 
the 25 percent cut was too deep, and argued for restoration of the HSE 
and maintenance-related capital to sustain existing assets in the 2005 
budget. The Business Unit Leader was able to negotiate a restoration of 
less than half the 25 percent cut; however, he indicated that the news 
of the budget cut negatively affected workforce morale and the belief 
that the BP Group and Texas City managers were sincere about culture 
change.
    In February 2005, the BP Group VP and the North American VP for 
Refining visited Houston, where refinery managers presented details 
about safety transformation efforts, the Telos cultural assessment, and 
``Safety Reality'' slides. The presentation listed the major Telos 
findings, including concern about the condition of the refinery, budget 
cuts, pressure for production overshadowing safety, and inadequate 
training. Also discussed were the three fatalities in 2004 and the poor 
PSM action item closure rate. The site's mechanical availability was 
graded a ``D,'' with little or no progress due to unplanned events such 
as the UU4 fire. Also identified were the initial 25 percent capital 
expenditure cuts in the 2005 budget and the amount restored. Texas City 
managers proposed, in the presentation, that the executive leaders 
restore an additional $41 million of the 2005 cuts in the 2006 budget.
    Chapter 9: BP's Safety Culture. 9.4.18 2005 Key Risk: ``Texas City 
Kills Someone''.--The 2005 Texas City HSSE Business Plan warned that 
the refinery likely would ``Kill someone in the next 12-18 months.'' 
This fear of a fatality was also expressed in early 2005 by the HSE 
manager: ``I truly believe that we are on the verge of something bigger 
happening,'' referring to a catastrophic incident. Another key safety 
risk in the 2005 HSSE Business Plan was that the site was ``not 
reporting all incidents in fear of consequences.'' PSM gaps identified 
by the plan included ``funding and compliance,'' and deficiency in the 
quality and consistency of the PSM action items. The plan's 2005 PSM 
key risks included mechanical integrity, inspection of equipment 
including safety critical instruments, and competency levels for 
operators and supervisors. Deficiencies in all these areas contributed 
to the ISOM incident.

          [S]eeing the brutal facts so clearly defined was hard to 
        digest, including the concern around the conflict between 
        production and safety . . . [while the Texas City plant's $1 
        billion profit was] ``the best profitability [ever] last year--
        more than any other refinery in the BP system.'' \6\
---------------------------------------------------------------------------
    \6\ CSB report, p. 175.

    The CSB also noted that ``. . . BP managers increased site bonuses 
even in the face of three fatalities in 2004.'' \7\
---------------------------------------------------------------------------
    \7\ Ibid, p. 178.
---------------------------------------------------------------------------
    Chillingly, the Board even found that just days before the deaths, 
BP's own managers had predicted the catastrophe:

          [BP's Texas City safety business plan] warned that the 
        refinery likely would ``kill someone in the next 12-18 months. 
        . . . [W]e are on the verge of something bigger happening.'' 
        \8\
---------------------------------------------------------------------------
    \8\ Ibid, p. 177.

    In the opinion of Change to Win, the explosion at BP was not an 
unavoidable accident; \9\ but the result of the company's deliberate 
decision to ignore clear warnings of imminent disaster and put profit 
before the safety of its workers.
---------------------------------------------------------------------------
    \9\ See Hearing before the House Education and Labor Committee, 
March 22, 2007. Testimony of Carolyn Merritt, Chair, U.S. Chemical 
Safety Board, ``Mr. Chairman, the accident at BP was avoidable. In my 
view, it was the inevitable result of a series of actions by the 
company.'' http://frwebgate.access.gpo.gov/cgibin/getdoc.cgi?dbname-
110_house_hearings&docid=f:33902.pdf.
---------------------------------------------------------------------------
    BP got into this trouble in part by misdirecting its systems for 
preventing workplace hazards. Instead of focusing on the critical area 
of process safety management for major refinery hazards, the company's 
own executives and managers focused on controlling workers' behavior. 
And instead of determining plant safety conditions by looking at 
previous close calls and small process safety upsets, ``BP's approach 
to safety largely focused on personal safety rather than on addressing 
major hazards,'' according to the CSB report.\10\
---------------------------------------------------------------------------
    \10\ Ibid, p. 155.

          A central component of the BP Texas City approach to safety 
        was its behavioral programs which had been in effect in some 
        form since 1997. In 2004, 48,000 safety observations were 
        reported under [a] new program. This behavior-based program did 
        not typically examine safety systems, management activities, or 
        any process safety-related activities.\11\
---------------------------------------------------------------------------
    \11\ Ibid, p. 153-154.

    Unless huge corporations like BP understand that they are obliged 
to provide safe jobs and that they will be held accountable for bad 
judgments that hurt and kill people, then we can never expect to see 
widespread compliance with our fundamental labor and environmental 
laws. No government agencies, no prosecutors, no journalists are 
capable on their own of turning this kind of misconduct. It is only the 
corporate executives themselves who can do this and the day for such a 
reckoning is long past due. And if corporate leaders won't change, then 
the Congress has no option but to change the fundamental legal 
framework itself.
    If nothing else, BP has shown us that such fundamental change might 
indeed be necessary.
                           the ``mcwane way''
    McWane Corp., one of the Nation's largest suppliers of steel pipe 
with estimated sales in 2003 of $2 billion,\12\ shows a different kind 
of abuse. McWane subsidiaries maintained production levels and sent the 
profits back to corporate headquarters. But they did so at the expense 
of workplace safety. In the short space of 7 years, from 1995 to 2003, 
nine workers died in various plants, and at least 4,600 were injured on 
the job.\13\ In the following 2 years, another two workers died in two 
of the same plants, even as the company was facing unprecedented 
investigations from OSHA, EPA and the Department of Justice.\14\
---------------------------------------------------------------------------
    \12\ http://www.pbs.org/wgbh/pages/frontline/shows/workplace/
mcwane/two.html.; McWane is privately-owned.
    \13\ http://www.nytimes.com/2003/01/08/national/
08PIPE.html?ex=1206504000&en=9058011 
f27f0c422&ei=5070.
    \14\ http://www.pbs.org/wgbh/pages/frontline/mcwane/etc/
prosecutions.htm.
---------------------------------------------------------------------------
    What was the response of McWane's managers and executives to these 
terrible incidents? Like BP, McWane first blamed their own employees. 
At the trial of the McWane subsidiary, Atlantic States Cast Iron Pipe 
Co., in New Jersey, where the company and multiple executives were 
convicted on a total of 70 counts, including 52 felonies covering 
conspiracy, worker endangerment, and obstruction of justice,\15\ the 
U.S. Attorney told the jury:
---------------------------------------------------------------------------
    \15\ Judge's Memorandum Opinion, U.S. v. Atlantic States Cast Iron 
Pipe Co., et al., 3: 03-cr-00852 (NJDC 2007).

          Welcome to the real Atlantic States, where laborers are 
        intimidated through the words and conduct of their supervisors, 
        who threaten to fire them if they file a worker's compensation 
        claim, if they refuse to lie for the company, or if they hold 
        up production . . . where deception is part of their business, 
        . . . lying to government investigators . . . where blame is 
        part of their business, too, blame the victim, blame the 
        regulators, blame the employees. . . . \16\
---------------------------------------------------------------------------
    \16\ U.S. v. Atlantic States Cast Iron Pipe Co., et al, 3:03-cr-
00852 (NJDC 2007). Trial Transcript, April 3, 2006, pp. 4-5.

    But even worse was what veteran government prosecutors found was an 
unsettling contempt for the law. The former Federal prosecutor who 
organized the ground-breaking effort to bring McWane to justice himself 
---------------------------------------------------------------------------
concluded that McWane was:

          [A] company that was one of the most persistent violators of 
        environmental and workers' safety laws of any company that we 
        had come across in my 17 years at the Justice Department. . . .
          [Y]ou don't have the kind of violations that we saw at 
        multiple facilities within a company and not have . . . a 
        culture of lawlessness. . . . That very much was the culture at 
        McWane, or we wouldn't have seen this number of violations at 
        this number of facilities.
          [W]e're talking about deliberate, intentional conduct: people 
        lying; people concealing information; people committing 
        workers' safety violations that result in people dying; . . . 
        Doing all of that knowingly, doing all of that intentionally.
          They weren't mistakes, they weren't accidents, and they 
        certainly weren't the activities of a few isolated people 
        within the company. This was the McWane way.
          So it's fair to say we had never seen a company quite like 
        McWane, and I would hope we would never see a company quite 
        like McWane again.\17\
---------------------------------------------------------------------------
    \17\ http: //www.pbs.org/wgbh/pages/frontline/mcwane/interviews/
uhlmann.html, Accessed December 4, 2007.

    The U.S. Environmental Protection Agency eventually proposed that 
McWane be debarred from Federal contractual work, stating that McWane 
---------------------------------------------------------------------------
had:

    [A] dreadful history of environmental and worker safety crimes [and 
that] no taxpayer dollars should be spent at a company with a history 
as scandalous as that of McWane.\18\
---------------------------------------------------------------------------
    \18\ http://www.pbs.org/wgbh/pages/frontline/mcwane/etc/
prosecutions.html.

    It was largely the pioneering efforts of the mass media and the 
unparalleled joint intervention of both the career OSHA inspectors and 
dedicated Justice Department criminal prosecutors that forced any 
changes at McWane.\19\
---------------------------------------------------------------------------
    \19\ http://www.pbs.org/wgbh/pages/frontline/mcwane/interviews/
uhlmann.html.
---------------------------------------------------------------------------
    The price paid by those workers and communities is completely 
unacceptable. But worse yet, such a price, tragically, is neither 
unique nor behind us. It is still happening to workers daily, and will 
happen again until the McWanes of the Nation--both the corporations and 
the executives who run them--are finally pursued, corralled and 
required to obey the law.
                           cintas corporation
    Cintas Corporation is another example of a terrible multi-billion 
dollar company that failed to protect its workers from the hazards of 
the workplace. Cintas has a history of gruesome worker injuries and 
Cintas has been cited for over twice as many OSHA violations as its 
three largest competitors combined.\20\
---------------------------------------------------------------------------
    \20\ According to OSHA's Integrated Management Information System 
(IMIS), available at http://www.osha.gov/pls/imis/establish.html, 
between Feb. 1, 2003 to Feb. 29, 2008, Cintas facilities have received 
a total of 265 separate violations, including 157 in cases that are 
officially closed, and another 108 in cases that are still open for a 
variety of reasons (including potential modification of OSHA's original 
citation). In contrast, Cintas' three largest competitors Aramark 
Uniform Services, G&K Uniform Services, and Unifirst, Inc., received a 
total of 123, of which 14 are still ``open'' for potential 
modification.
---------------------------------------------------------------------------
    Cintas is another huge corporate organization, the largest in the 
uniform industry, with hundreds of laundries, over 34,000 workers, 
nearly $4 billion in annual sales and profits running almost $1 million 
per day.\21\
---------------------------------------------------------------------------
    \21\ See: Cintas Corp., FY 2007 Annual Sales and Profit 
Announcement, July 18, 2007. Daily profit calculated by dividing annual 
profit of $335M by 365, or $918,000 per day.
---------------------------------------------------------------------------
    Like BP, Cintas exercises very strict control of capital costs at 
its local facilities,\22\ and the record shows that, like BP and 
McWane, Cintas failed to provide its workers the protection they needed 
to avoid death or injury. And throughout the company, the production-
first mentality appears to overshadow crucial safety considerations.
---------------------------------------------------------------------------
    \22\ Cintas Corp. Policy #C-27, ``Capital Expenditure 
Authorization'', rev'd. Dec. 2, 2004.
---------------------------------------------------------------------------
    In Tulsa, OK, in February and March 2007, Cintas laundry production 
workers were working hard to keep production levels high. To keep the 
piles of laundry moving from the washers into the huge industrial 
dryers, workers climbed up onto unguarded, automated conveyors multiple 
times per day to un-jam the hundreds of pounds of uniforms and mats. 
The overhead video surveillance camera recorded dozens of such 
dangerous incidents.\23\
---------------------------------------------------------------------------
    \23\ OSHA citation 309792216, Tulsa, OK, Aug. 16, 2007.
---------------------------------------------------------------------------
    On the morning of March 6, 44-year-old Eleazar Torres-Gomez, a 7-
year employee and father of four, was pulled off the conveyor into a 
huge uniform dryer. The dryer door closed, and it kept operating, at 
300 degrees. Mr.Torres-Gomez died inside that dryer. After 20 minutes, 
another employee reportedly heard a noise, and finally opened the dryer 
door.\24\
---------------------------------------------------------------------------
    \24\ Marshall, Nicole, ``Tulsan killed in industrial laundry 
facility accident,'' Tulsa World, March 2007.
---------------------------------------------------------------------------
    Failing to protect workers from moving conveyors is an extremely 
dangerous practice, and risks workers' lives. The hazards of unguarded 
conveyors were well-known to Cintas. In fact, OSHA had cited Cintas in 
Central Islip, NY, for violating machine-guarding standards on 
computer-controlled conveyors just 2 years earlier.\25\ And before 
that, OSHA cited Cintas in Rochester, NY for repeated violations of 
standards on machinery repair and maintenance.\26\
---------------------------------------------------------------------------
    \25\ OSHA citation #307631937, Aug. 11, 2005, Item #2, ``Machine 
guarding violation on conveyor shuttle.''
    \26\ OSHA citation #307843045, Sept. 16, 2004, Repeat lockout 
violations involving washing equipment.
---------------------------------------------------------------------------
    The Department of Labor has said that Cintas corporate officials 
were well aware of these violations and the need for increased measures 
to protect workers from hazards on automated conveyors and other 
dangerous equipment in Cintas plants.\27\ And the entire linen and 
uniform laundry industry--which employs 130,000 workers \28\--long 
recognized this urgent problem, after multiple fatalities involving the 
increasingly widespread and dangerous equipment.\29\
---------------------------------------------------------------------------
    \27\ Personal communication from USDOL Office of the Solicitor to 
Eric Frumin, UNITE HERE, November 2005 (Rochester case) and May 2005 
and March 2007 (Central Islip case)
    \28\ U.S. Bureau of Labor Statistics, Employment and Earnings 
Report, March 2007.
    \29\ During 2005 and 2006, the ANSI Z8 Committee on commercial 
laundry equipment safety, ``[Met] . . . in 2004, 2005 and 2006 to 
review new proposals on the [Z8] standard;'' the committee issued a 
revised standard in Jan. 2006, and reissued the final revised standard 
in December 2006. See: Forward, American National Standard for 
Commercial Laundry and Dry Cleaning Equipment and Operations--Safety 
Requirements, American National Standard ANSI Z8.1-2006, American 
National Standards Institute, Inc., December 2006, p. 8; See also: OSHA 
Standard Interpretation: Machine guarding and exposure to hazards from 
robotic laundry shuttles., July 7, 2005.
---------------------------------------------------------------------------
    But Cintas failed to take the action needed to protect its 
employees. Its failures in Tulsa and elsewhere, in OSHA's own words, 
are ``willful,'' ``repeated,'' and ``serious.'' As Assistant Secretary 
of Labor Edward Foulke said when OSHA issued its citations in Tulsa and 
Columbus, OH: ``Plant management at the Cintas Tulsa laundry facility 
ignored safety and health rules that could have prevented the death of 
this employee,'' \30\
---------------------------------------------------------------------------
    \30\ OSHA press release, Aug. 16, 2007.
---------------------------------------------------------------------------
    How did Cintas executives respond to this tragedy? Cintas launched 
an aggressive defense against OSHA's own efforts, and an attack on 
workers who wanted safer jobs. Refusing to accept corporate 
responsibility for the unsafe conditions, Cintas CEO Scott Farmer on 
March 22 publicly blamed Mr. Torres-Gomez for his own death, less than 
a month after the incident and when OSHA's inspection had barely begun, 
``[I]t is clear that our partner did not follow established safety 
rules which would have prevented this tragic accident.'' \31\
---------------------------------------------------------------------------
    \31\ Cintas Corp., Media Statement Regarding: March 6 Incident in 
Tulsa, OK, March 22, 2007.
---------------------------------------------------------------------------
    Rather than focusing solely or primarily on employee behavior, 
OSHA's standards explicitly require physical safeguards. Yet, once 
again, as at BP and countless other companies, Cintas blamed ``worker 
behavior,'' instead of fixing the high-hazard equipment that had just 
been responsible for a worker's death.
    The hypocrisy and inadequacy of this response is clear from the 
record. Since the tragedy, OSHA has found similar violations in 
Columbus, OH, in Stockton, CA, and in Yakima, WA, where a worker had 
his arm mangled in washing equipment less than a month before Torres-
Gomez's death.\32\
---------------------------------------------------------------------------
    \32\ CalOSHA citation #310545298, Stockton, CA, and OSHA citation 
#311109973, Mobile, AL.
---------------------------------------------------------------------------
    Four months after the tragedy, when OSHA inspectors in Mobile, AL 
investigated worker complaints, they found even more ``willful'' and 
``repeated'' violations of machine safety standards in the wash alley. 
When OSHA cited Cintas in October, it said:

          As a large, national employer with a history of OSHA 
        inspections and citations for hazards at other facilities, we 
        are disappointed to find so many of the same or similar hazards 
        at this facility. OSHA will take aggressive action when 
        employers show indifference to the safety and health of their 
        employees.\33\
---------------------------------------------------------------------------
    \33\ OSHA press release, Oct. 31, 2007.

    Cintas is still appealing these violations, and no settlement has 
yet been reached.\34\ Workers continue to report to us that they are 
exposed to hazardous conditions in the washing operations in other 
Cintas plants. Just a few weeks ago, Cintas workers in Bedford Park, IL 
filed yet another complaint regarding these hazards in their laundry 
plant.
---------------------------------------------------------------------------
    \34\ OSHRC cases 07-1710 (Mobile, AL), 07-1419 (Tulsa, OK) and 07-
1395 (Columbus, OH).
---------------------------------------------------------------------------
    Incredibly, even after all this attention, the company still sticks 
to the blame-the-victim approach and refuses to accept responsibility 
for their obligation to undertake the basic engineering and design 
necessary to fix the equipment. Even today, Cintas' fact sheet on 
employee safety continues to assert that ``[W]orkplace injuries are the 
result of unsafe actions by individuals, rather than unsafe workplace 
conditions.'' \35\
---------------------------------------------------------------------------
    \35\ Cintas Corp., Health and Safety Overview, downloaded from 
www.Cintas.com, accessed March 23, 2008.
---------------------------------------------------------------------------
    It appears that Cintas executives have chosen to disregard the most 
fundamental principles of workplace safety management. Like their 
counterparts at McWane and BP, they would prefer to find fault in their 
own workers, even though properly guarding the equipment like that 
which killed Mr. Torres Gomez would have cost $20,000, or less than 10 
minutes of profit.
    That Cintas is by far the industry's giant makes this inaction much 
more serious. When the leader goes in the wrong direction, others may 
follow, and workers across the industry will suffer as well.
                      poultry and meatpacking \36\
    Now let's look at the food industry.
---------------------------------------------------------------------------
    \36\ Research Associates of America. Packaged with Abuse: Safety 
and Health Conditions at Smithfield Packing's Tar Heel Plant October 
2006, revised and updated January 2007.
---------------------------------------------------------------------------
    After I finish, you will hear next from Doris Morrow, a poultry 
worker who will tell you much more about these conditions. But let me 
first review some of the basics.
    For over 100 years, the food industry and its workers have suffered 
from negligent companies which repeatedly violate safety and health 
standards.
    This is not the first time Congress has looked at health and safety 
problems in the meatpacking industry.\37\ And as recently as 2004, 
Senator Kennedy asked the Government Accountability Office to 
investigate the work nature and number of injuries, and the 
effectiveness of OSHA in meatpacking and poultry.\38\
---------------------------------------------------------------------------
    \37\ Hearings before a subcommittee of the Committee on Government 
Operations, House of Representatives, 100th Congress, Washington, DC, 
(March 19, 1987; May 6, 1987 and September 21, 1987), Underreporting of 
Occupational Injuries and Its Impact on Workers' Safety, ( Parts 1, 2, 
and 3).
    \38\ GAO, Workplace Safety and Health: Safety in the Meat and 
Poultry Industry, While Improving, Could be Further Strengthened, GAO-
05-96, (Washington, DC: January 2005). Human Rights Watch, Blood, Sweat 
and Fear: Workers' Rights in U.S. Meat and Poultry Plants, 2004.
---------------------------------------------------------------------------
    Today, 226,500 workers are employed in meatpacking and 213,800 in 
poultry two of the most dangerous industries in the United States.
    According to the BLS, the average rate of injury in meatpacking is 
13 per 100 workers; the average for poultry is 7 per 100 workers. The 
average rate of injury for all manufacturing in 2006 was 6 per 100 
workers.\39\ While reported injury rates are higher than other 
manufacturing industries in the United States, government reports and 
company records document evidence of underreporting.
---------------------------------------------------------------------------
    \39\ Annual Survey of Occupational Injuries and Illnesses, U.S. 
Department of Labor, Bureau of Labor Statistics, Washington DC, 2006.
---------------------------------------------------------------------------
    OSHA, researchers and unions have all stated that the 
underreporting of injuries and illnesses is a problem in these two 
industries.\40\ The Charlotte Observer investigators recently uncovered 
more evidence of underreporting based on worker interviews and a review 
of the OSHA logs at one poultry company, House of Raeford.\41\
---------------------------------------------------------------------------
    \40\ GAO report, page 28.
    \41\ http://www.charlotte.com/poultry/story/487187.html, February 
10, 2008.
---------------------------------------------------------------------------
    The UFCW recently reviewed the 2006 OSHA 300 logs from one 
Smithfield Foods plant in Sioux City, IA and found 35 cases, 19 percent 
of the recorded injuries and illnesses, had been removed from the log 
apparently because the claims were denied by workers' compensation (as 
noted in the margin), a clear violation of the OSHA recordkeeping 
standard, 29 CFR 1910.4.\42\
---------------------------------------------------------------------------
    \42\  UFCW Research.
---------------------------------------------------------------------------
    The largest proportions of workers in the industries are young, 
male and/or Hispanic. More than 25 percent of the workers are estimated 
to be foreign-born non-citizens.\43\ Workers are fearful for their jobs 
and therefore fearful to report injuries or unsafe conditions.
---------------------------------------------------------------------------
    \43\ GAO report, page 16.
---------------------------------------------------------------------------
         house of raeford, smithfield foods and agriprocessors
    An especially flagrant failure to observe proper standards of 
workplace safety killed 25 hard working Americans in 1991 in a gruesome 
fire at the Imperial Food Products Co., in Hamlet, NC, where 25 hard-
working Americans were killed in a gruesome fire, ``their bodies found 
clustered around the blocked doorways or trapped in the freezer, where 
the workers had fled in vain from the fire's heat and smoke.'' \44\
---------------------------------------------------------------------------
    \44\ http://www.time.com/time/printout/0,8816,973801,00.html, 
September 16, 1991.
---------------------------------------------------------------------------
    In the same article, Time Magazine reported:

          The fire also exposed the weakness of measures for ensuring 
        job safety. The 11-year-old Imperial Food Products plant had 
        never been inspected. Like a lot of American workplaces, it 
        fell through the gaping cracks of a system in which there are 
        too few inspectors, penalties are mostly trifling, and the 
        procedures for reporting dangerous conditions can leave workers 
        to choose between risking their jobs and risking their lives. . 
        . .
          Labor organizers and workers' rights groups are calling for 
        stronger measures. Some want an independent investigative body 
        . . . with the power to examine accident sites and set in 
        motion industry-wide changes to save lives in the future. 
        Another proposal . . . would make it easier for OSHA to bring 
        criminal charges against individual employers who are repeat 
        offenders.
          And why not? When the recklessness of employers becomes 
        lethal, perhaps it is time to call it a crime--and act 
        accordingly.

    Have things changed much since the Hamlet fire in the Carolinas 
poultry industry? According to the recent 2-year-long investigation by 
the Charlotte Observer, things have only gotten worse.
                            house of raeford
    The Observer looked carefully at the House of Raeford, a privately 
held company, owned by Marvin Johnson, one of the largest poultry 
producers in the country, with 6,000 workers in seven factories in the 
Carolinas who processes 29 million pounds of chicken and turkey every 
week.
    The Observer reported the abusive treatment of workers--many of 
them Latino immigrants--and conditions that are now as bad or worse 
than at the time of the Hamlet fire. Workers are exposed to loud noise, 
sharp tools and dangerous machinery. Many must stand for long periods 
of time in ``refrigerators,'' wielding knives and hooks to slaughter or 
process meat on a production line that moves at very fast speeds. 
Workers responsible for cleaning the plants, a task which is largely 
contracted out, must use strong chemicals and hot pressurized water on 
running equipment. They suffer serious injuries including amputations 
and even death.
    House of Raeford has repeatedly been cited by State and Federal 
occupational safety and health agencies: 130 serious safety violations 
since 2000, among the most of any U.S. poultry company.\45\
---------------------------------------------------------------------------
    \45\ http://www.charlotte.com/716/v-print/story/488123.html.
---------------------------------------------------------------------------
    This company has shown a similar disregard for environmental 
regulations and the communities where it does business. In the last 5 
years, House of Raeford has been cited and fined nearly $45,000 for 
violations of State and Federal EPA regulations at five of its 
plants.\46\
---------------------------------------------------------------------------
    \46\ http://www.epa-echo.gov/echo.
---------------------------------------------------------------------------
    As in 1991, the State officials in North Carolina have utterly 
failed to carry out their own mandate to protect the people at the 
House of Raeford. North Carolina Labor Commissioner Cherie Berry blamed 
the workers for the egregious violations of their own employers. When 
asked by the Observer about the strong evidence the Observer found that 
House of Raeford failed to report serious injuries, Berry addressed the 
issue as merely a paperwork issue rather than a gross health and safety 
problem.\47\
---------------------------------------------------------------------------
    \47\ http://www.charlotte.com/739/story/528605.html, March 9, 2008.
---------------------------------------------------------------------------
    And when the reporters asked her about workers who were afraid to 
speak up because of fear of retaliation, she simply dismissed the 
problem and placed the burden at the feet of the victims themselves: 
``They need to call us. If we don't know about them we can't help 
them.'' \48\
---------------------------------------------------------------------------
    \48\ http://www.charlotte.com/739/story/528605.html, March 9, 2008.
---------------------------------------------------------------------------
    In his letter to readers at the outset of the series, Observer 
Editor Rick Thames asked his readers to pay attention to the 
newspaper's shocking findings, stating:

          They are our newest subclass. If you look beneath America's 
        entanglements with slavery and child labor, you will find 
        governments that failed famously to balance a free market 
        against the inherent promise of basic human rights.
          We should demand that our leaders repair those policies with 
        realistic solutions. But as citizens and consumers, we should 
        also insist on humane treatment for this new subclass of Latino 
        immigrants who now work to the benefit of many in this country. 
        We've learned from our history. We are better than that.\49\
---------------------------------------------------------------------------
    \49\ http://www.charlotte.com/poultry/story/487184.html, February 
10, 2008.

    We believe that human treatment is not too much to ask for anyone 
who works hard, doing a fundamentally unpleasant job, and puts the food 
on our tables. But apparently, unless a government agency is willing to 
intervene, too many leaders of the poultry industry fail to adequately 
secure safe and healthy workplaces.
                           smithfield packing
    Smithfield Packing displays the same problems in the meatpacking 
industry.
    In Tar Heel, NC, in the same part of the same State where the 
poultry industry exploits workers by the thousands, Smithfield Packing 
maintains the world's largest single pork packinghouse where 
approximately 5,000 workers slaughter and process 32,000 hogs a day. 
Overall, Smithfield slaughters hogs at seven plants in the United 
States (five in the Midwest and two in the Southeast), with a current 
slaughter capacity of 101,000 hogs per day.
    Like the poultry industry, Smithfield Packing goes to great lengths 
to maintain production levels at its Tar Heel facility. Not 
surprisingly, as in the poultry industry, injury rates rose rapidly 
between 2003 and 2006, especially for the musculoskeletal disorders 
(MSDs) that plague workers in meatpacking and poultry plants and other 
industries throughout the economy. An examination of Smithfield's 
injury data from 2003 to 2006 reveals injury and production rates that 
dramatically increased at its Tar Heel plant. The production rates at 
the plant increased from an average of 145,363 hogs per week to 151,713 
hogs per week, or an average of 29,073 a day to 30,342 a day. The rate 
of reported injuries in the plant rose from 318 in 2003 to 696 in 
2006--an increase of more than 200 percent.
    On November 20, 2003, a 25-year-old Smithfield Packing employee 
climbed into a tank to clean it out; he was quickly overcome with toxic 
fumes and killed by asphyxiation. North Carolina Department of Labor's 
Occupational Safety and Health Administration (NC-OSHA), conducted an 
investigation of the event and found that the young man had been 
improperly trained and supervised, and the tanker was not properly 
labeled as a dangerous confined space. Smithfield Packing was fined 
$4,323.\50\
---------------------------------------------------------------------------
    \50\ NCOSHA inspection #07215731 closed June 4, 2004.
---------------------------------------------------------------------------
    On March 2, 2005, NC-OSHA conducted a general walk-through and 
comprehensive safety inspection of the Tar Heel plant and identified 
over 50 violations of safety and health laws, the majority of which 
were categorized as ``serious.'' These included lack of safety 
training, unguarded blades, missing guard rails, blocked exits, 
illegible signage, and improper safety procedures. Smithfield Packing 
paid $17,900 in fines.\51\
---------------------------------------------------------------------------
    \51\ NCOSHA inspection #308548866 closed October 31, 2005 and 
#308542513 closed April 13, 2006.
---------------------------------------------------------------------------
    On June 28, 2005, NC-OSHA visited the plant after it received a 
report that 661 pounds of ammonia had been spilled on the roof on June 
15, 2005. No injuries were reported, but the kill floor was evacuated 
and employees arriving for work were not allowed in the plant. While 
the cause of the spill was found to be related to the improper 
installation of a refrigeration unit, OSHA determined that it was 
Smithfield Packing's responsibility to review the changes to the system 
that were being installed. Smithfield Packing also failed to update 
training records and operating procedures related to the refrigeration 
unit. OSHA fined Smithfield Packing $2,275.\52\
---------------------------------------------------------------------------
    \52\ NCOSHA inspection #308782754 closed July 28, 2005.
---------------------------------------------------------------------------
    A report produced by Research Associates of America, Packaged with 
Abuse, identified several key issues at the Smithfield Tar Heel 
plant.\53\
---------------------------------------------------------------------------
    \53\ Research Associates of America, October 2006, Packaged with 
Abuse: Safety and Health Conditions at Smithfield Foods Packing Tar 
Heel Plant (revised and updated January 2007).

    <bullet> Smithfield Packing tells workers that ``the injury didn't 
happen on the job.'' By refusing to record an injury, Smithfield 
Packing may deny the workers their rights to receive workers' 
compensation benefits, which they are guaranteed under the law.
    <bullet> Smithfield Packing requires workers to return to work 
before full recovery. Studies have revealed that insufficient rest and 
recovery greatly increases the possibility of re-injury or long-term 
health problems due to incomplete healing. Many workers have been 
injured multiple times, and some are left with permanent disabilities.
    <bullet> Smithfield Packing workers have often lost their jobs 
after having been injured. Many workers who can't keep up with 
production or who take too much time off work after an injury have been 
terminated. Their health insurance is then cut off, and if they are not 
receiving workers compensation, they are left with no means of 
receiving medical treatment.

    In reporting his injury, Smithfield Foods worker, James McCormick, 
revealed that he had been injured years before but had healed. 
Smithfield told him that he was fired for failing to reveal the prior 
injury on his job application.

          I got hurt soon after I began working for Smithfield Foods. I 
        was moving heavy pallets around and suddenly I felt my back go 
        ``pop.'' Smithfield Foods told me that they no longer had any 
        use for me at work.--James McCormick, fired after being injured 
        and left with no access to health care.

    Migadalia Felicia Valdez was 8 months pregnant when she had a 
miscarriage following a strenuous workday, which she believes was 
caused by the physical stress of struggling to keep up with the line 
speed. Valdez was put on the line with seasoned workers though she 
didn't have adequate training, and says Smithfield Packing doesn't slow 
the line down for workers in training at the Tar Heel plant.

          We have to put a stop to this. I'm not the only one--there is 
        a pregnant woman on my line who the supervisors know is far 
        along, yet they still put her on the line working with 
        knives.--Migadalia Felicia Valdez, speaking out of concern for 
        coworkers who may become pregnant and may be in danger of 
        miscarriage.

    To meet production goals at the world's largest pork plant, the 
processing lines move exceedingly fast. Workers are under extreme 
pressure to keep up, and some have reported being verbally abused, or 
even fired, if they fall behind. Others try to keep up to the best of 
their abilities, but many of those working in this plant have suffered 
a job-related injury or illness.
    Packaged with Abuse also found that at the same time, in other 
unionized Smithfield Packing plants, injury rates generally have 
declined during the 2003-2006 period. MSD cases have either declined or 
increased only slightly during the same period.\54\
---------------------------------------------------------------------------
    \54\ Ibid., Appendix.
---------------------------------------------------------------------------
    Like House of Raeford, Smithfield Packing has shown a similar 
disregard for environmental regulations and the communities where they 
do business.
    In 2000, after years of hog waste spills and discharges of animal 
waste in North Carolina, Smithfield Foods and its subsidiaries reached 
an agreement with the NC State Attorney General to pay $65 million to 
improve the environment and develop new technologies for processing and 
treating waste.\55\
---------------------------------------------------------------------------
    \55\ http://www.edf.org/pressrelease.cfm?contentID=1207.
---------------------------------------------------------------------------
    In 1997, Smithfield Foods was fined $12.6 million by the 
Environmental Protection Agency (EPA) for 7,000 violations of the Clean 
Water Act at its Virginia packing plants.\56\
---------------------------------------------------------------------------
    \56\ United States v. Smithfield Foods, Inc., Smithfield Packing 
Company, Inc., and Gwaltney of Smithfield, Ltd. 965 F. Supp. 769 (E.D. 
Va 1997). Opinion Filed May 30, 1997, Rebecca Beach Smith, U.S. 
District Court Judge, Supp. 769, 772-81.
---------------------------------------------------------------------------
                             agriprocessors
    AgriProcessors is one of the world's largest kosher meat producers. 
The company is based in Postville, IA where it employs over 800 people 
and produces beef, poultry, turkey and lamb. The company has a smaller 
plant in Gordon, NE, which employs roughly 100 workers. AgriProcessors 
produces meat products under brands such as Aaron's Best, Aaron's 
Choice and Rubashkin's. The company's products are sold at well-known 
retailers such as Trader Joe's and Albertsons.
    The plant has been the center of controversies for a variety of 
issues, including health and safety and environmental issues. In the 
period of April 2001 to February 2006, OSHA records show no less than 
20 violations at AgriProcessors Postville plant. Of these, 12 were 
identified by OSHA as serious. An examination of the Postville plant's 
OSHA 300 logs reveals five amputations along with dozens of other 
serious injuries such as broken bones, eye injuries and hearing loss.
    On March 20, 2008, the Iowa Occupational Health and Safety Agency 
(IOSHA) cited AgriProcessors with 39 new health and safety violations 
with proposed fines totaling $180,000. For perspective, in 2007, IOSHA 
issued 19 violations for all meatpacking plants in Iowa with fines 
totaling over $120,000.
    From 2000 to 2008, numerous reports in the media and a 2006 
investigation by an independent commission of Rabbis have revealed 
numerous cases of worker mistreatment including lack of training, job 
favoritism, and unsafe conditions.\57\
---------------------------------------------------------------------------
    \57\ The Forward, ``In Iowa Meat Plant, Kosher `Jungle' Breeds 
Fear, Injury, Short Pay,'' May 26, 2006; ``Kosher Slaughterhouse Hit 
with Lawsuit,'' May 18, 2007; Gazette, Cedar Rapids, IA, ``Postville 
meatpacker hit with 39 citations,'' March 21, 2008; Des Moines 
Register, ``Agriprocessors cited for alleged health, safety problems,'' 
March 21, 2008; United Synagogue of Conservative Judaism, ``Report of 
the Commission of Inquiry,'' http://www.uscj.org/
Report_of_the_Commis7199.html, December 12, 2006.
---------------------------------------------------------------------------
            msds and line speeds in poultry and meatpacking
    Musculoskeletal disorders (MSDs) are the most prevalent injury in 
poultry and meatpacking plants. Workers suffer sore hands, wrists, 
elbows and shoulders from numbingly repetitive, forceful motions 
performed thousands of times a day. These disorders became epidemic in 
the industry when production changes set in motion in the early 1980s 
changed. ``Boxed beef '' meant that workers made more cuts at faster 
pace. UFCW OSHA complaints and inspections under the general duty 
clause caused changes in the design of the work and medical management 
for the disorders. The enforcement, however, did nothing to change the 
pace of the work.
    Today, with the Bush administration's rescission of the OSHA 
Ergonomics Standard in 2001 and lack of OSHA enforcement for 
ergonomics, workers once again are suffering high rates of injuries. 
While the rate of MSDs reported to the BLS from the meatpacking 
industry is 50 per 10,000 workers in meatpacking, \58\ a recent 
investigation of OSHA 300 logs from a major meatpacking multi-national 
company represented by the UFCW found rates of 10 to 38 per 100 
workers.\59\
---------------------------------------------------------------------------
    \58\ BLS, Table I: Number, incidence rate, median days away from 
work, and relative standard errors of occupational injuries and 
illnesses involving days away from work by selected industries with 
musculoskeletal disorders in private industry for 1992-2006.
    \59\ UFCW Research.
---------------------------------------------------------------------------
    While poultry processing is much more automated than meatpacking, 
the conditions that Mark Linder portrayed in 1995 still exist today.

          It is human hands that . . . (must work) at a grueling pace, 
        set by a relentless conveyor belt and reinforced by circulating 
        foremen, while workers are standing in pools of water and 
        grease in temperatures that range from freezing to 95 degrees 
        and being pelted by flying fat globules or dripping blood . . . 
        the painful damage to tendons and nerves can permanently 
        cripple fingers, hands, wrists, arms and shoulders.\60\
---------------------------------------------------------------------------
    \60\ M. Linder, I Gave My Employer a Chicken That Had No Bone: 
Joint Firm-State Responsibility for Line-Speed-Related Occupational 
Injuries, Case Western Reserve Law Review, 1995.

    Line speeds in these two industries are at meteoric rates. In 
poultry, some plants slaughter chickens at speeds of 177 birds per 
minute. The recently proposed USDA ``Public Health-Based Slaughter 
Inspection System'' will remove maximum line speed regulations in 
exchange for increased microbial testing, further subjecting poultry 
workers to dangerous workplace conditions.\61\ In meatpacking, line 
speeds in pork have increased nearly 80 percent from the 1980s to 
present. Beef slaughter speeds have increased 25 percent in the last 
decade.\62\
---------------------------------------------------------------------------
    \61\ http: //www.fsis.usda.gov/OPPDE/NACMPI/Feb2008/
Poultry_Slaughter_Tech_Report 
.pdf.&
    \62\ UFCW research by Jackie Nowell, Director Occupational Safety 
and Health Office, UFCW International Union (mid-1990s-2006).
---------------------------------------------------------------------------
    OSHA is conducting many inspections of meatpacking plants and 
issuing citations but no inspections are being conducted nor citations 
issued for the most frequently reported injury on the OSHA 300 logs: 
musculoskeletal disorders. In a conversation with an OSHA Area 
Director, there is no support for requiring either inspections or 
citations for ergonomics from the National OSHA office.\63\
---------------------------------------------------------------------------
    \63\ UFCW communication, Jackie Nowell, Director Occupational 
Safety and Health Office, UFCW International Union and OSHA Area 
Director.
---------------------------------------------------------------------------
              osha investigations in the poultry industry
    Workplace safety inspections at poultry plants have dropped to 
their lowest point in 15 years. OSHA says poultry plants are safer than 
ever, pointing to a decade of declining rates of reported injuries.\64\ 
The Charlotte Observer found that the official injury statistics aren't 
accurate and that the industry is more dangerous than its reports to 
regulators suggest. The true rate for poultry processors is likely two 
to three times higher than government numbers suggest, according to Bob 
Whitmore, an OSHA official on administrative leave.\65\ OSHA targeting 
for inspections is based on injury reporting and inspections targeted 
at high injury workplaces. Therefore most plants that report low 
numbers of injury and illness will not be selected for inspection.\66\
---------------------------------------------------------------------------
    \64\ http://www.charlotte.com/716/story/487177.html.
    \65\ http://www.charlotte.com/716/story/487188.html.
    \66\ GAO report, page 44.
---------------------------------------------------------------------------
                      waste management, inc. \67\
    In another emerging industry--solid waste management--we see the 
same signs of abusive negligence or willful misconduct that we see so 
alarmingly at BP, McWane, and Cintas.
---------------------------------------------------------------------------
    \67\ National Commission of Inquiry into the Worker Health and 
Safety Crisis in the Solid Waste Industry. In Harm's Way: How Waste 
Management, Inc. Endangers the Sanitation Workers who Protect the 
Public's Health. April 2008.
---------------------------------------------------------------------------
    The abuses in this industry are not as legendary as in steelmaking, 
oil refineries or food processing. However, if any one event in our 
history demonstrated the lengths that waste workers must go to defend 
their lives and dignity, the 1968 sanitation strike in Memphis, TN, 
where Dr. King was assassinated, showed us all the need for fundamental 
change in labor conditions and workers' rights.
    Every day, the people who collect and dispose of our trash face 
danger on a job that is essential to protecting the public health. 
Sometimes they die at work, like Raul Figueroa, a Waste Management 
Inc., mechanic, who died alone in a repair bay on January 3, 2008. He 
was cut in half and crushed to death by the hydraulic arm of the 
garbage truck he was fixing.\68\
---------------------------------------------------------------------------
    \68\ Miami Herald, ``Mechanic cut in half while fixing truck,'' 
January 4, 2008.
---------------------------------------------------------------------------
    Figueroa's death is one of many fatalities and injuries that 
sanitation workers incur each year on the job. Since the Memphis 
sanitation strike of 1968--which was sparked by the deaths of two 
workers crushed by faulty equipment--safety has been at the heart of 
sanitation workers' struggle for basic human rights. Today, 40 years 
after Memphis, sanitation work is still dangerous and deadly.
    Sanitation work is another dangerous job, more dangerous than 
firefighting or police work.\69\ A sanitation worker is 10 times more 
likely to die on the job than the average worker.\70\ Waste collection 
and disposal ranks as the fifth most dangerous job in the United 
States.\71\ Garbage collection and landfill workers are about twice as 
likely as the average worker to suffer a work-related illness or 
injury.\72\
---------------------------------------------------------------------------
    \69\ Truini, Joe, ``Speakers: Greener equals safer,'' Waste News, 
September 25, 2006. Previous research, although not extensive, has 
confirmed this conclusion. See for instance Huren An, James Englehardt, 
Lora Fleming, Judy Bean, ``Occupational Health and Safety Amongst 
Municipal Solid Waste Workers in Florida,'' Waste Management and 
Research, 17, 5 (October 1999); James D. Englehardt, et al., Solid 
Waste Management Health and Safety Risks: Epidemiology and Assessment 
to Support Risk Reduction, Florida Center for Solid and Hazardous Waste 
Management, University of Florida, Report #00-01 (March 2000). The 
latter study concludes, based on an examination of workers compensation 
cases, that ``the driver/helper occupational group suffered an average 
of 9.8 WC cases of greater than 7 calendar lost work days (LWD) per 100 
workers annually, 7.4 times higher than the rate for the general 
workforce in Florida'' (p. xvi). An earlier study, Geraid Gellin, 
``Dermatoses acquired by solid-waste handlers,'' American Journal of 
Industrial Medicine, vol. 8, no. 4-5, pp. 363-70, focusing on skin 
abrasion found 75 percent of waste collectors had palmar calluses, 
resulting from repeated pressure and friction. An international 
perspective is offered in Sandra Cointreau-Levine, Occupational and 
Environmental Health Issues of Solid Waste Management, n.d., accessed 
at http://www.ilsr.org/recycling/other/dctransfer/ochealth.pdf, on 
December 12, 2007. A major study of the UK trash industry found major 
industry rates about three times as high as the national average and 
fatality rates 10 times the national average--numbers comparable to the 
American industry. See Mapping Health & Safety in the UK Waste 
Industry, Research Report 240 (Berks, UK: BOMEL Ltd., 2004), [ISBN 
0717628655].
    \70\ Source: Bureau of Labor Statistics tables at www.bls.gov/iif/
oshwc/cfoi/cfch0004.pdf, accessed on March 5, 2008.
    \71\ Truini, Joe, ``Speakers: Greener equals safer,'' Waste News, 
25 September 2006.
    \72\ Source: Bureau of Labor Statistics, Industry and Illness Data, 
Summary Table, 2006, at www.bls.gov/iif/oshum.htm, accessed on December 
13, 2007.
---------------------------------------------------------------------------
    Since 1968, as in other sectors of the services industry like 
industrial laundries, ownership has been concentrated into a few big 
companies. Again, the largest company dominating this industry has a 
particularly bad safety record. Waste Management, Inc.(WMI) is by far 
the biggest company in the solid waste industry. (WMI, Allied Waste/BFI 
and Republic Services are known collectively as the Big Three.)
    WMI could set an industry safety standard, yet instead continues to 
rack up safety violations that threaten workers and the public. WMI 
employs approximately 50,000 workers and operates 370 transfer stations 
and 283 landfills. It dwarfs the rest of the top 10 waste hauling 
companies. Thus, WMI sets the standards in the industry, so any fight 
for safety and health reforms must start there.
    With gross revenues of more than $13 billion in 2007, WMI could 
easily afford safety reforms. WMI spent $25 to $30 million a year for 
the last 3 years on advertising and public relations,\73\ and on its 
Web site WMI speaks of safety as a ``core value.'' But WMI's widely 
documented safety problems tarnish its carefully polished image. In the 
past 5 years, OSHA has cited WMI for 232 current violations.\74\ 
Included in these are multiple instances of failing to properly fit 
employees for protective respiratory equipment, as well as exposing 
employees to electrical hazards and fall hazards.\75\
---------------------------------------------------------------------------
    \73\ Deutsch, Claudia H., ``A Garbage Hauler Tidies Up Its Image,'' 
New York Times, February 7, 2008.
    \74\ http://www.osha.gov/pls/imis/establishment.html, January 31, 
2008. The 232 violations were not dismissed upon appeal by the company.
    \75\ Inspections in response to accidents or complaints have 
discovered other types of WMI safety violations as well. After an 
employee lost part of his hand in equipment at a Washington facility in 
2006, OSHA found that employees were inspecting the equipment while it 
was operating and with the safety guards removed. Another OSHA 
inspector found an untrained employee operating a forklift in New 
Jersey in 2007 after a complaint was filed. Examples: Department of 
Labor, Occupational Safety and Health Administration. OSHA No.(s): 
309813004, 309813012, 307926980, 119650307, 309122042, 308640010, 
308766054, 310204458.
---------------------------------------------------------------------------
    Like its counterparts-in-shame at BP, McWane, Cintas, House of 
Raeford and Smithfield Packing, Waste Management's ``Life Critical 
Rules'' safety program disregards the science of safety management. 
Making the same mistakes as BP and Cintas, WMI's program is framed 
around the antiquated and faulty notion that reducing accidents relies 
solely on worker behavior. But the first goal of modern safety 
management is to evaluate the workplace for hazards and develop 
measures to control and eliminate exposure of workers to hazards. WMI's 
focus is to blame the worker for human error, and avoid needed 
workplace safety reforms, an approach in stark contrast to the 
philosophy upon which OSHA was founded 37 years ago.\76\
---------------------------------------------------------------------------
    \76\ See Occupational Safety and Health Act of 1970, Section 5 
(Duties), accessed March 11, 2008, at http://www.legalarchiver.org/
osh.htm.
---------------------------------------------------------------------------
    WMI's safety record appears to be worsening. WMI's OSHA violations 
increased by 28 percent between 2003 and 2007.\77\ Nearly a third of 
WMI's OSHA violations over the past 5 years were categorized as 
``serious,'' defined by OSHA as violations in which ``there is a 
substantial probability that death or serious physical harm could 
result.''
---------------------------------------------------------------------------
    \77\ These violations do not capture the extent of the safety risks 
workers face at Waste Management, because OSHA evaluates work sites 
during regularly scheduled inspections, in response to complaints, 
following accidents, or in response to referrals from other agencies. 
Almost all inspections occur at the employer's physical address. This 
means that for waste companies' trash hauling divisions, the most 
dangerous work--performing trash pick-up on trucks out on their 
routes--is not inspected. Off-premise inspections do occur in response 
to accidents, and can uncover practices that might not be discovered 
otherwise.
---------------------------------------------------------------------------
    Workers are closest to virtually every risk that the industry 
generates. They place their lives in harm's way every day to protect 
the public's health and keep our streets clean. They face hazards that 
include being crushed by machinery, inhaling asbestos, handling used 
medical needles and human feces, and working 13-hour days.
    Vehicle accidents are a key occupational and public risk in the 
solid waste industry, and occur at higher levels than for the trucking 
industry in general. Garbage trucks are involved in 41 percent more 
fatal crashes than the average work-related truck.\78\ In 2004, 115 
members of the general public and 45 sanitation workers were killed in 
waste industry-related traffic accidents.\79\
---------------------------------------------------------------------------
    \78\ Source: Paul E. Green and Daniel Blower, ``The safety profile 
of work-related trucks,'' p. 31, prepared for the National Truck 
Equipment Association, University of Michigan Transportation Research 
Institute, July 2005, at http://hdl.handle.net/2027.42/13897 accessed 
on July 17, 2007. Data drawn from Trucks Involved in Fatal Accidents 
data, 1997-2000; 2002 and Vehicle Inventory and Use Survey (VIUS), 
2002. Trucks involved in fewer than 100 fatal crashes excluded.
    \79\ Bureau of Labor Statistics, Census of Fatal Occupational 
Injuries, ``Industry by transportation incidents and homicides, 2004,'' 
available at www.bls.gov/iif/oshcfoil.htm#2003, accessed December 8, 
2007; Center for National Truck and Bus Statistics, University of 
Michigan, Transportation Research Institute, Trucks Involved in Fatal 
Accidents database, March 2007. Data for 2004 is the most recent 
available.
---------------------------------------------------------------------------
    Waste Management is putting unsafe trucks on the highways and in 
our communities. Waste Management's out-of-repair trucks are among 
those most often pulled off the Nation's highways by the U.S. 
Department of Transportation (DOT) as unfit to be driven, or ``out-of-
service.'' Waste Management trucks, for example, have out-of-service 
violations 28.6 percent of the time (indicating State police actually 
stopped the truck from proceeding based upon the severity of the 
violations discovered), the highest rate among the Big Three.\80\ WMI's 
out-of-service rate is 25 percent higher than the average for the 
trucking industry as a whole.\81\
---------------------------------------------------------------------------
    \80\ In several States, the out-of-service percentage is above 30 
percent: Arizona, Colorado, Massachusetts, Minnesota and Virginia. In 
Illinois, it is 40 percent, and in Orlando, FL, WMI's out-of-service 
record is 56.7 percent. Source: United States Department of 
Transportation, Federal Motor Carrier Safety Administration, SafeState 
Online, acc. From ai.fmcsa.dot.gov, accessed on December 11, 2007. The 
FMCA recorded information for the 30 months up to late October 2007. 
DOT registration numbers were for Waste Management, Inc. entities with 
more than 100 power units. For comparison, United Parcel Service has an 
OOS rate of less than 8 percent.
    \81\ WMI's vehicle out-of-service rate of 28.6 percent drawn from 
United States Department of Transportation, Federal Motor Carrier 
Safety Administration, SageStat Online, accessed from ai.fmcsa.dot.gov 
on Dec. 11, 2007. Information on inspections is from the 30 months up 
to late October 2007. DOT registration numbers for more than 100 power 
units. For the trucking industry as a whole, the rate of 22.89 percent 
is for 2006, drawn from ``Program Measures, Roadside Inspections, 
National Reports, Activity Summary,'' at ai.fmcsa.dot.gov/
ProgramMeasures/RI/NR/NAS/Report.asp?FC=C&RF=T, accessed on March 20, 
2008.
---------------------------------------------------------------------------
    More than 59 percent of the Waste Management workers rated WMI's 
overall truck maintenance as ``fair'', ``poor'' or a ``failure'' in a 
recent survey by the University of Illinois Occupational Health 
Services Institute and the Teamsters Solid Waste Division and Safety 
and Health Department.\82\ Only 7.6 percent rated the company's truck 
maintenance as ``excellent.''
---------------------------------------------------------------------------
    \82\ National Commission of Inquiry into the Worker Health and 
Safety Crisis in the Solid Waste Industry. In Harm's Way: How Waste 
Management, Inc. Endangers the Sanitation Workers who Protect the 
Public's Health. April 2008.
---------------------------------------------------------------------------
    Long hours for sanitation workers make driving riskier. The 
hundreds of WMI workers who responded to the survey averaged 10 hours 
of work a day. Nearly 40 percent reported working 11 or more hours per 
day. Hours like these mean driver fatigue, which a 2005 DOT report 
revealed as a key factor in serious crashes.\83\
---------------------------------------------------------------------------
    \83\ ``Large Truck Crash Causation Study database,'' July 2005, in 
U.S. Department of Transportation, Federal Motor Carrier Safety 
Administration, ``Report to Congress on the Large Truck Crash Causation 
Study,'' March 2006, at www.fmcsa.dot.gov/facts-researchlresearch-
technology/report/ltccs-2006.pdf, accessed on August 15, 2007.
---------------------------------------------------------------------------
    Exposure to hazardous substances--including used syringes, blood 
products, and asbestos--is a daily occurrence for WMI workers. In the 
recent University of Illinois/Teamsters survey, more than 54.1 percent 
of the WMI workers surveyed reported being in contact with used 
syringes over the past 3 months; 46.5 percent reported being in contact 
with medical waste over the past 3 months; 37.7 percent reported coming 
into contact with blood products and 33 percent came into contact with 
asbestos. These statistics raise the issue for these workers of 
lifelong exposure to blood borne pathogens and asbestos.
    Nearly half of WMI workers in the survey reported working while 
injured during the past year; more than a fifth reported working 
injured on a regular basis. Due to fierce management pressure and 
intimidation, as well as too few sick days, sanitation workers often 
continue working even though injured and in pain.
    OSHA needs greater enforcement powers regarding companies such as 
Waste Management, companies with a history of rampant and persistent 
safety violation. Bad actors such as WMI will not be deterred by ``slap 
on the wrist'' fines from OSHA. For example, a WMI worker was killed in 
Florida in 2005 when he fell under and was crushed by a trash 
collection vehicle. OSHA found that WMI was using temporary workers as 
helpers on trash trucks and did not assure that personal protective 
equipment was ``provided, used or maintained wherever necessary.'' \84\ 
WMI was fined only $1,000 for this violation. This amounted to a token 
fine for a company that in 2006 took in $268,000 for each worker 
employed.
---------------------------------------------------------------------------
    \84\ Department of Labor, Occupational Safety and Health 
Administration. ``Informal Settlement Agreement in the Matter of Waste 
Management of North Florida,'' OSHA No.(s): 309068864. December 13, 
2005.
---------------------------------------------------------------------------
    It is clear that the sanitation industry, upon whom we all rely on 
on a daily basis, is long overdue for major changes in its health and 
safety practices. It is equally clear that leading employers like WMI 
should be among the companies high on the list for that attention.
                               avalon bay
    In the residential construction industry, unscrupulous developers 
and contractors have tolerated, and in some cases repeatedly allowed, 
highly hazardous conditions which imperil worker safety.
    On March 8, 2007, Oscar Pintado, a 27-year-old carpenter, died at 
an apartment complex in Woburn, MA, where he was working near an 
elevator shaft. He reportedly fell off a ladder and plunged at least 45 
feet inside the shaft. The builder/developer on this project was Avalon 
Bay Communities, a large national developer and construction manager 
for residential complexes.\85\
---------------------------------------------------------------------------
    \85\ Woburn Daily Times Chronicle, ``OSHA begins review into fatal 
fall at Avalon,'' March 9, 2007.
---------------------------------------------------------------------------
    This was certainly not the first time that contractors hired and 
supervised by Avalon Bay failed to provide the fall protection 
considered essential on any competently-run construction job site. For 
instance, throughout New England and New York State, the Avalon Bay 
company has hired the framing contractor Shawnlee Construction, Inc. In 
June and August 2006, OSHA inspected job sites of Avalon Bay/Shawnlee 
site in Newton, MA and Danvers, MA where they found substantial fall 
hazards. The inspectors found workers without fall protection working 
at heights of 32 and 22 feet, respectively.\86\ At the time of these 
two inspections, while there had been one incident involving a fall, no 
one had yet been seriously injured or killed.
---------------------------------------------------------------------------
    \86\ http: //www.osha.gov/pls/oshaweb/owadisp.show_document ? 
p_table=NEWS_RELEASE
S&p_id=13284.
---------------------------------------------------------------------------
    The following December, OSHA cited the two companies for repeated 
violations of OSHA's fall protection standards, with proposed penalties 
totaling $164,000 for Shawnlee and another $43,000 for Avalon Bay. As 
OSHA's New England Regional office said at the time:

          OSHA issued two repeat citations to Shawnlee for the fall 
        hazards in Newton and Danvers because the agency had cited the 
        company in 2004 and 2005 for fall hazards at jobsites in 
        Andover and Charlton, MA. Shawnlee was issued an additional 
        repeat citation for exposing employees to overhead hazards at 
        the Newton site, because it was cited in 2005 for similar 
        hazards at job sites in Hudson, MA, and Mt. Kisco, NY. Proposed 
        fines for the repeat citations total $140,000.
          Seven serious citations, carrying $24,000 in proposed fines, 
        were issued to Shawnlee for uncovered floor holes at the 
        Danvers worksite and for electrical, fire extinguisher, guard 
        rail, debris, stairway and additional fall protection hazards 
        at the Newton site. OSHA issues a serious citation when death 
        or serious physical harm is likely to result from a hazard 
        about which the employer knew or should have known.

    Shortly thereafter, on Avalon Bay's project in Woburn, Oscar 
Pintado fell and suffered his fatal injury.
    Shawnlee was cited by OSHA three more times for ``repeat'' fall 
protection violations in the following year, again paying tens of 
thousands of dollars in penalties.
    In total, OSHA has found Shawnlee to have violated critical fall 
protection standards 21 separate times since 2000 alone. And five 
times, in four separate inspections, OSHA inspectors cited Shawnlee for 
``repeated'' violations of fall-protection standards.\87\
---------------------------------------------------------------------------
    \87\ OSHA Integrated Management Information System, http://
www.osha.gov/pls/imis/establishment.html, accessed March 13-14, 2008.
---------------------------------------------------------------------------
    What will it take to force large companies like Avalon Bay and 
Shawnlee to stop their reckless and repeated violations of critical, 
life-saving OSHA protections on fall-protection and other essential 
construction safety measures?
    There is no way to answer that question without acknowledging the 
critical importance of labor relationships in the construction 
industry. The labor relations system in construction is increasingly 
based on shifting liability from powerful construction managers like 
Avalon Bay, to multiple subcontractors and individuals without 
resources to ensure job safety, leaving industry leaders looking 
blameless for the evident failures of the very contractors they select, 
supervise and pay.
    While subcontracting obscures responsibility for critical workplace 
failures, misclassification of construction workers leaves workers 
without protection when they are injured. By wrongly classifying their 
regular employees as ``independent contractors,'' construction 
contractors (as well as other trucking companies and other industries) 
evade their obligations to pay workers' compensation or unemployment, 
withhold payroll taxes, pay overtime, provide employee benefits, or 
obey a multitude of laws adopted to protect employee rights. Because 
employers have no legal obligation to the health and safety of 
independent contractors, disregard for worker safety rules is 
aggravated by misclassification.
    According to a special study done for the U.S. Department of Labor, 
``the number one reason employers use ICs [independent contractors] 
and/or misclassify employees is the savings in not paying workers' 
compensation premiums and not being subject to workplace injury and 
disability-related disputes.'' \88\ Employers that don't have to pay 
workers' compensation and other entitlements gain a substantial 
financial advantage and can underbid law-abiding employers who do 
provide coverage for their workers.
---------------------------------------------------------------------------
    \88\ ``Independent Contractors: Prevalence and Implications for 
Unemployment Insurance Programs,'' Planmatics, Inc. February 2000, p. 
iii.
---------------------------------------------------------------------------
    Oscar Pintado himself was reportedly considered a ``subcontractor'' 
at the Woburn site. It is no wonder, therefore, that National Carpentry 
Corp. appears to have escaped any sanction by OSHA for the hazardous 
conditions leading to his death.\89\ And yet, less than a year later, 
National Carpentry was cited by OSHA for repeat fall-protection 
violations at another site, in Stamford, CT.\90\
---------------------------------------------------------------------------
    \89\ OSHA inspection #310746318, no violations identified, as of 
March 24, 2008.
    \90\ OSHA inspection #311550214; citations issued February 8, 2008.
---------------------------------------------------------------------------
    Typically, Avalon Bay was not even formally included in OSHA's 
Woburn inspection after Pintado's death. In fact, according to the 
comprehensive enforcement data on OSHA's Web site, Avalon Bay was 
repeatedly inspected during the 2003-2008 period and often escaped 
OSHA's grip.
    However, for reasons that OSHA has yet to explain publicly, OSHA 
withdrew the high-penalty citations against Avalon Bay and Shawnlee 
issued in MA in December 2006. This failure by the agency to maintain 
its high enforcement profile can only encourage other contractors and 
developers to follow Avalon Bay's lead, and continue to expose workers 
to severe, and even potentially fatal, hazards.
   osha can stop these problems with added resources, new authority 
                           and political will
    OSHA has repeatedly failed in its 37-year history to protect 
workers. Resources have been a constant problem. In far too many cases, 
inspectors arriving only after a serious incident or years of neglect, 
where earlier intervention would have saved lives. In other situations, 
the problem arises from limits on OSHA's legal authority, like weak or 
missing standards, or OSHA's inability to compel compliance while 
employers appeal citations (as contrasted with the fix-first/appeal 
later rules under the mine safety laws).
    This record is not to diminish for a moment OSHA's successes, which 
are considerable. It is undeniable that the long-term drop in death and 
injury rates has much to do with OSHA's presence on the industrial 
landscape, at least in some industries where OSHA has traditionally had 
a significant presence, demonstrated by both effective standards and 
consistent enforcement.
    Nor do OSHA's repeated failures diminish the dedication of career 
OSHA staff who have often found themselves a lonely voice of reason and 
humanity in a world of industrial chaos.
    But the biggest single obstacle to effective intervention is simple 
lack of political will. For many of its years, OSHA has been a captive 
of entire administrations and their political appointees who were, 
frankly, hostile to or only mildly supportive of the agency's 
fundamental mission as an enforcer of strict labor standards. The Bush 
administration and the current Assistant Secretary Edward Foulke are, 
unfortunately, no exception. At the State level, many State OSHA plan 
administrators also suffer from the same hostility and neglect by labor 
commissioners or State legislatures, assuming that they are even 
committed to their mandate in the first place.
    Front-line OSHA inspectors--even the best of them--are often 
overburdened and under-trained by the same ineffective agency leaders. 
Under the circumstances, it can seem like a virtual miracle when a 
dedicated inspector actually confronts a deceitful employer, finds the 
most serious and hidden violations, overcomes the legal obstacles, 
skirts the political minefields, and actually holds an employer 
accountable. Only rarely do they receive the full support that should 
be brought to bear routinely. As one observer noted, before the McWane 
prosecution in New Jersey, employers lied so often to OSHA inspectors 
that they lied just to stay in practice. And after the McWane 
convictions, employers in New Jersey now virtually salute the same 
inspectors.
    It should not take the deaths of seven workers to finally get 
inspectors the kind of support and resources they need. All employers--
and especially those who look for loopholes--and all workers should 
expect that the next OSHA inspection will be competent, persistent, 
sophisticated and knowledgeable. The evidence before us demonstrates 
that anything less than that is a recipe for failure.
                      stronger criminal provisions
    However, no civil enforcement agency, no matter how well-motivated 
or well-funded, can stop all such abuses, especially when committed on 
such a scale as the likes of major industry leaders like BP, McWane, 
Cintas, House of Raeford, Smithfield, Waste Management, Avalon Bay and 
Shawnlee. OSHA will need greatly expanded power and resources if it is 
ever to seriously come to grips with this level of misconduct. 
Currently, the law provides criminal sanctions only in the case of 
fatalities resulting from a willful violation of a specific standard. 
And even that egregious misconduct is only a misdemeanor, punishable 
with a maximum 6-month sentence.
    OSHA is also incapable of dealing forcefully with employers whose 
bad behavior, like that of McWane, is deliberately hidden, and simply 
never shows up on OSHA's radar screen. Unless and until OSHA has both 
the will and the tools to impose its authority directly on powerful 
employers--especially those that misrepresent or conceal the facts from 
inspectors--American workers will never have adequate protection, let 
alone avoid worker deaths like those of Eleazar Torres-Gomez, Raul 
Figueroa and Oscar Pintado, who died while citations were pending as 
yet unremedied.
    And some of those tools must come from the U.S. Department of 
Justice, to finally make sure that the McWanes and Cintases of the 
Nation do not escape the full consequences when their willful 
violations kill workers. Criminal prosecutions for worker deaths are 
extremely rare, and a person prosecuted for harassing a wild burro on 
Federal land faces more serious punishment than one prosecuted for a 
willful OSHA violation that causes the death of an employee.\91\ And 
even the $3 million civil penalty that Cintas faces in OSHA fines is 
less than 1 percent of its annual profits.
---------------------------------------------------------------------------
    \91\ David Barstow, ``U.S. Rarely Seeks Charges for Deaths in 
Workplace,'' New York Times, 22 December 2003.
---------------------------------------------------------------------------
    In his recent interview with PBS Frontline, Assistant Attorney 
General Ronald Tenpas cited the complexity of the McWane and BP cases, 
especially given the weakness of OSHA compared to environmental laws. 
He virtually invited this subcommittee to give him the power to pursue 
outrageous corporate violators of worker health and safety laws:

    <bullet> Question. One of the more startling things we learned 
early on in our reporting is that if you ``willfully'' violate an OSHA 
regulation and a worker dies, it's a misdemeanor under Federal law.
    Answer. At the end of the day, we work with the penalties that 
Congress has decided over time are the appropriate ones to provide.\92\
---------------------------------------------------------------------------
    \92\ http://www.pbs.org/wgbh/pages/frontline/mcwane/interviews/
tenpas.html, December 13, 2007. Tenpas, who directs the Justice 
Department's Environment and Natural Resources Division, continued: 
``In some of those cases, McWane being an example, we have found there 
may be violations related to worker safety, but there are also more 
serious violations related to the environment where penalties are 
typically much more significant: maximum 5 years, 10 years, jail time . 
. . What we do every day is try to protect the environment because 
environmental violations can cause lots of harm. They can obviously 
hurt rivers and trees and wildlife, but part of the reason we have 
environmental statutes is to protect people, too. . . . And we 
certainly hope that changing conduct is going to have beneficial 
effects for the workers who are there at the plant.''

    Congress should provide OSHA with the new tools and resources it 
needs. This means, first and foremost, treating criminal violations of 
the OSH Act as felonies, with appropriate sentences. It also means 
expanding these sanctions to cases of severe worker injury, and, under-
appropriate circumstances (which now apply in Federal environment 
statutes), even the endangerment of workers.
    Congress should provide increased penalties as incorporated in the 
Protecting America's Workers Act, as well as other legislation to 
complete the necessary reforms.
                             more resources
    OSHA will also need--at long last--the resources they have been 
denied for so long. Federal OSHA's staffing itself continues to 
stagnate, with roughly the same number of full-time equivalent staff 
(FTE's) now as it had in 1983. That represents about a 23 percent drop 
from the peak staffing achieved in 1980. At this level, it would take 
OSHA inspectors 133 years to examine every workplace under their 
jurisdiction. State OSHA plans do not fair much better.\93\
---------------------------------------------------------------------------
    \93\ AFL-CIO, ``Death on the Job,'' 2007.
---------------------------------------------------------------------------
    Our economy has grown substantially since then and with only minor 
variations, OSHA's staff has not kept pace. The number of 
``establishments'' and employees per FTE are now more than what they 
were when OSHA first began. Like other regulatory agencies whose staff 
and budgets were cut, OSHA desperately needs the funding and staff 
resources sufficient to ensure OSHA can do the job that America's 
employers, workers and their families are counting on it to do.\94\ 
This would include greater assistance for State plans that are often 
under-funded themselves.
---------------------------------------------------------------------------
    \94\ Senate Subcommittee on Employment and Workplace Safety, April 
26, 2007. Testimony of Peg Seminario, AFL-CIO.
---------------------------------------------------------------------------
    And some of these resources should be shifted from the over-funded 
compliance assistance programs that have yet to demonstrate their value 
in either preventing injuries and illnesses or actually increasing 
employer compliance. While recent evidence again indicates that 
compliance inspections are indeed associated with reduced injury rates, 
there is no comparable evidence that the $50 million compliance 
assistance program produces consistent or positive results.\95\ This is 
clearly unacceptable in an era of limited budgets and congressional 
scrutiny.
---------------------------------------------------------------------------
    \95\ ``The Effect of DOSH Enforcement Inspections and Consultation 
Visits on the Compensable Claims Rates in Washington State,'' 2004-2005 
SHARP Technical Report Number: 70-03-2006, Washington State Department 
of Labor and Industries, Olympia, WA, December 2006.
---------------------------------------------------------------------------
         adopt and expand the protecting america's workers act
    We strongly urge you to adopt the measures that will finally give 
us a new and stronger OSHA, like that envisioned by S. 1244, the 
Protecting America's Workers Act (PAWAct). It would not only strengthen 
enforcement, such as criminal sanctions and enhanced penalties for 
fatal injuries, but also expand rights for the victims and survivors of 
workplace tragedies. For the first time, it would provide criminal 
prosecutions for negligent employers who seriously injure workers, 
actions that now escape criminal sanction entirely. The PAWAct would 
also expand and strengthen ``whistleblower'' and anti-retaliation 
protections for workers who complain about hazards and injuries, as 
well as--at long last--expand coverage to the millions of public sector 
workers who currently have no protection at all under the OSH Act.
           additional legislative remedies--beyond the pawact
    Our standards are grossly inadequate. We need not only more and 
better standards, but also a mandate to force OSHA's current leadership 
to cease endlessly dragging its feet and relying on hastily announced 
national emphasis programs that are no substitute for a legal standard 
with serious enforcement. OSHA should issue standards on well-
documented hazards such as diacetyl, cranes and combustible dust, as 
well as permissible exposure limits generally. And most of all, OSHA 
should reverse the regrettable repeal of the landmark Ergonomics 
Program Standard.
    We also need a realistic capacity at OSHA to do the kinds of 
corporate-wide investigations that proved so invaluable at companies 
like McWane and are still needed at Cintas, Avalon Bay and others. OSHA 
must make sure that corporate offices--and the corporate officers who 
work there--are as much the target of investigations as the supervisors 
and workers who OSHA first interviews. This is especially important 
when investigations involve either serious consequences, employer 
deception, or both.
    OSHA--and OSHA's practice for 37 years--is designed to determine 
violations at individual ``establishments.'' In an era of giant 
corporate entities, we need greatly expanded authority to conduct 
broader investigations, and take enforcement action on a corporate-wide 
basis. And OSHA must take such action before fatalities or injuries 
occur, without waiting for the willful, repeated, and egregious 
violations, which typically trigger the application of broad, but 
essentially unenforceable, ``corporate-wide'' settlement agreements. 
While some of these agreements have worked well, others have not. In 
any case, they were reactive responses to problems, not preventive 
approaches in keeping with the overall preventive purposes the Congress 
intended from the outset.
    In order to accomplish those goals, we urge you to make sure that 
OSHA has, finally, a 21st Century information system; one that keeps 
close track of employers, even large employers, instead of treating 
each separate inspection or location like a unique entity, irrespective 
of the patterns of abuse throughout large multi-site companies. 
Repeated violations in one location should not escape scrutiny simply 
because the employer operates under another name, or in a State with a 
separate State enforcement program.
    But OSHA alone can't do it, even if you give the Justice Department 
the tools to pursue effective criminal sanctions and OSHA finally takes 
this weapon seriously.
    Most of all, OSHA will need the political will to seriously 
administer the OSH Act, an essential ingredient of any regulatory 
program which has been missing from the Labor Department for a long 
time.
    We also need strict oversight by the Labor Department of companies 
who refuse to comply with Federal laws on worker health, safety and 
taxation, as well as on environmental issues, including debarment from 
Federal contracts from repeated or willful conduct.
    If EPA can debar McWane from Federal contracts for polluting the 
water or poisoning the air, why should not the Secretary of Labor be 
able to bar McWane for violations that repeatedly kill workers?
    Nobody should die on the job. Period.
    In 1998, Mr. Gerard Scannell criticized an OSHA/EPA investigation, 
finding that the agencies had again failed to closely examine the 
management systems, and asked the fundamental question about corporate 
accountability for violations of Federal worker safety and 
environmental rules: ``Don't these companies know about the rules? 
Don't they care? '' \96\
---------------------------------------------------------------------------
    \96\ Expert Review of EPA/OSHA Joint Chemical Accident 
Investigation Report, Napp Technologies, Inc., Lodi, NJ, March 1999, 
EPA 550-F99-004. Congressional dissatisfaction with the EPA/OSHA report 
was the final straw in the Congress' bi-partisan efforts to force the 
Clinton administration to withdraw its traditional line-item veto 
threat that had left the U.S. Chemical Safety and Hazard Investigation 
Board without funding since its initial establishment by the Congress 
in 1990. See Weiss, Rick, ``Report on N.J. Blast Revives a Debate; 
Clinton to Decide on Funding for Chemical Safety Board'', Washington 
Post, October 23, 1997; also, Weiss, Rick, ``Chemical Safety Board 
Lurching Back to Life,'' Washington Post, October 9, 1997.
---------------------------------------------------------------------------
    We believe that these companies have already answered these 
questions. They have shown little regard for human life and ethical 
corporate conduct.
    It would have cost these huge companies almost nothing to protect 
their workers.
    America's working families know all too well what will happen if we 
do not strengthen OSHA. More workers will die because of exposure to 
well-documented hazards like diacetyl, combustible dust and slipshod 
site management. More workers will suffer crippling injuries from high 
production pressures and poor ergonomics. More companies will go 
unpunished, even when knowingly putting workers in harm's way.
    We call upon this subcommittee to adopt these measures. But we also 
call upon the committee itself to investigate directly the employers 
who flout our labor laws and enforcement agencies. We ask you to send a 
clear message to negligent employers:

    <bullet> Workers' lives must be valued more than profits.
    <bullet> Hazards must be eliminated.
    <bullet> Workers must be trained, not blamed.
    <bullet> No worker should be allowed to die as a result of 
corporate greed and reckless disregard.
    <bullet> Managers must be held accountable.
    <bullet> Corporations like Cintas, WMI and Smithfield Packing must 
behave ethically and legally, or face the most severe consequences.

                                 ______
                                 
                                ADDENDUM
    For further information, see the report by the National Commission 
of Inquiry into the Worker Health and Safety Crisis in the Solid Waste 
Industry, In Harm's Way: How Waste Management, Inc. Endangers the 
Sanitation Workers who Protect the Public's Health. Published April 
2008. http://www.teamster.org/08news/nr_080325_1.asp.
    See also the report published by Research Associates of America, 
Packaged with Abuse: Safety and Health Conditions at Smithfield 
Packing's Tar Heel Plant. Revised January 2007. http://
www.smithfieldjustice.com/pressrelease.php.
                                 ______
                                 

         [Time in Partnership With CNN--Monday, Sept. 16, 1991]

                          (By Richard Lacayo)

                   How Far Have We Come In 17 Years?
                   accidents death on the shop floor
    Nobody who worked at the Imperial Food Products plant in Hamlet, 
NC, had much love for the place. The job--cooking, weighing and packing 
fried chicken parts for fast-food restaurants--was hot, greasy and 
poorly paid. The conveyor belts moved briskly, and the few rest breaks 
were so strictly timed that going to the bathroom at the wrong moment 
could lead to dismissal. But, in the sleepy town of 6,200 there was not 
much else in the way of work. So most of the plant's 200 employees, 
predominantly black and female, were thankful just to have the minimum-
wage job. Until last week, that is.
    The morning shift had just started when an overhead hydraulic line 
ruptured, spilling its volatile fluid onto the floor. Gas burners under 
the frying vats ignited the vapors and turned the 30,000-sq.-ft. plant 
into an inferno of flame and thick, yellow smoke. Panicked employees 
rushed for emergency exits only to find several of them locked. ``I 
thought I was gone, until a man broke the lock off,'' says Letha Terry, 
one of the survivors. Twenty-five of Terry's fellow employees were not 
so lucky. Their bodies were found clustered around the blocked doorways 
or trapped in the freezer, where the workers had fled in vain from the 
fire's heat and smoke.
    The disaster brought to light the mostly invisible body count of 
the American workplace. By some estimates, more than 10,000 workers die 
each year from on-the-job injuries--about 30 every day. Perhaps 70,000 
more are permanently disabled. The fire also exposed the weakness of 
measures for ensuring job safety. The 11-year-old Imperial Food 
Products plant had never been inspected. Like a lot of American 
workplaces, it fell through the gaping cracks of a system in which 
there are too few inspectors, penalties are mostly trifling, and the 
procedures for reporting dangerous conditions can leave workers to 
choose between risking their jobs and risking their lives.
    ``The tragedy that occurred in Hamlet is a direct result of 10 
years of the Reagan-Bush philosophy of letting industry police 
itself,'' says Deborah E. Berkowitz, top safety expert for the United 
Food and Commercial Workers International Union. ``There's a USDA 
inspector in every poultry plant to protect consumers from getting a 
stomach ache, but there's nobody protecting people from getting 
killed.''
    By almost every measure, America's regulatory safeguards have grown 
threadbare. At the top of the frayed system is the 21-year-old 
Occupational Safety and Health Administration, the Federal body that 
attempts to oversee the Nation's 6 million workplaces with just 1,200 
inspectors--down from a high of 1,388 in 1980. A strained operation at 
best, OSHA was stretched to the breaking point by Ronald Reagan, who 
came to office persuaded that businesses should police themselves. 
Under him, OSHA's budget fell one-fourth.
    OSHA has begun a turnaround under Gerard G. Scannell, a former 
safety chief at Johnson & Johnson who was chosen to head the agency in 
1989. After years in which it rarely issued safety guidelines, OSHA has 
begun adopting them wholesale--though critics complain it too often 
approves rules drawn up by the industries it is supposed to supervise. 
Scannell has also brought eye-catching fines against offenders, 
including $3.5 million against Arco Chemical and a record $4 million 
against Phillips Petroleum, after giant explosions at their plants left 
40 dead. The agency ``is more effective today than it has been in any 
time in its history,'' insists Alan McMillan, Deputy Assistant 
Secretary of Labor for occupational safety and health.
    But OSHA still lacks the clout to protect most American workers. By 
one important measure, the jobsite is safer: work-related fatalities 
have dropped from 12,500 10 years ago to 10,500 last year. But that is 
partly because there are fewer jobs these days in some of the most 
lethal industries, including steel, shipbuilding and logging. 
Meanwhile, job-related illnesses and crippling injuries are on the 
increase. ``The walking wounded are a part of the cost of doing 
business,'' says Bruce Raynor of the Amalgamated Clothing and Textile 
Workers Union.
    Twenty-three States have devised their own regulatory schemes, 
which exempt them from Federal scrutiny, but the results have been 
mixed. North Carolina, where the Hamlet fire took place, has one of the 
worst systems. Under Federal guidelines, the State should have 116 
inspectors. Instead it has just 27 to oversee 163,053 employers. Last 
week the Charlotte Observer reported that in 1990 inspections declined 
35 percent from the previous year and the State returned $453,000 in 
unspent Federal money that could have been used to perform more 
inspections.
    Changes in the American economy have left employees more 
vulnerable, especially the ones in unskilled blue-collar jobs. Labor 
unions, which can step in to remedy unsafe conditions, now represent 
just 18 percent of the workforce. Some of the most injury-prone 
industries, like food processing and textiles, have clustered in right-
to-work States across the South, where labor organizers get the kind of 
welcome that used to greet Freedom Riders.
    The merger-and-acquisition craze of the past decade also led to 
imprudent cost cutting. The elimination of relief crews, forced 
overtime and deferred (meaning neglected) maintenance have resulted in 
tired workers and worn equipment--a deadly combination. There are 
further dangers in industries like oil and petrochemicals, where 
subcontracting has become a common moneysaving move. Barely trained 
newcomers, many of them aliens with an imperfect grasp of English, are 
put at the controls of dangerous machinery, with predictable results. 
In Texas, six major explosions at chemical plants and refineries have 
killed 47 workers in the past 5 years and injured 1,000 more. 
Subcontract employees were believed to have been at fault in two, the 
blasts at Arco and Phillips.
    The hazards of poultry factories are typical of the conditions that 
workers face in many industries. With the demand for chicken rising as 
it gains on beef in the American diet, the assembly lines in poultry 
plants move twice as fast as they did a decade ago, often butchering 
employees as well as poultry. According to the National Institute for 
Occupational Safety and Health, 1 in 5 poultry workers has been 
seriously injured in the hands, wrists or shoulders.
    In addition to severe cuts, the most common problems are the 
chronic disabilities that go under the heading of repetitive-motion 
trauma. Line workers, who gut, clean and divide hundreds of birds each 
day, typically perform the same movement from 60 to 90 times a minute, 
thousands of times a day. When the human body is pressed to imitate the 
tireless actions of a machine, it revolts. The result is chronic 
tendonitis and carpal-tunnel syndrome, a painful condition of the 
wrists and forearms that can leave a worker virtually crippled even 
after corrective surgery.
    Like many dangerous industries, poultry processing has the 
advantage of a docile workforce. Not only is the complaint process an 
intimidating bureaucratic tangle, but the plant workers are often 
poorly paid and uneducated women. Anxious to keep their jobs--despite 
an average industry wage of just $5.50 an hour--they are unlikely to 
make waves. Many of the 25 who died in last week's fire were so poor 
that the Textile Workers Union sent dresses and men's suits to Hamlet 
for use as burial clothes.
    This fall Congress will hold hearings on a bill designed to toughen 
the regulatory system. Sponsored in the House by Michigan Democrat 
William Ford, the bill would require any company with more than 11 
employees to set up a worker-management safety committee empowered to 
enforce jobsite safety rules. ``Then there's no reason for an inspector 
to show up to unlock a door,'' says Franklin Mirer, safety director for 
the United Auto Workers. ``The workers can do it.''
    Labor organizers and workers' rights groups are calling for 
stronger measures. Some want an independent investigative body, like 
the National Transportation Safety Board, with the power to examine 
accident sites and set in motion industry-wide changes to save lives in 
the future. Another proposal in the Ford bill is more to their liking. 
It would make it easier for OSHA to bring criminal charges against 
individual employers who are repeat offenders. ``Everyone knows that 
the subway worker who killed five people in New York was indicted for 
murder,'' says Joseph A. Kinney, executive director of National Safe 
Workplace Institute in Chicago. ``When are we going to be asking for 
indictments against the owners of Imperial Food? ''
    And why not? When the recklessness of employers becomes lethal, 
perhaps it is time to call it a crime--and act accordingly.
    Note: Reporting by Joe Kane/Atlanta and Elaine Shannon/Washington. 
Find this article at: http://www.time.com/time/magazine/article/
0,9171,973801,00.htm.

    Senator Murray. Thank you very much.
    Ms. Morrow.

   STATEMENT OF DORIS MORROW, MEMBER, UFCW LOCAL UNION 227, 
                          ROBARDS, KY

    Ms. Morrow. Thank you, Chairwoman, Senator Kennedy, Senator 
Isakson, and Senator Brown, for holding this hearing and 
letting me testify.
    My name is Doris Morrow. I am here to tell you what it's 
like for poultry workers like me. My voice today represents the 
1.3 million members of the United Food and Commercial Workers 
International Union, and my Local 227.
    While I was flying to Washington, for my first trip to the 
Nation's capital, I just kept thinking, ``Why me? I am no one 
special. I am not famous. I live in the small town of 
Providence, KY with my husband. I am the mother of two grown 
children, and grandmother of three grandchildren.''
    For almost 12 years, I have worked at the Tyson Poultry 
Plant in Robards, KY. I am one of about 1,000 employees at the 
plant, who go to work every day to support our families.
    There are almost a quarter of a million workers like us in 
poultry plants across the country. My work at the plant has 
given me a firsthand look at workers in poultry plants. From my 
experience, I am here today to tell you that there are serious 
health problems that must be fixed to protect workers in these 
plants.
    Many of the workers in the plants don't complain about the 
work conditions, because they're afraid they'll lose their 
jobs. There aren't a lot of other jobs in western Kentucky, so 
finding another job would be hard. Despite the risk of 
injuries, we go to work every day to produce the foods that 
feed the Nation. I am here today to speak for all of those 
workers.
    I would like to briefly describe what it's like to work in 
a poultry plant. Let's start with the cold. Just to give you an 
idea right now, in this committee room, it's 70 degrees. That 
is over 30 degrees warmer than where I work. Our work 
environment is extremely cold. It is colder than even the 
coldest days in Kentucky. Imagine, having to stand outside in 
the winter, all day, with the wind blowing on you. That's what 
it's like in my plant.
    We work while fans blow the cold air to keep condensation 
from building up on the ceiling and the walls of the plant. We 
work in refrigerator and freezer-like conditions. In order to 
try to stay warm, I wear this pile of clothes to work. When I 
am dressed with all of these layers, I can barely move because 
of the clothes. It is very uncomfortable, and I am miserable, 
but it's the only way to survive the cold.
    Some of my co-workers have actually gotten frostbite on 
their hands and feet. Respiratory problems like bronchitis and 
pneumonia are commonplace among my co-workers. Many workers 
come to work sick with coughs, because they can't take off from 
work.
    Another hazard of the cold is icy floors. Water, marinating 
ingredients and other liquids end up on the floors, making the 
floors slippery and icy. Although my company has put down 
nonskid coatings on some of the concrete floors, which have 
helped, the liquid on the floors sometimes freezes, causing icy 
patches.
    Salt is actually spread on some of the floors to minimize 
the ice buildup, and provide some traction for walking, yet 
workers do slip and fall. We have also slipped and fallen when 
the floor grates--which sometimes do not fit properly--are not 
put back tightly after cleaning.
    In addition, workers are injured from repetitive motion and 
the rapid line speed. Workers are also injured by pushing and 
lifting pounds of chicken pieces along the line, and by having 
to lift and stack tubs of chicken parts that weigh 70 pounds or 
more, to skids and hoppers to be dumped.
    Some of the workers who have been assigned to stack the 
tubs, which can reach over 5-feet high, are actually shorter 
than the stack. Lifting and pushing these piles of meat can 
cause carpal tunnel, as well as back and shoulder problems. 
Repetitive stress injuries are also a huge problem. Imagine 
using the same motion thousands and thousands of times a day. 
Without relief, you can't do that day in and day out without 
injuring yourself. Think about workers doing the same 
repetitive motion for 8 or 9 hours a day, 5 or 6 days a week, 
51 weeks a year. In my plant, we process between 150,000 and 
250,000 chickens a day.
    Working at a poultry plant is hard work, but hard work 
should not be unsafe work. No worker should be allowed to work 
in an unsafe work environment. I am one of the lucky people in 
poultry, because I have a union that provides for its members. 
But a safe plant takes day-in and day-out attention.
    I came to Washington, DC to tell you that more needs to be 
done to protect workers in this country. I am one worker who is 
here to tell you that we need your help. There are preventable 
injuries and deaths occurring every day in poultry plants 
across this country.
    There are workers who go to work to support their families, 
and to provide you with the chicken you eat, who are working in 
cold, icy and unsafe conditions. I know there are things that 
government and management can do to make our workplaces safer, 
if only they would. It is time that OSHA starts protecting 
workers from safety and health hazards. It is time Congress, 
OSHA and management listen to the worker's concerns, and take 
actions to make the workplace safe for all workers.
    I thank you for listening to me today, and for allowing me 
to testify. I urge you to use the power of your offices to help 
the poultry workers, and all of the workers in this country.
    I would be happy to answer any questions you may have.
    [The prepared statement of Ms. Morrow follows:]
                   Prepared Statement of Doris Morrow
    Thank you Chairwoman Murray, Senator Isakson, and members of the 
subcommittee for holding this hearing and for the opportunity to 
testify. My name is Doris Morrow. I was born and raised in a small town 
in Kentucky. This is my first time in Washington, DC and I am here 
today as a worker in this country to tell you my and my coworkers' 
stories. My voice today represents the 1.3 million members of the 
United Food and Commercial Workers International Union (UFCW) and my 
Local 227. It is indeed an honor to be here in Washington to testify 
today at this important hearing.
    I now live in Providence, KY. I am a wife, mother of two grown 
children and grandmother of three grandchildren. For almost 12 years, I 
have worked at the Tyson Poultry plant in Robards, KY. I am a 
``spreader'' at the plant, which means I separate parts of the chicken 
on the line. I work with one other worker in the Individual Quick 
Frozen area. We stand for our entire shifts in an extremely cold 
environment. In my years at Tyson Robards, I have also worked in the 
deboning department with knives.
    This experience has given me a first-hand look at workers in 
poultry plants and I believe there are serious safety and health 
problems that must be addressed to protect workers in these plants 
across the country. Respiratory problems like bronchitis and pneumonia 
are common place given the cold temperatures in the plants. Back and 
muscular problems are common due to wet, icy and slippery floors and 
moving heavy tubs of chicken products. Sore hands, carpal tunnel and 
other Musculoskeletal Disorders (MSDs) are a major problem that workers 
face because of the rapid line speed and repetitive motion. Many of the 
workers in plants are afraid to complain about the work conditions 
because they are fearful they will lose their jobs. I am here today to 
speak for all these workers.
    I would like to describe in more detail what it is like to work in 
a poultry processing plant. Let's start with the cold. Typically our 
work environment is extremely cold and we are standing and working in 
frigid temperatures for hours at a time. It is especially cold because 
the company has installed fans to keep condensation, a food safety 
problem, from building up on the ceiling and the walls of the plant. 
This produces an additional wind chill affect.
    Every day, I wear to work three long-john shirts, one long sleeve 
shirt, two jackets, long-john pants, pants and two pairs of socks. I 
purchased a $70 cover-up to wear over all these layers to try to keep 
myself warm. I also wear two pairs of gloves while I work. I keep an 
extra pair in my pocket to change into when the first pairs get too 
cold. By the time I am dressed with all these layers, I can barely move 
because of the bulk of the clothes. It is very uncomfortable to work in 
so many clothes and under these conditions and still be cold.
    My coworkers on Line 1 have contracted frost-bite on their hands 
and feet. Let me say that again, my coworkers get frost-bite from 
working in these freezing temperatures. Sometimes we go to the sink to 
warm up our hands under the water or take 30 minutes to get totally 
warm in the bathroom. Management has complained about the time we take 
to warm up but we need this time to get warm again. Management gives us 
10-minute restroom breaks but it takes that long just to get off the 
production floor to the restroom. After we are warmer, we return to the 
freezing cold and icy floors. There is a very high rate of respiratory 
illnesses among my coworkers because of the climate we work in. Many 
workers come to work with colds and coughs because they can't take time 
off from work.
    OSHA has come in for quick checks of the temperature in the plant 
but has said that it is fine. We know differently. Stand in the cold 
for more than a few minutes and you know what cold is. There ought to 
be OSHA rules about working in this kind of environment.
    Another hazard of the cold temperature is the icy floors. Water, 
marinating ingredients and other liquids end up on the floor, making 
the floors slippery and icy. Although my company has put down non-skid 
coatings on some of the concrete floors which have helped, the liquid 
on the floors sometimes freezes, causing icy patches. Salt is actually 
spread on some of the floors to minimize the ice build-up and provide 
some traction for walking. Workers have slipped and fallen on these 
surfaces. Workers have also slipped and fallen when the floor grates, 
which sometimes do not fit properly, are not put back tightly after 
cleaning. These grates are a foot wide.
    While I only work next to one other employee, in other departments 
many workers stand very close to one another all using sharp knifes to 
cut the chickens. Workers are injured from repetitive motion and the 
rapid line speed. Workers are also injured by pushing and lifting 
pounds of chicken pieces along the line every hour. Many workers are 
injured by having to lift and stack tubs of chicken parts that weigh 70 
pounds or more to skids and hoppers to be dumped. Many of these workers 
are actually shorter than the stack of tubs which can reach over 5\1/2\ 
feet high. Lifting, removing and pushing these piles of meat can cause 
carpal tunnel as well as back, shoulder and neck problems.
    MSDs are a continual health hazard. If you are a line worker 
removing bones from chicken breasts, you use one motion with your knife 
thousands and thousands of times a day. You steady the breast then pull 
the knife towards you to cut the bone free. It is not like cutting hot 
butter. You are actually making a cut through something that offers 
resistance. Perhaps not that difficult the first five times but workers 
are making that same cut or a similar cut 25,000 to 40,000 times a day. 
Without relief, you cannot do that day in and day out without injuring 
yourself, especially given all the other hazards surrounding you. Think 
about workers doing the same repetitive job for 8 or 9 hours a day, 5 
or 6 days a week, 50 or 51 weeks a year.
    Just imagine working in a freezing environment, on slippery floors, 
repeating the same motion and pushing pounds of meat down the line. 
Imagining the typical work day makes it easy to understand why workers' 
wrists and hands, their elbows and shoulders, and their backs and legs 
show the wear and tear in very painful injuries. In my plant, we 
process between 150,000 and 250,000 chickens a day.
    Working at a poultry plant is hard work. But hard work should not 
be unsafe work. I am one of the lucky people in the poultry industry. I 
have a union that provides safety training and support for its members. 
We have a safety committee whose members include workers that work with 
management to correct unsafe conditions.
    A safe plant takes day in and day out attention. With the union, we 
have that. The union has to be constantly vigilant. We need to watch 
every day. It is an ongoing battle. In non-union plants, that simply 
doesn't happen.
    Without the support of the employers and the government, workers 
are injured every day. I have seen first hand my coworkers' injuries. I 
know two coworkers with crippling injuries from working in the poultry 
plants. I know another coworker who was so severely injured that she 
had to work in the supply room for over a year because of her injury.
    Like I said, I'm lucky because I work in a union plant. Having a 
union in our plant means that workers can avoid a lot of these 
injuries. The union has been great for me and my coworkers. We have 
someone fighting for us. When I first started working at this plant, it 
was a non-union plant. I know first-hand the difference between a non-
union plant when people are too afraid to speak up and a plant where we 
can turn to the union when we see problems, including safety problems. 
But there are two problems that still exist--the number of unionized 
plants in the United States and the total lack of real government 
intervention in the safety and health of workers in this country.
    Only 30 percent of poultry plants in the country have a union.
    The 70 percent of the plants without a union have the power to set 
the standards especially given the lax government intervention that 
exists today. These non-union plants bring everyone down to their 
level. And that level causes workers to suffer injuries that are 
preventable.
    My union, the UFCW, has monitored some of these non-union plants 
and has found broken or missing safety equipment and unguarded blades, 
unbelievably fast line speeds, excessively long work days, tiled floors 
with no traction when they are wet, factories with no emergency 
lighting to provide illumination to get out of messy and dangerous 
plants when there are power outages, ammonia leaks, and limited or no 
safety training or any training for employees. There are so many 
hazards at these plants that when workers, who are often afraid to 
complain for fear of losing their jobs, do complain they are often 
ignored. If workers go to the health centers with injuries, they are 
given ice packs, ibuprofen or ointment to take care of the problem and 
are then sent back to work.
    UFCW has always fought to prevent worker injuries. The union began 
working specifically on repetitive stress injuries in the 1980s. We 
worked with Senator Dole when she was Secretary of Labor to begin 
developing an OSHA ergonomic standard. After 10 years of work and 
scientific analysis we got an ergonomics standard for workers. But when 
President Bush took office, he had the standard repealed. Due to the 
lack of OSHA enforcement for ergonomics, workers are once again 
suffering high rates of injuries. Repealing this crucial standard was 
only the first backwards step in protecting workers.
    A lot of management in the poultry industry will say that injuries 
are not real. Management will argue that repetitive stress injuries 
don't happen at work. They say that they happen at home. But I am here 
to tell you the truth. Nothing we do at home requires that kind of 
repetition like we do at work--making 40,000 cuts in a single shift. 
Workplace ergonomic hazards are injuring and crippling workers. Changes 
in job station and work design can prevent these injuries. My employer 
has made some changes to Line 3 at my plant but more are needed. It is 
time to demand that the government and companies protect workers and 
prevent these injuries.
    Management will also tell you that they have to keep our work 
stations so cold to keep the condensation from forming on the plant's 
ceiling. Clearly, I do not have to work in a refrigerator to produce 
safe food for consumers. Having almost 180 workers call in sick in one 
day is a clear sign that something is wrong in these plants. It is time 
to turn the thermostats up to protect the workers.
    Management will tell you that they try to keep the floors clean and 
dry but that is simply not always the case. One worker injury on a wet 
and icy floor is one too many. Too many workers are getting injured by 
falling on the floors. More can be done to the floors to prevent these 
injuries.
    I have seen first hand the problems in poultry plants. I have seen 
first hand the injuries of my coworkers. I know there are things we can 
do to make our workplaces safer. It is time that we think about the 
workers and protect us from these safety and health hazards.
    Thank you again for the opportunity to testify today and tell you 
the stories of workers in poultry plants across this country. I urge 
you to use the power of your offices to help the workers who provide 
the food for this Nation by protecting our safety and health at work. 
Again, thank you for your time and I would be pleased to answer any 
questions that you may have.

    Senator Murray. Thank you very much. Thank you for coming 
all the way to Washington, DC and being a voice for many people 
who can't. Thank you.
    Mr. Scannell.

   STATEMENT OF GERARD F. SCANNELL, FORMER OSHA DIRECTOR AND 
  FORMER CHAIR OF THE NATIONAL SAFETY COUNCIL, WASHINGTON, DC

    Mr. Scannell. Good morning, Chairwoman Murray, Ranking 
Member Isakson, Chairman Kennedy and Senator Brown.
    I want to thank you for the opportunity for me to speak 
with you today, and to testify and maybe after my testimony we 
can chat a little bit about more specifics on what can be done.
    I am Jerry Scannell, I am retired, living in Venice, FL and 
Cape Cod, MA. My prior experience covers 40 years managing 
safety and health environmental programs. A few of those 
positions were as Safety Director of Bristol plant of Rohm & 
Haas Company, Vice President of Safety & Health, Johnson & 
Johnson, Assistant Secretary of Labor for the Occupational 
Safety and Health Administration and President and CEO of the 
National Security Council.
    What the past 40 years of experience has proven to me is 
that safety and health programs must be fully integrated in the 
overall company management system. I think Senator Isakson was 
really saying that, when he was talking about his experience 
with his company.
    Paul O'Neill, one of the great CEOs for safety and health, 
and I would like to talk about Paul a little later on, about 
some of my experiences with Paul.
    The CEO, or equivalent, must hold the next layer of 
management accountable for all aspects of management. That I 
see as one of the problems in our country today--business hires 
people, they give them the responsibility, but they don't hold 
people accountable. You need to have that cascading effect of 
each layer of management, holding the next layer accountable--
not only for production, and EEOC and others, but safety and 
health.
    It happens to be safety, so often, is the one that you 
don't spend your time on. If they don't spend their time on--if 
I'm a boss, and I ask a person under me what is he doing about 
the safety and health conditions and so forth, he or she will 
probably spend some attention on that, at least some time. But 
if I never ask that person, what are they doing for safety and 
health, he or she probably won't put much time in that. It's 
just human nature.
    Holding the people accountable, is key to making a 
successful program, in all aspects of business. When the 
accountability of safety is missing, the communications between 
management gets fuzzy, or at best, poor.
    Back in the early 1990s, I talked to CEOs of companies who 
were involved in catastrophic explosions. One common 
denominator in several explosions was a breakdown in the 
vertical communications. Almost every CEO said, ``No one ever 
told me that we were at risk.'' Yet, executives and managers at 
a very high level knew exactly the risk, and did not want to 
take the bad news to the boss. As a result, there were major 
explosions, multiple deaths, it was one explosion after 
another. ARCO, BASF, it went on and on and on.
    Good companies, but there was a management failure in the 
system, and that's what I call, one of the major problems in 
our organizations today, is a management system failure. Some 
part of management failed to do something.
    Now, we all know the OSHA Act clearly places responsibility 
on the employer for maintaining a safe workplace. However, 
complying with current OSHA standards and regulations will not 
guarantee a safe workplace. You need more than that. You need 
the management involvement, the management system, to be 
assured those safety standards and regulations are followed 
through. You need additional training and education that may 
not be called for in the OSHA standards, at this particular 
time.
    There needs to be a management system, fully integrated, in 
the OSHA standards and other requirements. There are many 
companies that have safety management systems models, and I'd 
like to maybe talk about that, after everyone has an 
opportunity to deliver their testimony.
    I think there's leadership lacking in our country, in 
industry. You know, boy--I'll get it, I'll take it on the chin 
later on--but what about the U.S. Chamber of Commerce? Great 
organization. Why don't they take some leadership and provide 
some of the knowledge that Paul O'Neill has, and that I think 
we have at Johnson & Johnson, certainly DuPont, and gather 
those CEOs together, and communicate what is needed, what they 
should do? We need that leadership.
    The Occupational Safety and Health Act was passed in 1970, 
due largely in dedication to two individuals, and Senator 
Kennedy mentioned them--Senator Pete Williams from New Jersey, 
and Bill Steiger from Wisconsin. They're not with us anymore 
today, but I suspect they're looking down on us, and want to be 
sure that we're going to do things right today.
    Thank you very much.
    [The prepared statement of Mr. Scannell follows:]
                 Prepared Statement of Gerard Scannell
    Chairwoman Murray, Ranking Member Isakson and members of the 
subcommittee, thank you for the opportunity to testify today.
    I am Jerry Scannell. I am retired and living in Venice, FL and Cape 
Cod, MA.
    My prior experience covers 40 years managing safety, health and 
environmental programs. A few of those positions were, Safety Director, 
Bristol PA plant, Rohm & Haas; VP Safety & Health, Johnson & Johnson: 
Assistant Secretary of Labor, Occupational Safety and Health 
Administration; President and CEO, National Safety Council.
    What the past 40+ years of experience has proven to me is that 
Safety and Health programs must be fully integrated in the overall 
Company Management System! By that I mean, Safety and Health 
responsibility starts at the top of a company as with everything else 
in that company. The CEO or equivalent must hold the next layer of 
management accountable for all aspects of managing the company 
business. That layer of management must then hold the next layer of 
management accountable for their responsibility. It then cascades down 
to the lowest level of management. If managers are not held accountable 
for some aspect of their job, then guess what? They probably won't 
spend much time on it. If it happens to be safety as so often happens, 
then the safety effort will suffer and something or someone will be 
harmed.
    When the accountability of safety is missing, the communications 
between management gets fuzzy or at best poor. Back in the early 1990s 
I talked to CEO's of companies who were involved in catastrophic 
explosions. One common denominator in several explosions was a 
breakdown in vertical communications. Almost every CEO said ``no one 
ever told me we were at risk.'' The communications stopped at the mid-
executive level. There were executives and upper level managers that 
knew the company was at risk. The words most often used at that time 
were ``cut costs.'' Here we are years later and I'm hearing the same 
words from the BP and other incidents.
    We are having management systems failures.
    We all know the OSHA ACT clearly places responsibility on the 
employer for maintaining a safe workplace. However, complying with 
currant OSHA standards and regulations will not guarantee a safe 
workplace. There needs to be a management system fully integrated into 
the OSHA standards and other requirements in order to insure a safe 
working environment.
    There are many companies that have safety management system models 
that can be used to show how to operate a safe program. I will show you 
just one that I had documented for use at J&J. For other companies, I 
would suggest you contact DuPont, The National Safety Council, or ORC.
    In conclusion, I want to express my appreciation to the 
subcommittee for allowing me to share my thoughts with you on this 
important issue for all Americans, and I thank the Chair and all 
members of the subcommittee for your dedication to safety and health.
    The Occupational Safety and Health Act was passed in 1970 due 
largely to the dedication and persistence of two individuals: Senator 
Pete Williams of New Jersey and Congressman William Steiger of 
Wisconsin. Few people know that when OSHA was established, I served as 
the Director of Safety and Health Standards for the agency. Even fewer 
know that in those days Senator Williams and Congressman Steiger would 
call me directly, and frequently, to tell me that they are watching and 
keeping an eye on what I and the rest of standards professionals are 
doing. They expected us to do the best job, not only for the agency, 
but for the benefit of the American worker and the American public. 
While many years have passed since those early years and while Senator 
Williams and Congressman Steiger are no longer with us, I still feel 
that they are watching us and judging us to see if we are doing the 
best possible job.
    Thank you for your attention.

    The Chairman. Thank you.
    Mr. Bianco.

 STATEMENT OF CARMEN BIANCO, EXECUTIVE CONSULTANT, BEHAVIORAL 
               SCIENCE TECHNOLOGY, INC., OJAI, CA

    Mr. Bianco. Good morning, Chairman Kennedy, Chairwoman 
Murray, Ranking Member Isakson and distinguished members of the 
U.S. Senate, Employment and Workplace Safety Subcommittee. 
Behavioral Science Technology thanks the subcommittee for the 
opportunity to present this testimony on achieving safety 
excellence through the use of employee engagement and 
leadership enhancement to create a strong culture.
    BST was founded back in 1979 by Dr. Thomas R. Krause and 
Dr. John Hidley. Doctors Krause and Hidley recognize that most 
safety initiatives at the time, focused on equipment and 
procedures, but not the organizational and cultural causes of 
workplace injuries and accidents.
    Doctors Krause and Hidley adapted the research on applied 
behavioral analysis to reflect the teachings of Dr. W. Edwards 
Deming, and the experience of other practitioners in 
organizational change.
    As this approach evolved, approximately 8 years ago, BST 
expanded its focus to work more explicitly on leadership 
behaviors, and its relationship to organizational culture as a 
critical factor in achieving safety excellence.
    By working with executives, managers, supervisors, and 
individual contributors to enhance their effectiveness as 
safety leaders, we have helped organizations build on their 
existing success to achieve step-changes in safety performance. 
The comprehensive technology has subsequently been customized 
and adapted for more than 2,000 client locations, in more than 
50 countries.
    In addition, BST has worked successfully in both union, and 
nonunion environments, with approximately half of our work at 
union locations, and half at nonunion sites.
    BST's technology has been applied successfully in the 
mining, petroleum, chemical, metals, paper, food, utility, 
railroad, and healthcare industry, as well as by government 
agencies.
    Following the space shuttle Columbia tragedy, BST was asked 
to assess NASA's culture, and recommend an intervention 
approach to help address the findings of the Columbia accident 
investigation board.
    BST's approach targets the reduction of exposure in the 
workplace, through the identification of system issues that 
predispose at-risk behavior, in addition to creating a culture 
at which at-risk behavior is minimized, and the effectiveness 
of safety systems is maximized.
    Located throughout the United States, Canada, Europe, South 
America and Asia, BST's staff includes experts in safety, 
behavioral science, engineering, management, industrial 
hygiene, statistics, quality and operations. The approach taken 
by BST is holistic, recognizing that leadership at all levels 
creates the culture that supports or inhibits the effectiveness 
of safety programs.
    BTS's approach involved employees at all levels in the 
continuous improvement of safety, through identification of 
hazards, measurement of safe practices, and improvement of 
underlying systems. It is these systems that lead to the 
creation of exposure.
    This approach is a proactive process that improves the 
systems, producing safety-related behavior, and exposures 
upstream before accidents occur. It is based on measurement, 
upstream sampling of key variables, problem-solving, and 
employee involvement.
    Data collection and feedback are key aspects of the 
approach, which identifies and corrects existing systems that 
produce at-risk behavior, and develops new systems that 
encourage safe behavior.
    Another aspect of BST's approach is working with individual 
leaders throughout the organization to build critical 
leadership skills, and employ those skills to support 
organizational value for safety improvement. This work includes 
a mixture of individual coaching and group training sessions, 
with feedback to individuals on their leadership effectiveness.
    We begin by assessing the organization's culture, to 
understand how to tailor an implementation to the specific 
organization. Using a cultural diagnostic instrument that is 
shown to be predictive of safety outcomes, we identify the 
organization's strengths and weaknesses. For example, we may 
find that the credibility of senior management is good, but the 
first-line supervisors may be weak in safety leadership skills.
    After the planning, we typically work with an 
organization's leadership to help them understand the issues 
identified, and their role in supporting the initiative. We 
also work with an implementation team, comprised largely of 
front-line employees from the organization. We teach that team 
to identify the critical exposures at their location, to do 
informational meetings with other employees, to sample at-risk 
behaviors that are indicative of exposures, usually through a 
peer observation process. We then teach the team to train other 
employees to do this sampling.
    Part of the sampling process is a feedback step done to 
reinforce safe behaviors, and to gain understanding of the 
causes of observed at-risk behaviors. Data is captured, and 
used to evaluate and mitigate the system-based factors that 
cause at-risk behavior.
    Through this process, an organization builds a strong 
safety-
supporting culture. The organization has an improved 
understanding of the exposures that it must manage, and a new 
ability to identify and address the underlying causes of 
exposure, enabling employees to work safely, and providing 
reinforcement when they do.
    Managers and supervisors improve their ability to support 
safety initiatives, and communicate with frontline employees. 
Employees develop a strong enhanced ability to communicate with 
each other, and with leadership, about effective, about 
employee--about safety issues. Employees at all levels are 
engaged in the ownership for safety.
    In working with more than 2,000 organizations, we have 
found that addressing leadership and culture is an important 
addition to the traditional safety programs, such as training, 
audits and policies. It is important to understand that this 
approach does not substitute for those traditional programs, 
which must be present for safety excellence, but those 
traditional programs alone are not sufficient to give 
organizations excellence and continuous improvement.
    On average, our clients have achieved a 25 percent 
improvement in their insuring rates during the first year, with 
further improvement reaching more than 65 percent in the next 4 
years.
    The process also has proven sustainability. In a study 
conducted several years ago, we determined that over a 13-year 
period, more than 90 percent of our implementations remain 
active.
    BST's approach incorporates mechanisms for addressing not 
only the exposures, under the direct control of workers, but 
also exposures that are dictated by facilities, equipment, 
design and procedures. In doing so, it promotes engagement and 
collaboration at all levels of the organization.
    In conclusion, BST's comprehensive culture and leadership-
based approach to safety is a powerful method for engaging 
employees at all levels in the collaborative identification and 
mitigation of exposures to safety hazards in the workplace. 
This approach helps organizations build a strong culture that 
not only supports safety, but also contributes to overall 
organizational excellence. With a proven track record, 
unparalleled by other approaches, this approach should be 
considered by any organization interested in safety 
improvement.
    I thank you for having me here today to provide testimony 
on such a critical topic, and I'm available to answer any of 
your questions. Thank you.
    [The prepared statement of Mr. Bianco follows:]
   Prepared Statement of Thomas R. Krause, Ph.D., Chairman, R. Scott 
    Stricoff, President, and Carmen J. Bianco, Executive Consultant
    Chairwoman Murray, Ranking Member Isakson and distinguished members 
of the U.S. Senate Employment and Workplace Safety Subcommittee, the 
Behavioral Science Technology, Inc. (BST) thanks the subcommittee for 
the opportunity to present this testimony on achieving safety 
excellence through the use of employee engagement and leadership 
enhancement to create a strong culture.
                            bst's background
    BST was founded in 1979 by Dr. Thomas R. Krause and Dr. John 
Hidley. Drs. Krause and Hidley recognized that most safety initiatives 
at that time focused on equipment and procedures, but did not help us 
understand the organizational and cultural causes of workplace injuries 
and accidents. Drs. Krause and Hidley adapted the research on applied 
behavior analysis to reflect the teachings of Dr. W. Edwards Deming and 
the experience of other practitioners in organization change. As this 
approach evolved, approximately 8 years ago BST expanded its focus to 
work more explicitly on leadership behavior and its relationship to 
organizational culture as critical factors in achieving safety 
excellence.
    By working with executives, managers, supervisors, and individual 
contributors to enhance their effectiveness as safety leaders, we have 
helped organizations build on their existing success to achieve step 
changes in safety performance. The comprehensive technology that has 
resulted has subsequently been customized and adapted for more than 
2,000 client locations in more than 50 countries. In addition, BST has 
worked successfully in both union and non-union environments, with 
approximately half of our work at union locations and half at non-union 
sites. BST technology has been applied successfully in industries such 
as mining, petroleum, chemical, metals, paper, food, utilities, 
railroads, and health care, as well as by government agencies. 
Following the Space Shuttle Columbia tragedy, BST was asked to assess 
NASA's culture and recommend an intervention approach to help address 
the findings of the Columbia Accident Investigation Board (see case 
history section). BST's approach targets the reduction of exposure in 
the workplace through identification of systems issues that predispose 
at-risk behavior in addition to creating a culture in which at-risk 
behavior is minimized and the effectiveness of safety systems is 
maximized.
    BST today has a staff of approximately 170 located throughout the 
United States, Canada, Europe, South America, and Asia. BST's staff 
includes experts in safety, behavioral science, engineering, 
management, industrial hygiene, statistics, quality, and operations. 
BST is the only organization in the field that has published long-term 
results of its overall client experience in an independently-reviewed 
technical journal (Safety Science, 32 (1999) 1-18.)
                        what is bst's approach?
    The approach taken by BST is holistic, recognizing that leadership 
at all levels creates the culture that supports or inhibits the 
effectiveness of safety programs.
    One aspect of BST's approach involves engaging employees at all 
levels in the continuous improvement of safety through identification 
of hazards, measurement of safe practices, and improvement of 
underlying systems. It is these systems that lead to the creation of 
exposures. This approach is a proactive process that improves the 
systems producing safety-related behaviors and exposures upstream, 
before accidents happen. It is based on measurement, upstream sampling 
of key variables, problem solving, and employee involvement. Data 
collection and feedback are key aspects of the approach, which 
identifies and corrects existing systems that produce at-risk behavior, 
and develops new systems that encourage safe behavior.
    Another aspect of BST's approach is working with individual leaders 
throughout the organization to build critical leadership skills and 
employ those skills to support organizational values for safety 
improvement. This work includes a mixture of individual coaching and 
group training sessions, with feedback to individuals on their 
leadership effectiveness.
    We begin by assessing the organization's culture to understand how 
to tailor an implementation to the specific organization. Using a 
cultural diagnostic instrument that has been shown to be predictive of 
safety outcomes, we identify the organization's strengths and 
weaknesses. For example, we might find that the credibility of senior 
management is good, but first-line supervisors are weak in safety 
leadership skills.
    After the planning, we usually work with an organization's 
leadership to help them understand the issues identified and their role 
in supporting the initiative. We also work with an implementation team 
comprised largely of front-line employees from the organization. We 
teach that team to identify the critical exposures at their location, 
to do informational meetings for other employees, and to sample at-risk 
behaviors that are indicative of exposures, usually through a peer-
observation process. We then teach the team to train other employees to 
do this sampling. Part of the sampling process is a feedback step done 
to reinforce safe behaviors and to gain understanding of the causes of 
observed at-risk behaviors. Data is captured and used to evaluate and 
mitigate the systems-based factors that cause at-risk behavior.
    Through this process an organization builds a strong safety-
supporting culture. The organization has an improved understanding of 
the exposures that it must manage and a new ability to identify and 
address underlying causes of exposure, thereby enabling employees to 
work safely and providing reinforcement when they do. Managers and 
supervisors improve their ability to support safety initiatives and 
communicate with front-line employees. Employees develop a strongly 
enhanced ability to communicate with each other and with leadership 
about safety issues. Employees at all levels are engaged and take 
ownership for safety.
    The BST approach is described in Dr. Krause's book, Leading with 
Safety (John Wiley & Sons, 2005).
                       benefits of this approach
    In working with more than 2,000 organizations, we have found that 
addressing leadership and culture is an important addition to 
traditional safety programs such as training, audits, policies, etc. It 
is important to understand that this approach does not substitute for 
those traditional programs, which must be present for safety 
excellence. But those traditional programs alone are not sufficient to 
give organizations excellence and continuous improvement.
    On average, our clients have achieved 25 percent improvement in 
their injury rates during the first year and further improvement 
reaching more than 65 percent over the next 4 years. The results are 
representative of our complete body of clients and have been published 
by an independently reviewed safety management journal reflecting long-
term (5 year) results (Safety Science, 32 (1999) 1-18.)
    The process also has proven sustainability. In a study conducted 
several years ago we determined that over a 13-year period, more than 
90 percent of our implementations remained active.
    BST's approach incorporates mechanisms for addressing not only the 
exposures under the direct control of the worker but also exposures 
that are dictated by facilities, equipment, design, or procedures. In 
doing so it promotes engagement and collaboration of all levels of the 
organization.
    This approach is truly data based, providing upstream measures of 
safety. This allows data-driven management of process quality, and 
discriminates between significant and random performance variation. 
This data-based approach allows the process to impact the conditions, 
systems, and cultural issues that encourage at-risk behavior at all 
levels of the organization.
                            success stories
    Attached to this document is a series of articles that describe the 
individual experience of various organizations in implementing BST's 
approaches.
                               conclusion
    BST's comprehensive culture and leadership-based approach to safety 
is a powerful method for engaging employees at all levels in the 
collaborative identification and mitigation of exposures to safety 
hazards in the workplace. This approach helps organizations build a 
strong culture that not only supports safety, but also contributes to 
overall organizational excellence. With a proven track record 
unparalleled by other approaches, this approach should be considered by 
any organization interested in safety improvement.
    I thank you for having me here today to provide testimony on such a 
critical topic. I am happy to answer any questions.
                                 ______
                                 
          Behavioral Science Technology, Inc.--Success Stories

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            Shell's MARS Platform.--Safety in Katrina's Wake

                          (By Nicholas Zepeda)

                               situation
    Hurricane Katrina significantly damaged the deepwater tension-leg 
Mars platform, operated in the Gulf of Mexico by Shell and co-owned 
with BP. Four hours of 170 mph winds and 200 mph wind gusts and wave 
run-up heights of up to 100 feet overtaxed the massive clamps holding 
the 1,000-ton drilling rig, causing the structure to fail and topple 
onto the deck. The storm also set adrift a mobile drilling rig in the 
Mars platform vicinity and dragged its anchor over the Mars underwater 
export pipelines, cracking them. Mars' oil and gas production, the 
largest (by daily volume) platform in the Gulf of Mexico, shut in 
advance of the storm and would stay at zero for some time.
    Shell Operations Manager Floyd Landry led the salvage and 
reconstruction project. Despite the risk issues involved with working 
around bent steel, collapsed superstructures, and sunken materials, 
Shell was able to put the Mars platform back in operation staying true 
to their safety goal: zero serious injuries and all workers return home 
safely.
                            how they did it
    Shell made sure they had the right technical equipment and experts 
for the project. They contracted a Finnish ice breaker and Dutch 
derrick barges for removing the toppled drilling rig structure and 
ferrying it to shore for repairs. They brought in a five-story Hotel 
(floating hotel) with a unique, deepwater mooring system from the North 
Sea for the living space needed for the extra 600 specialists. In 
addition, they used remote-controlled robotic units and a specially 
designed pipe repair kit to fix damaged pipelines 2,700 ft. below the 
surface.
    Throughout the salvage and repair operation, Shell maintained a 
comprehensive and rigorous safety regimen. They conducted daily 
management and weekly safety staff meetings, safety walkthrough, and 
job site environmental audits. The Behavioral Accident Prevention 
Process (BAPP) safety initiative, Continuous Observation Awareness 
Technique (C.O.A.T.), remained active around the clock, training 
everyone on site in behavior-based safety (BBS). Interpreters enabled 
the work crew, made up of technicians from around the world, to fully 
understand the training.
    Personnel from throughout Shell experienced in BBS assisted Mars 
with safety work sponsorship. This extra help enabled C.O.A.T. to 
observe all types of work involved in the project. The sponsors coached 
new observers in side-by-side observations. Through more than 2,600 
behavior-based observations, the process tracked exposures and critical 
behaviors for trends that revealed barriers to safe work. One observer 
identified fall protection exposures under Deck 1 where much of the 
work was over water. The personal flotation devices workers were 
wearing made crawling around and among piping difficult. The 
observation data prompted Shell to provide a new type of fall 
protection with built-in flotation devices.
    The presence of C.O.A.T helped everyone on the platform stay 
focused on safety. The site was able to remove or mitigate 365 
exposures to risk identified by observations during the project.
                                results
    The Mars platform went back on line in May 2006. The safety numbers 
showed no recordable injuries during 1 million work hours. By the time 
the drilling rig was put back on in March 2007, the site had logged 1.2 
million salvage and reconstruction work hours without a recordable 
injury. The site also added other safety features to their operations: 
new clamps capable of withstanding 2 million psi, four times as strong 
as the previous clamps, improved communications systems critical for 
monitoring approaching storms, more on-call helicopters and ships for 
evacuations, and a greater number of spare parts available for 
emergency repairs. Shell also began a study of alternate ways to get 
oil to refineries when pipelines are damaged. In addition, the company 
participated in a joint industry effort to develop more robust mooring 
systems and practices for offshore drilling rigs.
    Marvin Odum, executive vice president and head of Shell Exploration 
& Production in North and South America says,

          ``The Mars platform recovery and deepwater pipeline repairs 
        were among the most technologically complex operations in the 
        world, and our people were up to the task, completing the work 
        safely and ahead of schedule.''
At a Glance
    The Mars platform is moored in 3,000 feet of water 130 miles south 
of New Orleans.
    Over 2,600 behavior-based safety observations identified 365 
exposures on site.
    Shell's post-Katrina repairs to the Mars platform were completed 
with no recordable injuries during 1.2 million work hours.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Case Study.--Making Good Leadership Even Better: Accelerating 
            Excellence At An Agricultural Products Producer
    The Florida operations of this phosphates business had already 
received an Agri-Business of the year award when it decided to improve 
its safety leadership. Made up of three major facilities over a 4-mile 
radius, the 620-employee operation has an annual capacity of 3.6 
million tons of phosphate rock and 1 million tons of phosphoric acid. 
Maintaining this level of production, and its status as the low-cost 
producer in the industry, is serious business that takes high 
functioning leaders at all levels in three facilities. When the Florida 
operations implemented an employee-driven safety system early in 2004, 
it recognized the need to develop even better coordination across areas 
and functions as it captured data on exposure to risk. Each location 
had its own facilitator to oversee process activities, however managing 
resources across such a large area would require finely-tuned alignment 
on what the company wanted to accomplish and how.
                          developing a vision
    Leaders at this location knew that one of the keys to creating 
alignment would be fostering a strong safety vision. If they could 
articulate where they wanted the company to be in the future and how it 
was going to get there, they could in turn determine the kind of time 
and resources to put into safety. The key was making sure that all 
leaders, from the process facilitators on up, had the skills to 
maintain a consistent message in their words and actions. So when a 
corporate-wide initiative called for managers at all sites to engage in 
leadership development, the managers jumped at the chance: they wanted 
to use their development activities to become better at articulating 
and implementing a safety vision for the company's 620 employees.
    The management team invited BST to design a solution that would 
help them meet their goals. BST helped the client assess the leadership 
characteristics of each leader. This included the facilitators of the 
employee-driven safety processes in the management group. Results 
showed that many of these leaders were already strong and influential 
and that they were viewed positively by others in the organization. 
However, even the strongest leaders tended to experience diminishing 
effectiveness across the locations or outside of their immediate 
workgroup.
    Before crafting a leadership development strategy, BST worked with 
the client's leaders--including the facilitator--to define what their 
vision of safety was. Working with this group of leaders, a BST 
consultant challenged them to think outside of traditional safety 
visions and articulate their own vision in strategic terms. By asking 
questions like, What does safety really mean to your organization? 
Where does it fit in the scheme of other objectives and initiatives? 
What does it mean to your place in the market and the bottom line? The 
BST consultant was able to help the leaders reframe their thinking of 
leadership in safety. As a result, they developed a list of principles 
that they wanted to define their actions: Uphold the safety regulations 
even if cost or production is at stake; Communicate frequently and 
effectively up, down and across the organization; Ensure that people 
have the information, authority and resources they need; and Treat 
others with dignity and respect.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    With a clear picture of what they wanted their leadership to look 
like, they then worked individually with BST consultants to design 
personal strategies for improving their interactions with those who 
report to them, and enacting their new vision. In particular, they had 
to define what their successes would look like. BST then helped them 
identify ways to gain feedback on how well they measured up to the new 
safety values. Once the managers had drafted their individual plans, 
they worked with BST to trickle the new safety vision down through the 
organization more effectively by learning how to coach their own 
reports and help them develop similar coaching plans for themselves.
                                outcomes
    Less than a year after starting the new initiative, the client was 
able to reduce its injury rate by more than half, including a 6-month 
streak without a recordable injury. And within just a few months of 
defining their new safety vision and starting their personal action 
plans, most leaders were able to document changes in their relationship 
with departments, showing that the new safety vision is working.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Like many international companies, Columbia Forest Products 
contends with the challenge of maintaining a consistent standard of 
performance across multiple sites. The 49-year-old employee-owned 
company has 18 manufacturing locations in the United States and Canada, 
making it North America's largest manufacturer of hardwood plywood and 
hardwood veneer products, and through its subsidiary Columbia Flooring, 
the leading producer of hardwood and laminate flooring. Recognized as 
an industry leader, the company prides itself on responsive customer 
service as well as leading advancements in the field, most recently 
launching a new low-cost alternative to formaldehyde-based adhesives in 
its plywood products. Attributing its market leadership to a spirit of 
innovation and employee empowerment, in 2004 the company embarked on a 
new venture; pioneering an all-employee safety approach in the plywood 
division's nine sites, covering 2,800 employees. Adapting practices 
that target culture and leadership in addition to exposures at the 
mill-floor, the division has in 24 years realized a near 30 percent 
reduction in injuries.
                     changing how safety is managed
    Achieving performance consistent with Columbia's high standards has 
long been one of the plywood division HR manager Don Carter's goals. In 
2004 Carter and plywood president Brad Thompson, recognized an 
opportunity to both strengthen the company's position within its 
industry and create a platform for motivation and engagement: safety 
performance. While each of the division's nine sites were already 
actively managing safety through traditional compliance practices, the 
methods--and results--varied widely by location. ``Our employees are 
our most important asset. How do you run a business well if you don't 
value that first? ''--Don Carter, HR Manager, Plywood Division.
    At the crux of the problem, according to Carter, was that a lack of 
consistent practices meant a lack of standardized indicators by which 
the division as a whole could manage safety efforts. Columbia, like 
many organizations, relied largely on outcomes, such as incident rates 
and workers compensation costs, to steer the company's efforts. That 
bothered Columbia management, who were used to managing other metrics 
upstream. Recognizing an opportunity, Thompson and Carter suggested a 
progressive solution; why not run safety like any other critical 
business objective?
    Columbia enlisted help from BST to design a safety practice that 
resembled the processes and practices the company relied on for other 
business functions. In addition to providing a steady stream of safety 
indicators the division could act on upstream, the company wanted the 
approach to include clear roles and responsibilities for leaders from 
the supervisor up to the division staff. ``We felt like for this to be 
successful we needed to lead this from the division level,'' says 
Carter. In this way, the company hoped not only to establish a safety 
process that was sustainable, but to foster a culture where safety led 
performance in other areas.
                        a comprehensive strategy
    BST proposed a multi-tiered approach. At the heart of the 
initiative would be implementations of Behavioral Accident Prevention 
Process' (BAPP) technology at the individual mills. The BAPP 
initiatives would serve to engage mill employees in systematically 
identifying, measuring, and reducing exposures at the working 
interface, where employees interact with technology and systems. These 
efforts would also serve as a common focus for the division and provide 
a standard measure and vocabulary for safety performance.
    Just as important, however, would be targeted leadership 
development activities designed to support both the mill-level BAPP 
initiatives and foster the safety climate and organizational culture 
across the division that Columbia was striving for. At the division 
level, the company's senior leaders would participate in workshops and 
individual coaching. Senior leaders at the mill level would also 
participate in a leadership assessment and improvement activities 
designed to enhance their ability to support the company's safety goals 
and develop leadership skills generally. Finally, mill supervisors 
would receive their own development training aimed at strengthening 
their skills for supporting the safety improvement process.
    Columbia management saw the strategy as helping them provide a 
foundation for accountability and engagement as well. To begin the 
project, BST administered the Organizational Culture Diagnostic 
Instrument (OCDI) to determine the strengths and areas of improvement 
in the local culture. Measures of the instrument score a workgroup on 
nine dimensions empirically linked to downstream outcomes, providing 
focus points for development.
                     creating a role for leadership
    Columbia leaders led the way by beginning the safety initiative at 
the division level. The cultural diagnostic had raised issues 
surrounding the perceived commitment of the division's leaders for 
safety. This in turn translated into a culture where safety was seen as 
of lesser value than other performance metrics. The problem, says BST 
consultant Stan Owens, wasn't that the commitment wasn't there. In 
fact, says Owens, he was struck by the strong value that several of the 
division leaders expressed for safety. ``It was really a visibility 
issue,'' he says. In part, the gap was caused by the way the 
organization was structured; company business rarely brought senior 
leaders to the mills in person and usually only then for production 
reasons, leading many mill employees to assume that safety wasn't on 
their radar. In addition, says Owens, many simply hadn't been trained 
how to communicate their commitment in a way that resonated down to the 
floor employees. To help CFP's leaders leverage their influence on 
safety, and make their commitment a felt presence, Owens, and BST 
consultant Steven Luttrull designed a development strategy that 
involved individual diagnostics, one-on-one coaching, and continual 
alignment for the division's leaders.
    Carter, Thompson, and five others first underwent a 360 diagnostic 
instrument that asked peers, reports, and the leaders themselves to 
rank how often and well they used identified best practices for safety 
leadership. Results of the instrument were then used to design personal 
action plans for each leader that defined specific behaviors they could 
employ in their day-to-day jobs that support Columbia's desired safety 
performance. For some, this included specific goals the leader would 
set within the organization, for others it would be messages that he or 
she would communicate, or practices to use in meetings. Every leader 
was assigned a BST coach who worked one-on-one to troubleshoot action 
plans and provide feedback on their progress.
    In addition to defining behaviors, the division's leaders put in 
place a system for tracking their progress electronically and selected 
peers and people at site locations to provide feedback on how well they 
were doing. Leaders each had to report on their progress each period. 
In addition to individual goals, every leader took on an objective of 
participating in three mill-level safety activities for the year. As 
the safety strategy rolled out, Columbia went through the same process 
with each of the line managers, plant managers, and supervisors at each 
of the division's nine sites. Carter says that the process has been 
very positive; ``The fact that we put (leadership activities) together 
with all of the other safety components is very important,'' he said. 
By giving leaders concrete activities, says Carter, it enables leaders 
at all levels to support employees as they run their safety process. 
``We're beginning to get leaders involved in participating in steering 
team, participating in observations and beginning to be held 
accountable to make sure observations in their areas are done.''
               reducing exposure at the working interface
    With a leadership component in place, Columbia launched the 
employee-driven portion of its safety strategy, with BAPP 
implementations at the mill level. The first implementations were 
initiated at three pilot locations beginning in late 2004, Nipigon and 
Heart in Ontario, Canada, and Craigsville, WV, in the United States. In 
early 2005, CFP implemented the process at the remaining five Plywood 
locations; Chatham, WV, Klamath Falls, OR, Trumann, AR, Old Fort, NC, 
and St. Casimir, Quebec. Each mill followed a similar process. Hourly 
employees were recruited to form a steering team and worked with a BST 
consultant to identify behaviors critical to safe work at that mill. 
The team was then trained how to operationally define each of the 
behaviors so that they could be observed, and then train other 
employees how to collect data on those behaviors through two-way 
observation and feedback. Finally, the steering teams would be trained 
how to analyze the collected data to identify and remove barriers to 
safe work.
    Helen Ecks, facilitator of the BATS (Better Achievements Through 
Safety) process at the Old Fort, NC, mill says that she was initially 
skeptical that such an approach would last. ``Everything before has 
always been management-driven,'' she says. Ecks says that going through 
the training, and getting acquainted with Thompson and other division 
leaders helped convince her that the company was serious about 
supporting an employee-driven approach. ``I didn't meet Brad [Thompson] 
until I got this position. I'd seen him walk through the mill, but we'd 
never met,'' she says, ``Now I can sit down and hold a conversation 
with him.''
    Ecks says that the rapport that she and facilitators from other 
sites built with division leaders helped to build bridges with all 
employees. Faced with resistance early in the process, Ecks called 
Thompson directly for help, ``I just called Brad and said, `Listen, 
these people are saying you can't walk the walk'. `I need you to come 
answer these questions'.'' Thompson's reply was immediate. ``He just 
said, `Let me know when you need me there'. People couldn't believe I 
just called him.'' Ecks says that mill and division leaders' support 
and openness helped win over floor employees. At Old Fort, Carter 
attended observer training with mill employees. ``They loved having Don 
in there just being one of them--not running the show. He didn't 
interrupt, he let us completely lead it. He showed us right there that 
he'd completely support the process.''
    Facilitator Kim Elliot for the SWAT (Safe Workers Analysis Team) 
process at the Trumann, AR, mill says that she joined the process in 
part because she was frustrated with the existing safety procedures. 
While a long-time member of the mill's safety team, Elliot says ``We 
didn't have authority or resources to get things done.'' Having a data-
driven process and a dedicated Barrier Removal Team has helped change 
that. ``The SWAT process has been able to give us those resources,'' 
says Elliot. ``That's one of the reasons we've been successful.'' ``I 
feel so honored and proud to work for Columbia Forest Products and to 
not have barriers that others do with management and leadership. It's 
made me prouder to be an employee owner.''--Kim Elliott, Swat 
Facilitator, Trumann, AR.
    In addition to reducing the mill's injury rate by 66 percent in the 
first year, Eliot says that the SWAT process has helped to transform 
the culture. ``Employees feel comfortable intervening with each other--
it's not uncommon now for someone to walk through the plant and say 
`You need earplugs, or safety glasses','' says Elliot. ``The skills 
that we've been taught and teach in our mill--and how things are 
working in the process--have given them the freedom.''
                     driving culture & performance
    Since one of the key objectives of the safety initiative was 
creating a uniform safety management practice throughout the division, 
Columbia Forest Products leaders worked with BST to develop a system 
for managing critical process metrics. Each mill now completes a safety 
dashboard that is reviewed monthly by division leaders. The dashboard 
reports on indicators of how the employee-driven safety process is 
functioning, such as levels of observation activity, barrier patterns, 
and participation rates. The dashboard gives division leaders greater 
visibility of actual safety activities, and allows them to quickly 
respond to challenges as they are occurring.
    Another key objective for CFP was to leverage safety performance to 
create a more unified, and higher-performing, culture. In addition to 
managing individual safety processes at the mill level, division 
leaders created a series of intersection points for safety activities 
among the division's nine sites and with the division headquarters 
itself. The company now hosts an internal users conference where 
representatives from the division's nine mills get together to share 
best practices and brainstorm solutions. To foster cross-company 
collaboration, facilitators from individual mills are assigned to 
inter-site teams to problem solve common exposures to injury, such as 
splinters and pinch points. Division leaders are also expected to 
participate actively in safety activities; in 2006 each leader was 
tasked with attending at least three site-level training or steering 
team meetings. When an accident does occur, the company's new policy is 
that a leader will personally call the injured person to ask how 
they're doing and solicit their input on what the company can do to 
improve safety. ``We're interested in them as individuals, not just as 
a number,'' says Carter.
                                results
    Since launching the safety initiative in 2004, the company has 
realized a 27 percent reduction in injury rates across the division, 
with many sites experiencing even more dramatic improvements. The 
severity of injuries across the division has dropped a staggering 81 
percent. While the company continues to refine its safety approach, 
Carter says that the initiative has already helped the company align 
itself around its core principles. ``Our employees are our most 
important asset. How can you run a business well if you don't value 
that first? ''
    Company representatives also point to other gains. The principles 
used in the employee-driven safety process are being leveraged for a 
division-wide quality initiative and communication among employees of 
all levels has increased significantly. ``We have found if you run an 
operation safely you also run it efficiently and if you run it 
efficiently you also have profitability benefits that run beyond 
safety. And we've seen that, we've seen operations greatly improved,'' 
says Carter. For facilitator Elliot, the gains are more personal. ``I 
learned that there are some awesome ideas and people in the plant and 
we just never utilized them,'' she says. ``I feel so honored and proud 
to work for Columbia Forest Products and to not have barriers that 
others do with management and leadership. It's made me prouder to be an 
employee owner.''
                                 ______
                                 
               Refining Safety At U.S. Sugar Corporation
    The United States Sugar Corporation (U.S. Sugar) is an enterprise 
in transformation. Based in Clewiston, FL, the 74-year-old company is 
the Nation's largest producer of cane sugar, a product prized by 
confectioners and bakers for its low melting point and high 
blendability. Beginning in 2002, the corporation added a new 
designation: that of rising star in the field of safety. Since that 
time the company has reduced workers compensation costs by more than 55 
percent and overall injury rates company-wide by close to 30 percent.
    U.S. Sugar Vice President of Environmental Compliance & Programs 
Peter Briggs attributes much of the improvement to an implementation of 
BST's Behavioral Accident Prevention Process (BAPP) technology. The 
employee-driven approach engages frontline workers in capturing 
information about workplace exposures and uses the data to make 
improvements in the configuration of equipment, systems, and what 
people do. ``We've probably had 20,000 discussions with two peers 
talking to each other about safety, where before that, we hadn't had 
one,'' says Briggs. In addition to providing a steady stream of data 
about safety conditions, Briggs says that the process is also helping 
the company transform its culture. ``We've got people meeting people 
who didn't even know they worked for the same company. There's been 
cross-fertilization between different organizations that has been very 
good.''
             Driving Culture Change Across 300 Square Miles
                           an industry leader
    Founded in 1931 with a single sugar mill on the south end of Lake 
Okeechobee, U.S. Sugar is today a multi-million dollar company 
operating on 300 square miles in south central Florida. Working the 
196,000 acres of farmland, and the facilities that process its harvest, 
takes 3,500 employees and operations that could run a small country: 
two sugar mills, a refinery, a water treatment facility, a small 
railroad, and even a small hotel that is on the national registry of 
historic sites. The end result is an annual yield of 700,000 tons of 
cane sugar. Operations at U.S. Sugar are divided into three basic 
units. The Ag Department, which runs the farms; Sugar Houses, which 
consist of two mills, a refinery, a water plant, and the railroad; and 
Ag Services which provides maintenance and other services throughout 
the operation. Hourly employees in the Ag Department are non-union. 
Hourly employees in the Sugar Houses and Ag Services departments are 
represented by the International Association of Machinists (IAM).
               making the move to employee-driven safety
    Since it first began farming, U.S. Sugar, as most other growing 
operations, cut sugarcane by hand. Increasing competition and pricing 
regulations in the 1990s, drove the company toward extensive 
modernization that included introducing both new machinery and new ways 
of organizing employees. It was during this time that the idea to 
initiate an employee-centered safety system first emerged. High 
incident rates were generating costs in injuries and workers 
compensation rates into the millions of dollars. More important than 
the financial implications was that ethically, the organization wanted 
to do a better job of protecting its employees. At the time, such an 
approach had gained a reputation for producing significant improvements 
in both injury rates and employee engagement and culture. Leaders at 
the organization were attracted to the approach's emphasis on 
identifying exposure ahead of injuries, and capturing data that would 
help the organization's direct improvement efforts. Up to that point, 
says Bryant Mill Manager Darrel Collier, ``Behavioral safety issues 
were only addressed if someone got hurt.'' The new approach could help 
the organization become more proactive. ``We can look at it as 
preventive maintenance for the body,'' says Collier. ``We don't have to 
wait for an injury to make small corrections.''
    Still, not everyone was comfortable with the idea. At the time, 
employee-driven safety was more commonly known as ``behavior-based 
safety'' a phrase that caused some concern with U.S. Sugar's union 
employees. In part, says Briggs, the problem was cultural. ``There were 
trust factors in there and communication factors . . . areas that we 
needed to improve greatly on,'' he says. Union representatives were 
concerned that it would be a way for management to avoid responsibility 
or a means to discipline employees who didn't follow safety rules. The 
idea was put on hold until 2002 when Briggs and other senior management 
personnel championed a new look at the approach. This time, U.S. Sugar 
provided the means for union representatives to see the approach in 
action for themselves. Representatives visited a chemical manufacturing 
site in Kentucky that had been using BAPP technology successfully in a 
union environment for years. The visitors were intrigued and said they 
would support an implementation like the one in Kentucky. With this new 
interest, the company decided to pilot the approach in the Ag 
Department, and if successful, move the initiative to the Sugar Houses 
and Ag Services.
                        establishing a baseline
    One of the critical objectives for U.S. Sugar in implementing an 
employee-driven safety approach was to realize its vision of a ``safety 
first'' culture; leaders wanted to create an organization where 
employees approached jobs from a mindset of finding the safest way to 
do the work rather than a ``get it done'' mentality. ``It was always 
everybody's vision,'' says Briggs, ``But how do you get that?'' In 
order to develop a strategy that would address this concern, U.S. Sugar 
enlisted BST's help in administering a cultural diagnostic instrument 
that would establish a baseline of the organization's culture and 
identify areas that required special attention during the 
implementation process. The instrument surveyed employees across the 
organization to measure perceptions of nine cultural dimensions linked 
to safety performance, with scores expressed as percentiles ranking the 
organization against hundreds of others that had taken the same 
diagnostic.
    Results from the diagnostic showed that U.S. Sugar had strong 
cultural assets to leverage in starting the new initiative. In some 
groups, key organizational dimensions such as Procedural Justice, 
Management Credibility, and Perceived Organizational Support, were 
ranked very high, indicating that employees perceived the organization 
and its processes favorably. By striking contrast, however, the 
instrument also showed that throughout the organization, the safety 
dimension of Approaching Others scored very low. This dimension, which 
measures the extent to which employees feel free to speak to one 
another about safety concerns, is predictive of involvement and 
initiative, individual commitment to safety, and the likelihood that 
workers will raise safety concerns. A low score on this dimension 
signaled a serious challenge for implementing an employee-driven safety 
process where success relies on open communication among employees 
about exposures and solutions to safety challenges. In order to 
compensate for this score, BST consultant Alan Grant tailored the 
implementation strategy to include extra time on interaction skills 
training for the employees who would serve on the steering committee 
and as observers, and special attention to rolling out the process to 
other employees.
On the Impact of Leadership on Safety--and Safety on Leadership
    ``The old saying of `lead by example' is not really accurate. If 
you're in a position of leadership you lead by example whether you want 
to or not. The only choice you have is whether you lead with a good 
example or a bad one.''--Calvin Cauley, BASS Facilitator, Ag 
Department.
    ``Once supervisors started to say to their employees it is okay and 
we want you to go out there, [the observers] started to loosen up and 
go out and do it. There's a direct correlation between the support and 
the number of observations.''--Fermin Cardona, IBIS Facilitator, 
Clewiston Sugar House.
    ``It used to be there were supervisors who didn't want to hear 
about a problem or just wanted to hear that it had been solved . . . 
Now guys--men and foremen--feel like they have the power to say 
something. Safety and production are now equal.''--Wren Herring, JAWS 
Facilitator, Ag Services.
    ``Each of our areas is run by people who've made it a top priority 
. . . Just about every meeting you walk into now, one of the first 
topics they talk about is safety as well as behavioral safety.''--Jack 
Webb, Former JAWS Facilitator, Ag Services.
                       bass in the ag department
    The first phase of U.S. Sugar's safety initiative called for 
implementing an employee-driven safety process in the Ag Department. 
The department encompasses the organization's 196,000 acres of farms 
worked by an employee population that varies from a low of 120 in the 
off-season to more than 400 at the peak of harvesting. In addition to 
the frequently fluctuating employee population, this group faced other 
unique challenges. Many employees do not read or write well, many do 
not speak English, and all work over such a large area that 
opportunities for conducting peer-to-peer observations are sporadic.
    In August 2003, hourly employees from the Ag Department formed the 
Behavioral Awareness Strengthens Safety (BASS) team. Supervisor Calvin 
Cauley was recruited to be the BASS facilitator. ``I had kind of the 
same reaction that a lot of other people had [to the process],'' says 
Cauley, ``Here we go again trying something else new that isn't going 
to be around long.'' Still, Cauley gave the new approach a try. 
Together with eight other hourly employees who would make up the 
steering committee, Cauley went through training that covered 
behavioral science principles, data gathering and use, and of course, 
interaction skills. The training began with reviewing past injuries and 
other data to identify work where employees might be exposed to risk of 
injury. Once identified, the BASS team was trained to define these 
interactions in a way that would allow observers to collect data on 
work being performed (whether safe or at-risk) and to capture 
information on barriers to performing the work safely.
    According to Cauley, one of the largest challenges was launching 
the data gathering element of the BASS process. Employees in the group 
were uncomfortable approaching others to talk about safety. In 
addition, the workgroup's unique makeup required tailoring the 
observation process to make it accessible to all employees and 
translating the CBI definitions/examples and observation sheets into 
Spanish. The BASS team, with the support of Briggs and Ag Department 
managers and supervisors, started by setting the expectation that all 
employees would be involved in the process (both hourly and 
supervision/management), either as observers or by being observed. The 
BASS team recruited and trained observers from its corps of year-round 
employees to ensure consistent observation activity and made sure that 
all employees (year round or seasonal) were acquainted with their role 
in the process. Observers who had difficulty reading or writing were 
coached to ask the employees they observed or their observer coach to 
help them complete the comments on their data sheet. And to accommodate 
the groups dispersed workforce, the BASS team deployed a strategy of 
``opportunistic'' observations, observations coordinated at times when 
employees and observers would be in the same place and timed to capture 
information representative of all the different tasks workers 
performed.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Two years later, Cauley says the strategy has paid off. ``Before we 
started, one employee would basically not talk to another about 
anything safety related.'' Two years later the BASS process has logged 
more than 7,000 one-on-one conversations, with many more occurring 
outside of formal observations. ``We'll even get an hourly employee 
reminding his supervisor to wear his safety glasses, for example.'' 
With the data collected through these observations, the BASS team has 
been able to complete action plans to address persistent barriers to 
safe work, including an aggressive plan around seat belt use that 
improved the behavior's safe use to more than 98 percent. Even more 
impressive, the injury rate for the department has shown a strong trend 
downwards; maintaining a 68 percent drop for more than 21 months.
    Currently, the BASS process has 122 out of the 135 total year-round 
people (both hourly and supervision/management) trained as observers. 
Of those, 17 percent are supervisors and managers. ``Because the 
expectation has been set that doing observations is as much a part of 
an employee's job as production we can set a goal for the number of 
observations for each observer to conduct each month and achieve the 
goal,'' says Cauley. ``That also allows us to maintain a contact rate 
of 1.00 to 1.10 with very little variation, and has allowed us to 
establish and use an effective observer rotation cycle.''
    Cauley says that his initial hesitation about the process has been 
replaced by a strong belief in the power of employee-involvement. He 
also says that serving as facilitator has taught him about leadership. 
``The old saying of `lead by example' is not really accurate. If you're 
in a position of leadership you lead by example whether you want to or 
not. The only choice you have is whether you lead with a good example 
or a bad one.
                        ibis in the sugar houses
    Following the success of the BASS process, U.S. Sugar rolled out 
the approach in March 2004 to the organization's two Sugar Houses in 
Clewiston and Bryant, where the company's sugar cane is turned into raw 
sugar. Starting at the operation's mill, harvested cane is pulverized 
for its juice. The juice then goes to the Sugar Houses to be 
evaporated, treated, and boiled down again to make sugar crystals. At 
this point, the raw sugar is ready to be taken to the refinery to be 
melted down again to create refined white sugar.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Within the Sugar Houses, the initiative is called IBIS for 
Integrating Behavior into Safety and covers approximately 700 
employees. Hourly technician Jack Webb was tapped as the IBIS process' 
first facilitator, ``I knew absolutely nothing at that point. My first 
reaction was I thought it was a good idea--then it was, `How in the 
world are we going to start something this drastic in a place this 
spread out and old? ' '' Fermin Cardona, who is currently taking over 
facilitator duties for Webb at Clewiston after starting as an observer 
at Bryant, says that many people were skeptical. ``They thought it was 
another fly-by-night, flavor-of-the-month safety program.'' Unlike the 
Ag Department, culture indicators showed low perceptions of management 
credibility and organizational support. Briggs understood their 
concern, ``We had some trust issues.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Briggs felt that the key to overcoming the lack of trust was 
defining roles for managers and employees that matched the intensity of 
the company's work. ``There's nothing subtle about our workforce. We 
rip, tear, boil, and cut. It's not like a chemical reaction. We're very 
hands on.'' Before rolling out the employee-driven safety effort, 
Briggs established clear expectations for the company's managers, ``I 
told them that it isn't enough to be on board, you need to show the 
flag and show you're sincere.'' Briggs followed his own advice and went 
through steering committee training alongside hourly employees. ``In a 
week I went from being `Mr. Briggs' to `Peter','' he says. ``When we 
all went through that training, we realized we all want the same things 
and all have the same gripes. The camaraderie that was built has helped 
to build bridges even 2 years later.''
    To date the IBIS team has trained 100 observers who engage in one-
on-one conversations with their co-workers about safe work. As in the 
Ag Department, the process starts when an IBIS observer approaches a 
coworker and asks to watch him or her work for a few minutes followed 
by a discussion of all safe and any at-risk behaviors observed. During 
the discussion, the observer makes a note of any barriers that prevent 
the employee from working safely. Barriers range from enabled (within 
the control of the employee) to non-enabled (impossible for the 
employee to do in the current configuration or systems and equipment) 
or difficult (possible but requiring significant effort). Data are then 
added anonymously to a database that the IBIS team uses for problem 
solving and action planning.
    Webb says support from managers and supervisors played a large part 
in the success of the IBIS process. ``Each of our areas is run by 
people who've made it a top priority,'' says Webb. ``Just about every 
meeting you walk into now, one of the first topics they talk about is 
safety as well as behavioral safety.'' This support has translated into 
more training in the process for supervisors. ``Increased supervisor 
training leads to increased management training and support,'' says 
Cardona who credits this support with helping observers engage more 
readily in the process. ``Once supervisors started to say to their 
employees it is okay and we want you to go out there, they started to 
loosen up and go out and do it. There's a direct correlation between 
the support and the number of observations.''
                           enabling safe work
    In the Sugar Houses, many of the barriers identified go directly to 
the joint union-management safety committee which oversees solutions 
such as maintenance items or supplying new equipment. When the root 
cause of an exposure is not so easy to determine, the IBIS team takes 
on the problem to develop a more comprehensive solution.
    Early in the IBIS process, the team discovered that fall protection 
was consistently scoring at a low 70 percent safe. This number 
indicated that approximately 3 out of every 10 times where fall 
protection was necessary to complete a job safely, the protection was 
either used improperly or not at all. In reviewing the data collected 
by observers, the IBIS team found that there were a range of reasons 
why employees were not using their fall protection. In some cases, the 
safe practice was enabled but the employees didn't think they needed to 
use it. In other cases, the practice was difficult or non-enabled (for 
instance, the employees didn't know how to use it, the fall protection 
equipment was hard to access, or the equipment didn't fit).
    To increase the frequency of adequate fall protection use, the IBIS 
team developed an action plan that addressed these various aspects, 
making it a practice that was both easy for the employee to do and 
supported by the organization. The IBIS team arranged training in fall-
protection use, coached supervisors to include a discussion of the 
practice in pre-job planning, and worked with management to ensure that 
fall protection was accessible where it needed to be. Within a few 
weeks, IBIS observers documented a marked increase in the frequency of 
adequate fall protection use. According to Webb, fall protection use 
was a classic example of moving work practices toward a new culture. 
``In the past our company was more production-driven than safety-
driven. Unfortunately a lot of employees still had that state of 
mind.'' The IBIS process and the action plan helped to show employees 
that the organization was serious about changing how employees worked. 
According to Bryant Safety Manager Kenny Williams, the BASS process has 
helped the group live up to the organization's value for communication, 
``Communications are to be open, honest, and direct. This is lived up 
to hundreds of times per month with each observation completed.''
                          jaws in ag services
    U.S. Sugar's Ag Services department functions as a mobile resource 
of support and maintenance services for the company's sugar houses and 
farms. Within Ag Services, the BAPP initiative is known as JAWS for Job 
Awareness Worker Safety, and is facilitated by Wren Herring. Work in 
the Ag Services department is as varied as the territory it covers. 
``We're kind of the firemen of U.S. Sugar,'' says Herring referring to 
the group's mission of keeping U.S. Sugar's various operations running 
smoothly in its 300-square mile territory. Ag Services' 105 employees 
perform everything from repair and operation of heavy equipment and 
facilities, to maintenance, carpentry, and electrical work.
    Herring says that he initially shared the same concerns as other 
employees when starting the process, in particular that his coworkers 
would not want to be observed. However, ``There was nowhere near as 
much resistance as I thought,'' he says. According to Herring, the 
bigger obstacle was in changing the old ``just get it done'' working 
culture. ``We had the normal little safety meetings . . . we'd watch a 
safety film, talk about it a little bit and that's the last time it was 
mentioned.'' As the JAWS process rolled out, however, employees started 
to see safety take a more integral role in every day work life. ``We've 
now had almost 1,200 times that people have talked to each other about 
safety,'' says Herring. The power of these contacts has been reinforced 
by the improvements that follow from them, oftentimes with a simple 
phone call from Herring to a manager who knows how to fix equipment or 
procedures that are contributing to exposure. ``The communication line 
with management has been gradually changing over the years. But with 
the JAWS process it has gotten even better.'' Herring says that 
sometimes foremen and managers now approach him with safety problems 
looking for help. ``It used to be there were supervisors who didn't 
want to hear about a problem or just wanted to hear that it had been 
solved,'' says Herring. ``Now guys--men and foremen--feel like they 
have the power to say something. Safety and production are now equal.''
                                results
    Bryant Mill Manager Collier says that the process has been 
extremely worthwhile.'' I don't think our company's incident rates have 
ever maintained such a low running average.'' In addition to achieving 
improvements in numbers, U.S. Sugar has also seen dramatic changes in 
how employees approach management, safety issues, and each other.
    Webb says that an Ag Services employee working in the Clewiston 
sugar house exemplifies the culture change experienced at U.S. Sugar. 
Crane operator and JAWS observer Chris Musgrave was working with 
Clewiston Sugar House employees (an area outside of the process he is a 
part of ) when he noticed they were unfamiliar with crane work. Since a 
crane operator relies on those he works with for signaling and rigging 
to keep the load secure, inexperienced riggers presented exposure to 
themselves and others in the area. Webb says that rather than keeping 
quiet, as the culture might have encouraged in the past, Musgrave 
approached the foreman. He explained the situation and volunteered 
himself as a trainer. The foreman agreed and helped Musgrave arrange 
classes on rigging and hand signals. ``I don't think this would have 
happened before,'' says Webb. ``Before, either the guys who did receive 
the training would have blown it off or [Musgrave] might not have even 
been willing to step forward . . . But he brought it up and said 
`Here's how we can solve it and I'm willing to do it'.'' The culture 
change, says Webb, is not just that employees are speaking up, but that 
managers are collaborating with them to reconfigure work and reduce 
exposure.
    Briggs is especially proud of the facilitators and steering team 
members who have helped to make the safety initiatives successful. 
``Beginnings and endings usually get a lot of attention. The middle, 
the maintenance stuff, the real two-in-the-morning gutsy stuff to keep 
going, is what I'm seeing from our guys. There's been days when they 
encourage me.''
                                 ______
                                 
    Excerpts from ``Leading With Safety'' by Thomas R. Krause, Ph.D.
      NASA's Approach to Transforming its Organizational Culture 
                            & Safety Climate

                      (Written by Scott Stricoff)

    The National Aeronautics and Space Administration (NASA) was 
established in 1958 to lead efforts in space exploration and 
aeronautics research. Today NASA has roughly 19,000 employees at its 
headquarters and nine Centers throughout the United States, and more 
than 5,000 additional staff at the Jet Propulsion Laboratory which is 
operated for NASA by the California Institute of Technology. NASA's 
programs in space exploration, space science, and aeronautics research 
are widely known, with some of its most visible programs including the 
Space Shuttle and the International Space Station.
    On February 1, 2003, the Space Shuttle Columbia and its crew of 
seven were lost during their return to Earth. A group of distinguished 
experts was appointed to comprise the Columbia Accident Investigation 
Board, which spent 6 months conducting a thorough investigation of the 
accident.
    The Accident Investigation Board issued its report in August 2003 
with findings focused on three key areas: (1) systemic safety, 
cultural, and organizational issues, including decisionmaking, risk 
management, and communication; (2) requirements for returning safely to 
flight; and (3) technical excellence. The Board found that NASA's 
culture and related history contributed as much to the Columbia 
accident as any technical failure. Specifically, the Board identified 
the following organizational cause of the Columbia accident:

        ``The organizational causes of this accident are rooted in the 
        Space Shuttle Program's history and culture, including the 
        original compromises that were required to gain approval for 
        the shuttle program, subsequent years of resource constraints, 
        fluctuating priorities, schedule pressures, 
        mischaracterizations of the Shuttle as operational rather than 
        developmental, and lack of an agreed national vision. Cultural 
        traits and organizational practices detrimental to safety were 
        allowed to develop, including: reliance on past success as a 
        substitute for sound engineering practices (such as testing to 
        understand why systems were not performing in accordance with 
        requirements/specifications); organizational barriers that 
        prevented effective communication of critical safety 
        information and stifled professional differences of opinion; 
        lack of integrated management across program elements; and the 
        evolution of an informal chain of command and decisionmaking 
        processes that operated outside the organization's rules.'' \1\
---------------------------------------------------------------------------
    \1\ Columbia Accident Investigation Board Report. August 2003. Vol. 
1, Chapter 7: 177.

    The Board made specific recommendations calling for a number of 
structural changes to the organization and identified a number of gaps 
in leadership practices important to safety. While there were no 
recommendations explicitly addressing leadership practices, the report 
identified many examples of gaps in the leadership practices that 
---------------------------------------------------------------------------
support safety, such as:

    <bullet> Failing to follow NASA's own procedures;
    <bullet> Requiring people to prove the existence of a problem 
rather than assuming the need to assure there was not a problem; and
    <bullet> Creating a perception that schedule pressure was a 
critical driver of the program.

    As a result of the Accident Investigation Board investigation and 
related activities, NASA established the objective of completely 
transforming its organizational and safety culture. At a minimum, it 
targeted making measurable progress in changing its culture within 6 
months and having broad changes in effect across the Agency in less 
than 3 years. The 6-month marker was identified as particularly 
critical as the Agency prepared to return to flight.
    After reviewing proposals from more than 40 organizations, NASA 
selected our firm in January 2004 to assist in the development and 
implementation of a plan for changing the culture and the safety 
climate agency-wide. We were asked to provide for a systematic, 
integrated, NASA-wide approach to understanding the prior and current 
safety climate and culture norms, and to diagnose aspects of climate 
and culture that did not support the Agency's effective adoption of 
changes identified by the Columbia Accident Investigation Board. We 
were further asked to propose a course or courses of action to change 
behaviors and to introduce new norms that would: (1) eliminate barriers 
to a safety culture and mindset; (2) facilitate collaboration, 
integration, and alignment of the NASA workforce in support of a strong 
safety and mission success culture; and (3) align with current 
initiatives already underway in the Agency.
    We began with an assessment of the current status, and the 
development of an implementation plan. NASA asked that both be 
completed within 30 days. Following the assessment and the development 
of a plan, we began implementation. The result: significant progress 
towards the longer-term goal of strengthening NASA's culture. This 
chapter describes the assessment and its results, the plan implemented 
to influence the culture, and the results obtained from that plan after 
the initial 6-month period.
               assessing the existing culture and climate
    Before we could change anything, we first had to understand the 
current culture and climate at NASA and identify focus areas for 
improvement. We approached this task with the belief that there was 
much that was positive about NASA's culture. Our challenge was to build 
from those positive aspects, strengthen the overall culture, and at the 
same time, address the issues raised in the Accident Investigation 
Board report.
    In undertaking this work, we focused on the difference between 
``culture'' and ``climate.'' By culture we mean the shared values and 
beliefs of an organization--commonly described as ``the way we do 
things around here.'' The culture can also be thought of as the shared 
norms for behavior in the organization, often motivated by unstated 
assumptions.
    Climate refers to the prevailing influences on a particular area of 
functioning (such as safety) at a particular time. Thus, culture is 
more deeply embedded and long-term, takes longer to change, and 
influences organizational performance across many areas of functioning. 
Climate, on the other hand, changes more quickly, and more immediately 
reflects the attention of leadership.
    The significance of this distinction for NASA was that in the 
aftermath of the Columbia tragedy there was a strong safety climate; 
however, we were concerned that in the absence of properly focused 
efforts, the culture would not change, and over time the safety climate 
was likely to be compromised by the inevitable schedule, budget, and 
operational pressures that occur in any organization.
    As described below, the culture assessment was based on review of 
previous work, a survey of NASA employees, and a program of interviews.
Previous Studies
    In late 2003, NASA Administrator Sean O'Keefe commissioned a 
detailed review of the Columbia Accident Investigation Board report to 
determine which recommendations, observations, and findings had agency-
wide applicability to NASA and to develop measures to address each one. 
The internal NASA team that conducted this review produced a detailed 
report that identified a number of concrete improvement actions and 
recommended assignment of these actions to various units within NASA. 
According to the report, the team had focused on the organizational (as 
opposed to physical) causes identified in the Board report, but it 
``did not do a broad, in-depth assessment of the cultural changes 
needed to address the organizational causes.''
    The NASA team's recommendations were divided into seven major 
topics: Leadership; Learning; Communication; Processes and rules; 
Technical capabilities; Organizational structure; and Risk management.
    The team recognized that there was a broader need for culture 
change that they were not addressing. According to the report, ``Some 
of the recommended actions are those one might expect in an 
organization trying to change its culture, but the goals offered by the 
Team are intended only as a first step in the process.''
    The NASA team also reviewed previous culture surveys conducted at 
the Agency to provide historical perspective for this assessment.
    During 2003, the Federal Office of Personnel Management (OPM) 
conducted a survey throughout the Executive Branch entitled ``Best 
Places to Work.'' This survey measured employee attitudes about various 
aspects of the government's agencies and resulted in an overall ranking 
of agencies and locations within agencies. NASA ranked highest among 
all agencies, and several NASA locations were on the list of the top 10 
locations in the entire Federal Government. The survey found strengths 
in teamwork, employee skills-mission match, and strategic management. 
It was also designed to identify areas in which each agency could make 
improvement, and at each NASA center the general category of 
``Leadership'' was identified as an improvement target.
    These findings were generally consistent with results NASA had 
obtained in its own previous surveys. While NASA had not conducted an 
agency-wide culture survey in many years, there had been such surveys 
at several of the individual Centers within the last few years. These 
surveys identified leadership as a top area for improvement. However, 
they had not clearly defined the nature of the leadership improvement 
opportunity.
Safety Climate and Culture Survey
    We conducted a specially modified version of our Organizational 
Culture Diagnostic Instrument (OCDI) at all 11 NASA locations. We asked 
all NASA employees plus Jet Propulsion Laboratory (JPL) employees to 
complete the survey via a web-based link. As previously described in 
Chapter 4, the OCDI measures the underlying organizational determinants 
of organizational culture and safety climate.
    We administered the survey to solicit information about mission 
safety, which was defined as follows: ``the prevention and avoidance of 
injury or damage to the mission or its hardware in all aspects of NASA 
missions.''
    In addition to the basic survey scales, we added questions 
specifically designed for use in NASA. Those questions were designed to 
evaluate the current situation in comparison to the desired state and 
to gather data on several specific culture-related issues raised by the 
Accident Investigation Board report.
    An overall response rate of 45.2 percent was obtained for NASA 
employees, comparable to response rates obtained on previous NASA 
culture surveys. We evaluated potential response bias in the sample of 
people who responded, and these tests indicated that the respondent 
group was comparable to the overall NASA population.
    Agency-wide response to the basic survey scales is shown in Figure 
12-1 (percentile scores) and Figure 12-2 (raw scores). The percentiles 
in Figure 12-1 reflect comparison of NASA with a normed database 
compiled using this survey.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    At an agency-wide level, NASA scored well in relation to other 
organizations in the database on most of the scales comprising the 
survey. It scored above the 90th percentile on Approaching Others, and 
Workgroup Relations, and between the 80th and 90th percentiles for 
Teamwork, and Leader-Member Exchange. These results indicated that 
across the Agency there was generally effective team functioning at the 
local level, with employees who have the ability and inclination to 
speak up to peers.
    NASA scored lowest on two scales: Perceived Organizational Support 
(46th percentile) and Upward Communication (62nd percentile). Perceived 
Organizational Support (POS) measures employees' perceptions about the 
organization's concern for their needs and interests. Those perceptions 
in turn influence beliefs about the organization's values for safety. 
This influences employees' willingness--or unwillingness--to raise 
safety concerns. Upward Communication (UC) measures perceptions about 
the quality and quantity of upward communication about safety, the 
extent to which people feel encouraged to bring up safety concerns, and 
the level of comfort discussing safety-related issues with the 
supervisor.
    Lower scores on POS and UC indicated areas for particular focus 
during the culture change effort. Senior management and the behaviors 
they stimulate through the management chain influence both of these 
dimensions. These dimensions are also a strong influence on the culture 
in ways that relate directly to mission safety.
                                findings
    To help provide context for the survey results, we conducted a 
series of interviews with more than 120 people at representative 
locations--NASA headquarters, the Glenn Research Center, and the 
Johnson Space Center. At each location we interviewed individual 
members of senior management and met with representative groups of 
individual contributors, and supervisors and managers. The purpose of 
these interviews was to provide general background to help us interpret 
survey data.
    In general, the interviews disclosed a strong sense of dedication 
and commitment to the Agency's work. However, we also found frustration 
about a number of things.
    During the interview program, we received a number of indications 
that there were impediments to speaking up at NASA. On more than one 
occasion individuals would hang back at the end of a group session and 
either make comments after others had left or leave written notes 
expressing thoughts they had not brought up in front of others. These 
comments tended to be on the topic of barriers to communication. This 
was consistent with the Upward Communication survey result and 
indicated that there was a group of non-managers within NASA who felt 
that open communication was impeded.
    We also heard many comments indicating that not all managers and 
supervisors had the leadership skill levels that many considered 
appropriate. A common theme was the issue of respect for individuals 
and the need for some managers to act in ways that better reflect that 
value.
Safety & Mission Success Week Data
    In November 2003, 9 months after the shuttle disaster, NASA held 
Safety and Mission Success Week. During this week each Center Director 
was asked to collect feedback from his workforce on the Columbia 
Accident Investigation Board report and the issues it raised.
    NASA analyzed data from the centers, identifying major themes. We 
received the summary of this data as the assessment report was being 
prepared and found it was consistent with the findings of the 
assessment. Several of the themes and specific issues identified were 
important to culture change at NASA, including:

    <bullet>  Lack of a process for delivering upward feedback. This 
was reflected in the survey scores for Upward Communication.
    <bullet>  Leaders do not follow words with actions. This 
contributes directly to lower Management Credibility.
    <bullet>  Message of ``what'' delivered without the ``why.'' This 
is likely to contribute to lower Management Credibility and lower 
Perceived Organizational Support.
    <bullet>  Need a culture that values and promotes respect and 
cooperation. This relates to Perceived Organizational Support.
    <bullet>  Need a renewed emphasis on respect for each other, and 
cooperation.
    <bullet>  Minority opinions need to be embraced--create an open 
atmosphere in which disagreements are encouraged and new ideas/
alternatives are pursued. (This was consistent with survey findings 
that Upward Communication was one of the weakest scales measured).
    <bullet>  Contractors are treated as second-class citizens. This 
can result in inhibiting communications, with the potential for 
impeding performance excellence.
Conclusions
    The assessment found that the NASA culture reflected a long legacy 
of a can-do approach to task achievement, but did not yet fully reflect 
the Agency's espoused values of safety, The NASA Family, Excellence, 
and Integrity. The culture reflected an organization in transition, 
with many ongoing initiatives and lack of a clear sense at working 
levels of ``how it all fits together.''
    Examining NASA's espoused values, we found that:

    <bullet> Safety was something to which NASA personnel were strongly 
committed in concept, but NASA had not yet created a culture that was 
fully supportive of safety.--Open communication was not yet the norm, 
and people did not feel fully comfortable raising safety concerns with 
management.
    <bullet> The NASA Family value was inconsistent with the fact that 
people felt disrespected and unappreciated by the organization.--As a 
result, the strong commitment people felt to their technical work did 
not transfer to a strong commitment to the organization. People in 
support functions frequently did not fully understand or appreciate 
their connection to the Agency's mission, and people in technical 
positions did not fully value the contribution of support functions to 
their success.
    <bullet> Excellence was a treasured valued when it came to 
technical work, but was not seen by many NASA personnel as an 
imperative for other aspects of the organization's functioning (such as 
management skills, supporting administrative functions, and creating an 
environment that encourages excellence in communications).
    <bullet> Integrity was generally understood and manifested in 
people's work.--However, there appeared to be pockets in the 
organization in which the management chain had sent signals--possibly 
unintentionally--that raising negative issues was unwelcome. This was 
inconsistent with an organization that truly values integrity.

    In summary, we identified an opportunity and needed to strengthen 
the culture's integrity by helping NASA become an organization that 
lives the values.
                            the intervention
Overview
    Based on this assessment, we recommended that the culture change 
initiative should build on the strengths shown in the safety climate 
and culture survey. NASA employees generally worked well as teams, 
liked and respected each other, and felt comfortable talking to peers. 
These strengths could be harnessed to create reinforcement mechanisms 
for behaviors that support the Agency's values and desired culture.
    In addition, we recommended that the culture change initiative 
should focus on helping managers and supervisors maintain an effective 
balance between task orientation and relationship orientation. At NASA 
many managers had a natural inclination toward task orientation, which 
is not unusual for technical organizations. However, strong task 
orientation at the expense of relationship orientation can lead to 
inhibition of Upward Communication and weak Perceived Organizational 
Support. By taking steps to help managers and supervisors improve their 
balance between task and relationship orientation, NASA could move 
toward integrating its values of Safety and People and create a culture 
that would more effectively support the Agency's mission.
    We believed that NASA needed to avoid falling into the 
organizational ``trap'' of viewing its response to the Board report 
purely in a project-driven manner. The NASA culture tended to think in 
terms of identifying problems and solving them through discrete 
projects. Over the years NASA had proven to be outstanding at defining 
and executing projects. However, a project is, by its very nature, 
something that has a start and an end. If it came up with separate 
projects to address specific issues in the report, the Agency could 
fail to address the underlying culture issues that gave rise to many of 
the problems in the first place. This may explain why safety climate 
changes observed after previous accidents (e.g., the Shuttle Challenger 
accident) did not generalize and become part of the ongoing culture.
    To address NASA's needs and build on its strengths, we developed a 
culture change plan based on one core concept: Organizational values 
must underlie the definition of desired culture.
The Importance of Values
    Values underpin everything an organization does to ensure that 
objectives are reached. They help inform everyone in the organization 
about the considerations that should be reflected in day-to-day actions 
and decisions. Values set out the basis for the strategic 
considerations necessary for success and help ensure that everyone 
understands the organization's expectations of them.
    An organization cannot create specific rules covering every 
situation and variation. In the complex world in which NASA functions, 
the Agency must be able to rely on individuals making independent 
judgments about unexpected and unforeseen situations. Having 
organizational values that are well understood and embraced by everyone 
will reduce the variability with which these judgments are made.
    According to the assessment results, there was no uniformity of 
adherence to the espoused organizational values that would lead to 
safety performance excellence. The implementation plan recognized the 
importance of values for a safety-supporting culture being widely 
disseminated and embraced within NASA and actively reflected in the 
leadership practices of individuals at all levels of the organization.
Addressing Culture and Climate
    Both climate and culture are important. While identifying values 
was an important first step, building these values into the fabric of 
the Agency required transforming the culture.
    Organizational climate often changes very quickly after a 
significant incident, but the underlying organizational culture may not 
change sufficiently to prevent further incidents. Since climate that is 
inconsistent with culture will not be sustained, a favorable safety 
climate following an incident does not assure real improvement unless 
steps are taken to shift the culture.
    As we developed the implementation plan, the current climate for 
safety in NASA was very strong and favorable. Since favorable 
organizational climate is a condition for successful culture change, 
this situation presented a limited-time opportunity to introduce new 
principles that could lead an agency-wide cultural change initiative.
How Leaders Drive Culture Change
    The key to changing culture is through leadership. Leaders 
influence safety through what they do and what they don't do. They can 
express this influence intentionally or unintentionally. However, 
leaders with the right knowledge and skills can move the culture in 
desired ways and do so with accelerated results. Therefore, the key is 
to make leaders more effective, and the best way to do that is through 
the use of behavioral tools.
    Using Behavioral Tools. Behavioral tools are the most practical and 
effective way to transform culture; culture changes when new behavioral 
norms are established. Because behavior is definable and measurable, it 
lends itself to change efforts. By using behavior-based tools, 
organizations can undertake very concrete and specific initiatives to 
accelerate cultural transformation and can measure progress toward 
results.
    Behavioral tools may be used to create accelerated change within 
organizations as well as to ensure that future leaders are selected and 
developed to sustain the desired culture. Our assessment results 
confirmed the opportunities to use these tools for the change desired 
by NASA.
    Focusing Culture-Change Efforts. There should be one, single 
culture change initiative. NASA was in a period of change, with many 
active teams and task forces. Many of these had identified issues that 
relate to culture, and this raised the possibility that there could be 
overlapping, or even contradictory initiatives.
    For culture change at NASA to be successful, there needed to be a 
consistent culture change initiative that incorporated all of its 
culture-related issues.
                        the culture change plan
    The specific plan we developed for the initial 6-month period was 
designed to begin the culture change while validating the adaptation of 
the approach to fit NASA. To do this we focused on three NASA 
locations--the Glenn Research Center, the Stennis Space Center, and two 
large directorates of the Johnson Space Center (Engineering and Mission 
Operations). These organizations collectively comprised approximately 
3,600 people.
    Changing the culture involves two thrusts. The first engages 
leadership and individual contributors in changing the current cultural 
environment; the second assures that the culture is sustained by 
grooming future leaders who can support the desired culture. This 
initial phase of the effort focused on the former objective.
    At the outset, NASA's senior leadership re-examined the 
organization's core values and reaffirmed those to which the Agency 
aspires. Those values were used to articulate a vision of the future 
state that would exist following successful culture change:

          ``The objective of this effort is to strengthen the 
        organizational culture and safety climate at NASA. In this 
        desired future state, each individual feels highly valued as an 
        individual and knows that his or her contributions are 
        appreciated. Everyone at the Agency, in all roles and at all 
        levels, understands the important ways they contribute to the 
        Agency's exciting mission, feels like an integral part of the 
        larger Agency team, understands the way that others contribute 
        to the larger team effort, and is committed to the success of 
        the Agency and its overall mission. Managers and executives at 
        every level of the Agency, from top to bottom, routinely treat 
        people with respect. People are comfortable in raising issues, 
        and confident that the issues raised are considered and 
        appropriately factored into decisions. There is a high level of 
        trust in management, and a sense that management, in turn, 
        trusts each individual.
          In this desired future state, safety is widely recognized as 
        an integral component of mission success, and is considered by 
        every individual in everything they do. The Agency is 
        recognized for its pursuit and outstanding achievement of 
        cutting edge endeavors, as well as its extraordinary safety 
        record, all of which are understood as compatible goals.''

    In designing a strategy to achieve the culture change objective, we 
began with the recognition that culture is a reflection of shared 
perceptions, and beliefs and behaviors. It is related to unstated 
assumptions. If we change those perceptions and beliefs, we change 
culture.
    Individuals' perceptions and beliefs are influenced by a variety of 
factors subject to intervention. For example, perceptions and beliefs 
about the organization are strongly influenced by individuals' 
interactions with their immediate supervisors. These interactions 
inform the individual about the organization's real values and shape 
his or her views about the organization. There are dozens of these 
interactions each week. A change in the leadership behavior of the 
immediate supervisor will influence culture, but is unlikely to occur 
unless there are changes in the leadership behavior of that 
supervisor's supervisor. Similarly, we must change behavior up through 
the leadership chain.
    To change individuals' perceptions and beliefs, we wanted to change 
their supervisors' leadership behaviors to more consistently reflect 
behavior that reflects the desired culture. The new behaviors we wanted 
to encourage in NASA's first-line supervisors--Branch Chiefs--were a 
set of critical behaviors that exemplify NASA's core values. The 
behaviors we wanted to encourage up through the chain of command--
through Division Chiefs, Directors, and Center Directors--were those 
that exemplify the values and encourage the use of these behaviors by 
subordinate managers.
    There is a large set of behaviors that supports NASA values, 
including both leadership behaviors and individual contributor 
behaviors. To change culture we needed to focus on a manageable subset 
of those behaviors, selected for their leverage in affecting 
perceptions and beliefs related to areas in which we wanted the culture 
to change. For example, survey results showed that NASA's culture was 
strong in the area of Workgroup Relations. While there are behaviors 
related to Workgroup Relations, those were not the ones on which we 
chose to focus as they were already comparatively strong. However, in 
an area like Upward Communication, where NASA needed to improve, the 
related leadership behaviors would be considered ``critical 
behaviors.'' Critical behaviors for NASA at this time related to 
communication, consideration for individuals, management consistency 
(credibility), and decisionmaking.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Critical behaviors were identified based on a variety of data 
sources such as the Columbia Accident Investigation Board report, the 
OCDI, NASA's internal review of the broad applicability of the Board 
recommendations, and Safety & Mission Success Week findings. A 
foundational set of critical leadership behaviors was identified based 
on those data sources. This foundational set of critical behaviors was 
then reviewed by each location at which the culture change effort was 
to be implemented. This review verified the relevance of the behaviors 
to each location and developed examples of how each behavior was 
manifested at the location, to embellish the definition for local use.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    We designed a multi-pronged approach of specific activities that 
included introducing leadership coaching for senior-level leaders, 
implementing a behavioral observation and feedback process for all 
leaders, and providing multi-rater feedback and skills training for all 
leaders. A communications effort was also launched at each location to 
inform people about the changes occurring.
Coaching
    The senior-most leaders in the organization have an important, but 
indirect, influence on the perceptions and beliefs of most individual 
contributors. Therefore, the senior-most leaders must possess strong 
leadership skills and a solid understanding of how they can exert 
influence. It is important that they set the direction for the culture 
through everything they do and that they create consequences that cause 
their reports to do the same. To help senior-most leaders support the 
culture change, we employed a leadership coaching process. This helped 
the leaders improve their ability to support the critical behaviors (as 
well as practice these behaviors themselves) and helped them learn how 
to meaningfully support the other elements of the change process.
    The coaching process was designed to help senior leaders understand 
their leadership strengths and weaknesses and to work with them in 
developing individual action plans. The process began with a detailed 
individual assessment including a 360 diagnostic survey plus a series 
of assessment interviews with subordinates, peers, and managers. The 
assessment resulted in a detailed feedback report that assessed the 
individual's leadership style and practices. Because this report was 
based on information from individuals familiar with the leader and 
provided detailed examples of his or her leadership behavior, it filled 
a vacuum that most senior leaders have--a lack of direct feedback on 
their leadership.
    The coach reviewed the feedback report with the leader and then 
helped to develop a coaching action plan. This plan identified areas 
for the leader to concentrate on, drawing on the critical behaviors, 
the actions needed to drive support for NASA's values, and leadership 
best practices. Once the plan was developed, the coach provided the 
leader with guidance as the coaching action plan was implemented.
    The coaching process was used for senior leaders, beginning at the 
top of the Agency and extending down through the management chain to 
the senior-most levels of the Center.
Behavioral Observation and Feedback
    All leaders in the organization were required to adopt and 
consistently use the critical leadership behaviors. A behavioral 
observation and feedback process was implemented to promote use of 
these behaviors. Leaders receiving regular, structured reinforcing 
feedback on their use of critical behaviors and guidance feedback on 
missed opportunities to use these behaviors would change their 
behavior. When their use of critical behaviors was encouraged by those 
senior to them in the organization (as a result of the coaching 
process), this change would be further encouraged.
    Anonymous data was gathered during these observations, allowing the 
local implementation team to track progress in promoting critical 
behaviors, analyze the reasons for non-performance, and design 
corrective action as appropriate.
Multi-Rater Feedback
    We provided each leader with individual multi-rater survey feedback 
to help him understand which types of behavior represented existing 
strengths, and which represented areas for focusing improvement 
efforts. We used a 360 diagnostic survey to gather feedback on each 
individual leader's use of leadership and management best practices. 
Leaders attended a workshop to review and discuss the results and to 
develop individual action plans focused on increasing their use of 
leadership behaviors that supported the organization's values.
Skills Training
    The objective of the skills training was to improve skills leaders 
need to perform the critical behaviors and support the desired culture. 
Managers received 2 days of training, which covered cognitive bias 
awareness and feedback skills (day 1) and influential leadership skills 
such as building trust, valuing minority opinion, and influencing 
skills (day 2). Each of these segments was explicitly tied to critical 
behaviors being addressed in the culture change initiative.
Communications
    The fifth element of the near-term culture change process was 
communications, and there were two aspects of this challenge.
    At the individual Centers where culture change activities were 
occurring, it was important that there be communication about these 
efforts. ``What'' was occurring and ``why'' had to be communicated at 
the outset. Then, as implementation proceeded, it was especially 
important to communicate about early indications of progress.
    The specific mechanisms for this communication varied from Center 
to Center based on the communications vehicles available locally. 
Existing communications channels such as site newsletters, intranets, 
and all-hands meetings were used to help relay information about this 
effort. In addition, managers were encouraged to speak about it at 
their staff meetings.
    More globally, it was important that NASA's overall communications 
reflect consistency with the culture change effort and the desired 
culture. Even on topics not directly related to the culture change 
effort, senior leaders indirectly send messages about how seriously 
they take the desired culture. When members of NASA's senior-most 
leadership spoke or sent written messages, the content of those 
messages needed to reflect specific consideration for the cultural 
undertones of the communication.
                                results
    For 5 months beginning in mid-April 2004, we worked with the Glenn 
Research Center, Stennis Space Center, and the Engineering and Mission 
Operations Directorates of the Johnson Space Center. This initial phase 
of work was designed to provide a mechanism to learn how best to deploy 
the culture change approach while meeting the objective of achieving 
measurable progress in 6 months.
    As the work progressed, various forms of results data became 
available.
Anecdotal Data
    Soon after implementation work began, we started hearing anecdotal 
evidence that the effort was having an effect. Examples of the 
anecdotal evidence are listed in Table 12-1. This evidence provided 
early indications that the culture change effort was beginning to have 
an impact.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Behavioral Data
    As data began to accumulate from the behavioral observation and 
feedback process, we started seeing improvement in the percentage of 
times an observed behavior was observed being done, rather than 
observed as a missed opportunity. Figure 12-6 shows early data from one 
location. Several of the specific behaviors are showing an improvement 
trend. Other behaviors did not show improvement this rapidly, but the 
data produced by the process provided a mechanism to know where to 
place emphasis in seeking further improvement.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Culture Survey
    Approximately 6 months after the start of the culture change 
efforts, we administered the OCDI again to the groups where culture 
change work had been undertaken. This was the same survey used in the 
initial assessment phase of the effort, and we used the same email-
prompted, web-based survey administration method.
    The response rate was quite good, and at most locations it exceeded 
the rate obtained in the original (February) survey administration, as 
well as the rates obtained on previous NASA culture surveys. The 
response rate by location is shown in Table 12-2.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Tests to evaluate potential response bias in the sample of people 
who responded indicated that the sample was representative of the total 
surveyed population.
    The Glenn Research Center and Stennis Space Center had survey 
scores during the initial assessment that were low compared to the NASA 
overall averages. The Johnson Space Center had scores that were high 
relative to the NASA average. The results of the intervention at these 
centers are interesting to compare.
         glenn research center and stennis space center results
    All scales on the basic Safety Climate and Culture survey showed 
improvement at the Glenn Research Center (GRC). These results are shown 
in Figure 12-7 (percentile scores) and Figure 12-8 (raw scores.) The 
September results (after intervention) show significant improvement 
over the February results (pre-intervention).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 12-8 shows the comparison of these results with their 
confidence intervals. Where confidence intervals do not overlap, the 
differences are statistically significant.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Comparing managers' responses to non-managers' responses at GRC, we 
found a greater change in survey scale results among managers than 
among non-managers. This is consistent with what we would expect after 
just 6 months: the culture change strategy was to work with leadership 
as the mechanism for driving culture change. Initial activity in the 
culture change effort focused primarily on managers at all levels. 
After just 6 months, one would expect to find managers seeing greater 
change than individual contributors, and that is what the results 
indicated.
    The final question in the survey was open-ended: ``What changes 
have you seen in NASA's culture in the last 6 months? '' Among GRC 
managers, 46 percent of respondents provided comments, and among non-
managers 44 percent provided comments.
    In analyzing the comments provided by managers, we found that 32 
percent mentioned specific indicators of culture improvement such as 
seeking input from others,\2\ while 10 percent indicated they had seen 
no change, and 4 percent indicated that the culture had worsened. Among 
managers providing comments, 21 percent indicated an improved safety 
climate, while 4 percent indicated the safety climate was worse.
---------------------------------------------------------------------------
    \2\ Only comments mentioning changes to cultural characteristics 
were counted. Many other comments mentioned activities undertaken 
during the last 6 months, such as training or meetings, but descriptors 
of activities--as opposed to characteristics of culture--were not 
counted for analysis.
---------------------------------------------------------------------------
    Among non-managers, 22 percent mentioned specific indicators of 
culture improvement, with 16 percent indicating no change, and 4 
percent indicating a worsening of the culture.
    In addition to the basic survey scales, this survey included a 
series of NASA-
specific questions. They were grouped into several thematic areas such 
as guiding principles for safety excellence, consistency between words 
and actions, cooperation and collaboration, potential inhibitors, 
communication, and employee connection to mission safety. All NASA-
specific questions showed improvement compared to the first survey.
    Results from the Stennis Space Center were very similar to those 
from GRC. All survey scores improved, and comments were consistent with 
these results.
                      johnson space center results
    The survey was administered at Johnson Space Center (JSC) to the 
Engineering Directorate and the Mission Operations Directorate (MOD). 
The culture change efforts had been focused on these two groups during 
the initial phase of the process.
    All scales on the basic Safety Climate and Culture survey showed 
improvement for these two JSC organizational units. These results are 
shown in Figure 12-9 (percentile scores) and Figure 12-10 (raw scores.) 
The September results show significant improvement over the February 
results.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 12-10 shows the comparison of these results with their 
confidence intervals. Where confidence intervals do not overlap, the 
differences are statistically significant.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    JSC had generally high scores on most scales prior to the culture 
change efforts, with most scales above the 80th percentile. In the 
survey conducted after the initial culture change efforts, every scale 
showed some level of improvement. Percentile scores were high, although 
raw scores still showed room for improvement.
    Comparing managers' responses to non-managers' responses, we again 
found a greater change in survey scale results among managers than 
among non-managers. As noted in the discussion of GRC results, this was 
consistent with what we would expect.
    The final question in the survey was open-ended: ``What changes 
have you seen in NASA's culture in the last 6 months? '' Among JSC 
managers, 52 percent of respondents provided comments, and among non-
managers, 45 percent provided comments.
    Among the responses provided by managers, 52 percent mentioned 
specific indicators of culture improvement such as seeking input from 
others,\3\ while 7 percent indicated that they had seen no change, and 
4 percent indicated that the culture had worsened.
---------------------------------------------------------------------------
    \3\ Only comments mentioning changes to cultural characteristics 
were counted. Many other comments mentioned activities undertaken 
during the last 6 months, such as training or meetings, but descriptors 
of activities--as opposed to characteristics of culture--were not 
counted for analysis.
---------------------------------------------------------------------------
    Among non-managers, 22 percent mentioned specific indicators of 
culture improvement, with 22 percent indicating no change, and 3 
percent indicating a worsening of culture. In addition, 13 percent 
indicated improvement in safety climate.
    In addition to the basic survey scales, this survey included a 
series of NASA-
specific questions. All NASA-specific questions showed improvement 
since the February survey.
                                summary
    By focusing on leadership using behavior-based tools, NASA has made 
a strong start in its effort to change its culture. Both survey scale 
scores and comments indicate that the change effort at NASA has made 
good progress in a brief time, but that more work remains to be done. 
As would be expected in the early stages of a major change effort, 
there appears to be a segment of the population that is seeing positive 
change and is optimistic about the direction the organization is 
moving, and another segment that is skeptical and not yet seeing what 
its members articulate as change. However, the overall perceptions, 
measured by the survey scores, indicate that there is solid movement in 
the desired direction.
    The approach taken has built ownership for the culture-change 
effort among the leaders of the target groups and has produced a rapid 
start to the longer-term job of changing the culture. Leaders have been 
given new tools to help them carry the change forward, and as the 
effort is now being expanded to the rest of the organization, NASA is 
on a trajectory toward an enhanced organizational culture.

    Senator Murray. Thank you very much.
    Thank you, all, for your testimony.
    Mr. Frumin, I'm going to start with you--OSHA keeps 
justifying their lack of enforcement of existing health and 
safety standards by saying that the number of injuries and 
deaths on the job have been decreasing over the last several 
years, and they point to their voluntary compliance efforts as 
a more effective way to encourage industry to do the right 
thing.
    Now, during my subcommittee hearing on OSHA that we held 
last April, we heard testimony from Dr. David Michaels of 
George Washington University about the serious problem of 
underreporting, concerning occupational injuries, diseases and 
deaths. According to his work, as many as two-thirds of these 
injuries and deaths go unreported to OSHA.
    Experts cite various reasons for underreporting--OSHA's 
failure to issue new regulations, employer disincentives, 
workers' fear of retaliation--I wanted to ask you, is 
underreporting a major problem, and has it undercut the data 
that's used by the Department?
    Mr. Frumin. It's a huge problem, Senator Murray. It's not a 
new huge problem, it was a huge problem 22 years ago, today, 
when Labor Secretary Brock showed some of the leadership that 
Gerry Scannell is talking about, and authorized OSHA to levy 
the first egregious penalties at Union Carbide, for willfully 
violating their standards on injury recordkeeping. At that 
time, there was a fair amount of interest in improving 
compliance, but since then that interest has dwindled, 
considerably, at OSHA, and we've seen now a terrible resurgence 
of various ways that companies avoid, or frankly, lie in their 
injury-illness records, and the expose by the Charlotte 
Observer was a terrific effort in documenting--on a very 
personal, individual level in a terribly abusive industry--just 
how widespread, systematic and reprehensible that practice is.
    It needs a tremendous amount of effort, by OSHA, to fix 
that problem. There is no serious enforcement effort by OSHA 
now, to really investigate those records. It's a complicated 
issue--I won't say it's a simple one, but one, certainly this 
committee could explore in greater detail.
    Senator Murray. Why do you think that workers and employers 
don't accurately report? What do you think is the incentive?
    Mr. Frumin. Well, I think workers--given a free 
environment--certainly would, but they have good reasons to be 
fearful, often, as we've seen with workers in the industries 
we're in, and as the Charlotte Observer exposed.
    But also, we have a problem with many workers' compensation 
laws, where the employer controls the choice of physician, so 
we don't have an unbiased choice by physician.
    On the other hand, the employers are the ones who are 
responsible for these records, and as Jerry pointed out, you 
know, sending bad news up the pipeline is something that a lot 
of managers don't want--they don't want to get on the list that 
OSHA uses for targeting employers for enforcement, frankly, 
there are disincentives, in the system, for employers to report 
accurately. If they're going to lie and violate the law, you 
know, this has to be investigated and stopped.
    Senator Murray. Ms. Morrow, you've worked for Tyson Foods 
for 12 years, I'm assuming you've seen injuries and accidents 
occur. Have you seen a change in workplace safety, in terms of 
employees feeling confident about reporting injuries that 
occur?
    Ms. Morrow. No. The employees are afraid.
    Senator Murray. Because?
    Ms. Morrow. Of being retaliated against, or losing their 
jobs. They just don't want to complain.
    Senator Murray. So, they just keep it quiet?
    Ms. Morrow. Most of the time.
    Senator Murray. Is there anybody talking to you about the 
need to report?
    Ms. Morrow. Oh, they talk to me all the time. Most of the 
time, I'm the one that goes and reports it.
    Senator Murray. What happens when people report?
    Ms. Morrow. They just tell them anything, and they just let 
it go. Whatever they tell them, they just accept that, and let 
it go.
    Senator Murray. Mr. Frumin, does OSHA verify injury logs at 
these companies?
    Mr. Frumin. Unfortunately, the effort that OSHA once 
started to do widespread audits has dropped off completely, and 
in many States, the State plan agencies have completely dropped 
that effort.
    In fact, we saw a really incredible response by the North 
Carolina Labor Commissioner to the Charlotte Observer articles. 
She, basically, blamed the workers for not reporting to her the 
fact that the companies were lying on their injury records. So, 
she was completely unsympathetic to them, and very defensive.
    In fact, she said she was shocked and offended that the 
newspaper would even allege that employers had violated the 
law. She took no responsibility for this kind of enforcement 
effort.
    Whether at the Federal or State level, we don't see the 
urgency that's necessary to have some confidence that even the 
data has some integrity to it.
    Senator Murray. Well, I have the articles from the 
Charlotte Observer, they did some great work, really, looking 
into this issue. I think they revealed some eye-opening 
information that all of us should be aware of, and I will ask 
unanimous consent to put all of these articles into the record. 
I think that all members would do well by taking a look at 
them, and seeing what the challenges are out there that we're 
faced with, and why I think Senator Kennedy's legislation and 
others are so important.
    Senator Isakson.
    [The information previously referred to may be accessed by 
linking to the online address: http://www.charlotte.com/
poultry/.]
    Senator Isakson. Thank you, Madame Chairman.
    Mr. Scannell, I think I wrote this down right, but I want 
to ask you--you said that compliance will not guarantee safety 
unless there's a culture in the company of safety, was that 
substantially correct?
    Mr. Scannell. Compliance with the OSHA standards and 
regulations will not guarantee a safe working place. I mean, 
it's--you know, you have----
    Senator Isakson. You need a culture of safety in the 
company.
    Mr. Scannell. There are other hazards that may exist that 
there are no standards for.
    Senator Isakson. Right.
    Mr. Scannell. The education, and the training and education 
is critical. You must provide that leadership. It starts at the 
top, as it starts with everything in the company, and that's 
the CEO. Now, you say, ``Well, Jerry, you know, the CEO is 
busy,''--if I may. I put this together when I was at Johnson & 
Johnson, because a President of one of the J&J companies--there 
were 166 companies then--was promoted to a Company Group 
Chairman. He called me up and he said, ``What do I do? For the 
safety and health effort, Jerry?'' I said, ``You were the 
President of companies, you were a foreman,'' he was a General 
Manager and an Operations Vice President--he was a great 
manager and he knew his safety and health business in an 
operating company, making Tylenol. He said, ``I don't know what 
to do in here.''
    It gave me an opportunity to go to the Chairman of the 
Board and talk to him. Here's his, Chairman of the Board's 
Safety Rules and responsibilities and it spells out what he 
does.
    We started to get away from looking at the numbers, the 
rates, because the rates were getting so low, it's very 
difficult to measure any more improvement. So, we started to 
count the fatalities--which there weren't any--amputations, 
fractures, burns, and eye injuries, and started to collect 
those and work on reducing those. Those are very serious 
injuries. But, the fact is, some people can get those injuries 
and continue working. But I, you know, I question someone with 
an amputation--even if it's small--continuing on the job that 
they are assigned to.
    Senator Isakson. Were you sought after by Johnson & Johnson 
to come be the Vice President in charge of safety?
    Mr. Scannell. Yes.
    Senator Isakson. Were you sought after to go to Bristol? 
Did they come get you? Or did you start with them?
    Mr. Scannell. Bristol--Rohm & Haas?
    Senator Isakson. Well, it says, ``Safety Director, Bristol, 
PA plant, Rohm & Haas.''
    Mr. Scannell. Yes, because I was, yes.
    Senator Isakson. You were sought by them to come, as well.
    Mr. Scannell. I was sought, yes, I worked for Thiacall 
Chemical before.
    Senator Isakson. That ties--I want to ask Mr. Bianco--Mr. 
Bianco, I was a salesman for 33 years, and I used to knock on 
an awful lot of doors. How many of your customers do you knock 
on their door to bring your service to them, and how many of 
them seek you out because they need help?
    Mr. Bianco. Very few do we go out knocking on doors, most 
of our clients come to us.
    Senator Isakson. That answer--I was so interested--Mr. 
Scannell said that one of the big problems is not any 
accountability on the CEO, there's not an accountability at the 
top, I think that's what you said, in terms of safety.
    You were sought after by two major companies to come and be 
Vice President of Safety, because they had a problem and you 
had a reputation, and your company is sought after by people, 
generally who have a problem or finally recognize that's the 
case.
    Here's my question--when OSHA goes in, and if they 
determine there's a cultural problem, should they be able to--
in other enforcements at the Federal level you have what you 
call ``pattern of practice'' where a company is found to have a 
pattern of practice of failing to do X, Y, or Z. There usually 
are legal remedies that the courts go through to make that 
company be more aware or more compliant. Should we give OSHA 
some authority to direct the CEO to address it through hiring--
I know you'd love them all to hire your company, but--through 
either hiring or putting in a safety officer?
    That's for both of you.
    Mr. Bianco. I think the answer to that question is what 
OSHA can do is recognize that, you've got to go way beyond 
compliance with OSHA regulations in order to create a strong 
environment for your employees to work safely. Leadership 
plays, really, a very, very, key role in that. So, my thought 
is, if OSHA would just simply open the door, that it goes way 
beyond their regulations, in order to keep people safe.
    If I may just talk a little bit about what we've heard here 
today, you know, when we think about employees, you know, the 
fear they have of reporting injuries, or the fear they have of 
bringing bad news to the boss--I look at this as cultural. I 
mean, I really look at this as cultural. Leadership in an 
organization owns the culture. They create the culture that 
either allows employees to feel that there's a value around 
safety, that the organization supports them, in general, 
supports their needs. And that there's a freedom, or a feeling 
of, you can bring bad news to the front office--it's welcomed. 
That's the only way we can manage risk, it's the only way we 
can manage exposure, by knowing what's going on.
    Now, I agree there are many organizations out there today 
where that fear exists, but what we try to work on at BST is 
really the cultural aspects, not only from the CEO level, but 
all the way down to the most junior employee, getting everybody 
aligned around the fact that this is the behaviors we want, and 
we expect, and setting up the right supporting mechanisms for 
the culture to thrive.
    Senator Isakson. Well, I know I'm beyond my time--yes? Can 
I let Mr. Scannell?
    Mr. Scannell. Well, I think you could go that way, Senator, 
what you suggested. But I don't think it's necessary in most 
organizations--CEOs of big corporations, or even medium size--
they know what really needs to be done. Someone has to point it 
out to them. The other isn't--this sounds like heresy, but you 
know, Eric talked about the penalty for killing a wild boar or 
duck on Federal--I used to get that all the time. I've had 
young kids come up to me and say, ``My dad's life was only 
worth $3,000?'' Look at some of the things that I did and the 
penalties when I was there--I stopped discounting. What are we, 
you know, a discount house? The penalty has got to be 
significant enough to being a deterrent for others, too. At 
times I don't think we're discounting and discounting and 
there's good reasons, I'm sure. But CEOs, they are very 
concerned about criminal activities, and anything able to reach 
them to bring them into the Justice Department.
    I think we need to re-look at that--the old, the entire 
penalty system of the OSHA Act.
    Senator Isakson. Thank you, Madame Chair.
    Senator Murray. Senator Kennedy.
    The Chairman. Thank you very much, an excellent panel.
    Just continuing along on the cultural aspects of this, 
which I think are fair--you mentioned the culture with Paul 
O'Neill and ALCOA--and I'm not going to take the time, although 
it's interesting, whenever they had an accident in ALCOA, no 
matter what part of the world, within 24 hours they had done 
the analysis, and they had to, within 36 hours, have a series 
of recommendations about how they're going to deal with it. 
They kept driving the accidents down and down and down and 
down. What it does demonstrate, which all of you have said, is 
that when you have it at the top, and you have something that 
is fairly valuable and important, it goes all the way through--
that's really the spirit. We could legislate a certain amount.
    You've pointed out--we can only do so much if the culture 
and commitment isn't going to be there. I think that the 
comments that have been made have been excellent, the real 
question is, how are you going to get that culture of action, 
and how are you going to get that culture of leadership?
    One of the ways that you're going to get it, I think, Mr. 
Scannell mentioned, is to raise the penalties. Hopefully you 
could get it because the Chamber of Commerce would go on their 
own and say, ``This is what we need to do, this is what we have 
to do,'' but if they're not going to do it, after a period of 
time--and I think that time is up--we need to have the 
incentives built in there.
    Now, what troubles me is the culture at OSHA now. It 
doesn't appear to me that they're using the audits the way that 
they used to use those audits, in order to be able to determine 
some of these problems. They've been slow in developing the 
standards which should be. You have emphasis on compliance 
instead of inspectors that are over there. You haven't seen the 
commitment in terms of worker training.
    The Administration, over the period of these last years, 
has reduced the support for worker training. And that, you've 
mentioned, is important. All of these indicators reflect, it 
seems to me, that what has been happening out there in the real 
world, is that so many of these companies get a slap on the 
wrist or they have their penalties reduced. In my State in 
Massachusetts, in 2005, two Testa Corporation workers in 
Lynnfield were killed, and several others injured in a crane 
collapse. OSHA had cited Testa for similar violations at a 
Boston work site the year before.
    Between 2003 and 2005, three Massachusetts window washers 
were killed in separate incidents. The employer in both cases, 
UNICCO, a service company, had been repeatedly cited for safety 
violations. We had the Revoli Corporation in North Reading, MA, 
cited by OSHA for failing to provide cave-in protection for 
workers installing new sewer lines in Gloucester. The workers 
were in a 14-foot deep trench, with no means of getting out in 
the event of a collapse, and were just lucky they didn't get 
hurt. Revoli had been cited for similar violations in 2004, and 
again in 1999, again in 1998--and the list goes on. Yet, we're 
not having strong enforcement. This, I think, has been what has 
been enormously troublesome and bothersome to all of us.
    Let me just ask Mr. Scannell--could you just comment a 
little bit about how you think--you move to a better culture of 
safety. I remember going down and visiting with Paul O'Neill 
and talking to him about safety--he said it was good business.
    Mr. Scannell. That's right.
    The Chairman. He said, ``This thing enhanced our bottom 
line. This thing just made sense.'' He said, ``The business 
leaders that don't do it, are missing providing responsible 
leadership to their stockholders, because it just made sound 
business sense,'' and he was able to demonstrate that others 
have done that, as well.
    But we have the pressure of production on these employers, 
and to get that product out, to get those chickens out, at the 
end of the day time--to get that out. The intimidation that 
goes along with it--what's your recommendation on how we move 
to the more positive aspect and how we discourage the negative 
features of leadership?
    Mr. Scannell. The emphasis on safety in the organization 
must be equal to emphasis on getting the chickens out. One is 
not over the other, and they can both be done. They just have 
to be willing to develop that culture in the organization.
    The workers get blamed for a lot of things, and it's not 
the workers. The employer may not have provided the right 
facilities to process those chickens faster, an investment to 
do it better, with technology, there's ways of doing things 
much better today then there were years ago.
    How you get that, Senator, I don't know how legislation 
would be crafted to all of a sudden magically we have a good 
safety culture in organizations. But I was looking at this, 
reflecting on it for the past several weeks, and I mentioned 
the U.S. Chamber of Commerce--they probably wouldn't do it.
    Another organization would be the Business Roundtable. I 
think you really have to go to the CEOs and say, ``Look, 
there's a crisis in this country.''
    Now, sure the rates are going down, but I look at 
fatalities, and the fatalities are still pretty high, and 
serious injuries are high. I think if we get to, I mean, the 
legislation would probably be very difficult to write, and it 
might take years and years to get through, sir.
    Somehow I would like to see the private sector--as they 
say, the Chamber of Commerce, the Business Roundtable, some 
organization like that--take it on as a challenge. I know the 
Business Roundtable has done this before on issues, refineries 
exploding--they took that issue on a long time ago and came up 
with some good recommendations for their companies. How you get 
culture in a company--a good safety culture--is very difficult. 
It's not a switch that you turn on, sir. I wish I could give 
you a better answer.
    The Chairman. No, that's good, good.
    My time is up, I just had a final one for Mr. Frumin about 
why OSHA isn't doing a better job going after repeat offenders? 
I mean, does it lack the necessary tools, or the necessary 
will?
    Mr. Frumin. Well, probably there's a failure of will at the 
Administration, which we're all painfully familiar with, and it 
extends throughout the agency. But probably it's also the 
nature of the way the enforcement program was enacted in the 
statute, and also the way it was practiced throughout these 30-
odd years, Senator.
    OSHA was conceived of as an agency that would go after 
employers one at a time, plant by plant, establishment by 
establishment. In contrast, say, to other Federal agencies, or 
even labor standards enforcers, which look at--as Senator 
Isakson pointed out--patterns and practices of companies. The 
world has changed--these companies are huge, the ones we're 
talking about today are huge corporations, industry leaders.
    If the agency isn't actively dealing with them at the 
corporate level, at the very same level that you've just been 
discussing with Mr. Scannell, then it's going to be 
ineffective--it's got to get a grip on what the corporate 
office is doing with regard to compliance, and what we see in 
these companies, at Cintas, for example, the CEO just washing 
his hands of responsibility here--what kind of a message does 
that send? When we know that these corporations--McWayne, BP, 
and their corporate office--are telling the plants, ``Cut 
costs, cut costs,'' production, as you've said. OSHA sits by 
and doesn't have a remedy for that--doesn't even try to come to 
grips with that kind of misbehavior by corporate officials.
    So, if OSHA were focusing its efforts on looking at 
problems throughout a corporate structure, it would send a 
clear message to the CEOs that they're going to be watched, and 
they're going to be held accountable, and then they might want 
to hold the people below them accountable. But that's missing, 
and frankly, I think that would probably do more to change 
corporate culture than anything else--Jerry has pointed out 
that the threat of criminal prosecution is a real eye-opener, 
it's a wake-up call for CEOs--you've taken that approach in 
Sarbanes-Oxley, I think workplace safety deserves, at least, 
the same.
    Senator Murray. Thank you, Senator Kennedy. It seems to me, 
and Mr. Frumin kind of touched on it, that we're not dealing 
with small little businesses or companies that know every one 
of their employees. The accountability, Mr. Scannell, that you 
talk about is way off in Wall Street someplace.
    When I grew up, my dad ran a little Five & Ten Cent Store, 
he knew every one of his employees, and if somebody was hurt or 
injured, he knew their families. Today, who knows who owns the 
place, and who they're even accountable to, so how do you get 
to that top level person? You talked about fines, is there 
another way that we can deal with these multinational 
corporations that don't even know who the Ms. Morrow's are, 
working on the line?
    Mr. Scannell. Well, I think if they feel they're at risk 
from the standpoint of breaking a law, and the CEO being hauled 
up in front of the judge--that is very, very important. I've 
heard CEOs say, ``Just make me safe. I don't want to face any 
legal action.'' I think in the environmental laws--because I 
get that comparison--there is a risk to some of the management, 
and they take it very seriously.
    I'd be the last one to suggest more rules, and regulations, 
and laws. But, I think it needs to at least be there. Hopefully 
it won't be used, but be an incentive for management to do what 
is right.
    Senator Murray. We have to affect the bottom line or they 
won't be affected?
    Mr. Scannell. Well, the bottom line--a lot of CEOs--you'd 
think they'd know it. But if you just take the workers' 
compensation costs, and generally you multiply that by four or 
five, and that's what the cost is to the company--well, that 
isn't what it is. What you do, you take your profit margin of 
that company, and you apply it to it, and it triples, 
quadruples what it's costing the bottom line. In other words, 
the company has to make a bazillion widgets to offset that 
workers' compensation. They didn't know it.
    They used, just to think, ``Well, it's just the workers' 
compensation,'' and some think, ``Well, the insurance company 
takes care of that.'' Well, the insurance company doesn't take 
care of that, you have to reimburse the insurance company.
    The bottom line is, they don't realize the impact of a bad 
safety and health program to the bottom line. When pointed out, 
a lot of them really respond to that.
    Mr. Frumin. Could I comment on that?
    Senator Murray. Sure.
    Mr. Frumin. Criminal prosecution is a very important tool 
in--many of us are in agreement that the current statute is too 
weak. OSHA fails to collect injury information in a consistent 
way throughout companies--far, far different, Senators, from 
what you're familiar with in the mine safety world, where 
virtually every injury is reported to MSHA.
    OSHA knows nothing of that. They have, really, a terrible 
set of blinders on, just on the basic injury information, but 
beyond that, they don't know the lay of the land in these 
companies as far as where the hazards are, where the compliance 
is. I mean, OSHA is now struggling to keep up, Senator--as you 
well know, Senator Isakson--with the challenge of fining sugar 
refineries and keeping them from blowing up. Yet, they don't 
know where they are, and they don't have, already, in hand, the 
kind of information that would allow them to quickly go out and 
do it.
    We're talking the year 2008, how do they report their 
information on employment, race and gender hiring? It's all 
electronic, how do they report their environmental emissions? 
It's all electronic. We need a 21st century information system 
that puts that information in the hands of OSHA's inspectors, 
so that when the companies create these kinds of abuses and 
problems, OSHA's not starting from scratch, and asking the very 
criminals, ``Oh, please, tell us where your hideout is.'' I 
mean, it's just absurd what OSHA had to go through in the 
McWayne case to uncover these kinds of abuses, and then and 
only then, go after them in all of these different locations--
often under a different name, and OSHA didn't even know it.
    So, we need an information system that supports an 
aggressive enforcement program underlaid by standards in the 
political world to go with it. Only then, I think, will CEOs 
begin to have the feeling that Jerry talks about, which is, 
unless they take preventative action, hold managers 
accountable, they won't be ``safe'' from criminal prosecution. 
But if we don't create a structure around them, that gives them 
that feeling, we're going to see the Farmers and the McWayne 
families and the families that run these other companies 
continue to just blow it off, and it's unacceptable.
    Senator Murray. Well, we still need accurate information, 
which goes back to the questions I started with--if employees 
don't report violations, no matter what you say at the top, if 
it goes all the way down to Ms. Morrow's workplace, where 
layers and layers of superiors are in your way, and the bottom 
one says, ``Don't you dare report this.'' ?
    Mr. Frumin. Well, we'll have a problem with injury 
reporting as long as companies create that kind of hostile 
environment, and that itself could be the subject of 
enforcement. We could improve the protections for workers who 
report injuries and stop some of the abuses in workers' 
compensation.
    But that's not the only kind of information that OSHA 
needs, it also needs to know where the hazards are. When a 
company like Cintas, or Smithfield or Waste Management knows 
where the hazards are, and OSHA doesn't even ask them, or asks 
them too late, after they send inspectors to offices and to 
other plants, then we're missing the boat. There's other kinds 
of information that OSHA should be demanding of companies, that 
companies should know is already in OSHA's hands, so that they 
don't feel--in addition to the injury information--that they 
can hide behind, sort of, OSHA's ignorance.
    Senator Murray. Ms. Morrow, you're on the line. What would 
have to change in your workplace to have people report 
injuries?
    Ms. Morrow. What would change?
    Senator Murray. What could be told to you, to make 
employees feel safe enough to report their injuries.
    Ms. Morrow. That if they came forward and reported it, that 
nothing could happen to them, it would be OK for them to tell 
whatever happened.
    Senator Murray. Would it take awhile for people to trust 
that, I'm assuming?
    Ms. Morrow. Yes. People are so afraid.
    Senator Murray. So, we've got a ways to go.
    But we need change at the top, Mr. Scannell, that's what 
you're telling us, the culture has to change?
    Mr. Bianco.
    Mr. Bianco. If I may, we use that word ``culture'' quite a 
bit, and I think when you think about most organizations, 
culture is so deep-seated, it's really hard to understand what 
a company's culture is. I don't think most business leaders 
really understand that they drive that, they own that. They can 
move that culture any way they want, by virtue of what they 
focus on. I do believe that there are a lot of organizations 
where the messages that come from the front office are, you 
know, we want to hear the good news, we don't want to hear the 
bad news, injury reporting may not be what they want to hear.
    I've heard the whole, I mean, the whole spectrum from, 
``This could be a great company if we could just get our 
employees to do what it is we need them to do, get them to work 
safe, get them to follow the rules,'' and I don't think 
business leaders really understand how they drive that, how 
important it is that they can--you know, it's not the employee. 
You've got to start by looking at yourself, and I think most 
business leaders just don't know what that means. They don't 
understand how to change that.
    Senator Murray. I think we have a safety culture at the top 
right now, that feels they can get away with it, so why bother?
    Mr. Bianco. The Baker Report was very interesting, at the 
refinery in Texas City, because we tend to get lulled by OSHA 
recordable rates, we tend to see very low recordable rate and 
we don't realize that that rate may not be reflective of the 
level of exposure, and we take our eye off the ball.
    We think, well, gee, the rate's good, so we're OK--and 
we're not OK. I mean, exposure occurs every day in the work 
environment, and we need to have employees that recognize that, 
leaders that recognize that, and have the ability to stop the 
job and ask for help, so that that exposure level is kept under 
control.
    Senator Murray. I would agree with that, but I still think 
we need to take away that safety net at the top. If you don't 
provide that leadership all the way down the line, that you're 
going to be held accountable.
    Senator Isakson.
    Senator Isakson. Well, a comment, and then a--well, two 
comments, I guess. The company that I ran for 20 years was a 
sales company, so your workers' compensation is not very high, 
but part of--I did operate two golf course communities, 
residential developments, I ran golf courses, which was the 
bane of my existence for a long time.
    Nonetheless, in the latter operation, there could have been 
very high risk because of the equipment that you use and things 
like that. We had accountability on both sides. No. 1, my 
manager's compensation was tied to--if we had increases in 
workers' compensation, and we had problems on safety, it 
affected the compensation of the manager.
    And second, we did random drug testing on the employees. 
Pre-employment drug testing, is important, and I think we need 
to be open to that.
    But I'm intrigued by--I think we ought to work on exploring 
something. When OSHA fines a company, the stockholders pay the 
fine. I mean, it comes out of the bottom line.
    I think, if I'm not mistaken, in terms of major negligence 
cases, in terms of OSHA and worker's injuries, those go through 
a judicial process, I think, do they not? I mean, there's an 
appeal, there's a citation and then they get an appeal for 
judicial process?
    Mr. Scannell. Yes.
    Senator Isakson. If it's a judicial process and they get 
their day in court, maybe those negligent should be accountable 
to put in a workplace compliance officer, or safety officer, 
something like that, to bring about that culture.
    We may be onto something, here, because in my experience--
particularly in small businesses--every small business is 
attuned to safety, because they've got three, four, five 
employees, they lose one, they've lost 20 percent of their 
workforce. That's exactly right. I think most large companies 
are good, but there are bad actors.
    Maybe if there's a new wrinkle that addresses this whole 
culture thing, and the pattern of practice thing, which I think 
is very important. If you find in your investigation that, in 
the culture, there's actually a pattern of practice that 
punishes people for reporting something, that's cultural, 
that's wrong--gets a manager to cover up things, that's wrong--
then maybe we're onto something.
    I'm willing to work with the Chairman in that vein, to see, 
in that aspect, if we can't do something. I'm grateful to the 
people that traveled all this way to come testify today, thank 
you.
    Mr. Frumin. Senator, could I just reply to one part of your 
comment?
    Senator Isakson. Sure.
    Mr. Frumin. Unfortunately, I think for the size of the 
corporations that we're dealing with here today, the levels of 
penalties are really, just insignificant to them. I mean, you 
look at the top 20 penalties in OSHA's history, rarely do they 
make, or have, a material impact on the profit of those 
companies--huge corporations--Cintas, it was a $3 million 
penalty, highest ever in the services sector--it was a days' 
profit. They won't even pay all of that. The lawyers up at the 
Labor Department will want to settle that to avoid litigation. 
At BP, at $21 million, I mean, it's next to nothing.
    That was a small fraction of just the budget cuts they 
impose on the Texas City plant to try to save money that led to 
the explosion in the first place, so I think while it's 
important to look at penalty issues and the impact, frankly, 
the question of accountability for safety and compliance at the 
corporate level throughout is equally, if not more, important. 
I'm not saying the penalty shouldn't be a lot higher, they 
should be. Not every company is huge, in some mid-size 
companies that will make a difference, but it won't get to the 
kinds of huge industry leaders. When the industry leaders feel 
that they have a way out, the message is to the rest of the 
industry ``follow us and don't worry about it.''
    I would just caution you on relying on dollar signs as a 
measure of the severity of the penalty.
    Senator Isakson. Well, that was my point. I made the point, 
the stockholder just pays the fine. I mean, it's a miniscule 
part of the bottom line in a major corporation. Maybe by being 
required to bring in a compliance officer, I--accountability is 
when there's a direct consequence to me for not doing my job. 
We have an Ethics Committee here in the Senate, we have an 
accountability mechanism for our activities, that was my point.
    If we raise the fine on some company, tenfold, to beat our 
chest and think we're doing more for safety, is not nearly as 
important as if we're changing the culture in companies that 
have a bad practice, that was the point I was trying to make.
    Mr. Scannell. May I just? One additional point, and it has 
nothing to do with what we have been talking about.
    The Labor Department--you're going to have an opportunity--
having gone through the confirmation process, you'll have an 
opportunity to talk to a new Secretary of Labor. I think it's 
important that they be questioned carefully on their position 
on safety and health. And, you know, they can't know 
everything, but be committed to it, because it starts at the 
top, and it starts at the top of the Labor Department.
    Then you have the solicitors in there who have a major, 
major role in, especially in the fines and the penalties and 
the discounting and the negotiations and so forth. Sometimes 
you get the lawyers--God love them--trying to settle something, 
and it doesn't really come out the way we'd like to see it for 
the worker, or for the culture of that organization, so----
    Senator Murray. I look forward to that opportunity to 
question the next Secretary.
    [Laughter.]
    Mr. Scannell. Thank you.
    Senator Murray. Mr. Bianco, final comment?
    Mr. Bianco. I think I'd be remiss to leave here today not 
to mention the fact that there are many companies out there 
today that do get it. That really do get it, that have a value 
around a no-harm culture--not, the goal is zero injuries, and 
they work real hard at it, and they really do see the value in 
the people, and respect, and there's lots of mutual trust and 
lots of reciprocity throughout the entire organization around, 
you know, the goal of goal zero.
    While I'm here today, I know we've talked about one side of 
the equation, but there are so many organizations out there 
that are role models for just how to make safety work, in 
America's businesses.
    Senator Murray. Thank you, I think we'd all agree that 
there's good companies out there, and our responsibility is to 
make sure that all companies get to that same safety level, so 
thank you very much.
    I want to thank all of our witnesses for your testimony. 
The hearing record will be held open for 10 business days for 
any additional questions or comments, I appreciate everybody 
being here.
    Senator Murray. And with that, this subcommittee is 
adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Obama

    I thank the Chair for holding this hearing and for focusing 
greater oversight on dangerous jobs in dangerous industries.
    Since the creation of the Occupational Safety and Health 
Administration (OSHA), America has made significant progress in 
making the workplace safer. But millions of workers are still 
suffering injuries, work-related illnesses, or fatalities on 
the job every year. Unfortunately, in the face of irrefutable 
data, this Administration has turned its back on working 
families. Industry-backed appointees have weakened OSHA 
enforcement, eviscerated regulatory standards programs, and 
ignored emerging workplace hazards. By rolling back these 
protections, the Bush administration has needlessly put the 
lives of American workers at risk.
    By some estimates, more than 50,000 Americans lose their 
lives every year due to workplace accidents or job-related 
illnesses. That represents more Americans than we lost in 
battle during the entire 16-year Vietnam War. For American 
workers, that's about one work-related fatality every 10 
minutes; 137 working families every single day suffer a 
terrible tragedy, losing a father or mother, a husband or wife, 
a son or a daughter.
    And then there are those who suffer disabling workplace 
injuries, or serious occupational illnesses. The Bureau of 
Labor Statistics estimates that in 2005 some 4.2 million 
workers were hurt on the job. That's 11,500 workers per day, or 
about 500 per hour. According to some experts, the real numbers 
may be much higher. American industry pays a substantial price 
as well: a recent study estimated that employers lose nearly $1 
billion per week due to the costs of workplace injuries, 
illnesses and fatalities. From construction site falls to work-
related cancers, from refinery explosions to utility 
electrocutions, from respiratory diseases to the Sago mine 
disaster--the toll of workplace risks remains unacceptably 
high.
    I want to highlight some weaknesses in protection that 
leave workers exposed to risk and some possible solutions.
    First, millions of public sector workers lack any OSHA 
protection at all. Many of these workers hold jobs in high-risk 
fields such as road and utility maintenance, corrections, 
health care, trash collection, transportation, and emergency 
services. These are some of the most dangerous jobs in the 
United States. But due to a gap in OSHA coverage, an estimated 
8.6 million State and local government employees in 26 States 
and the District of Columbia are left with nowhere to turn for 
workplace protections.
    Second, given resource limitations, OSHA is incapable of 
inspecting all but a tiny fraction of American workplaces each 
year. The agency and its 21 State counterparts have only about 
2,100 inspectors. While the number of Federal and State 
inspectors has grown only marginally over the past three 
decades, the number of covered workers has grown over the same 
period by 55 percent. Currently, these 2,100 investigators must 
oversee 135 million workers at 8.9 million workplaces. As a 
result, in fiscal year 2006, OSHA and its related State 
agencies conducted a mere 96,000 inspections (down from a high 
of more than 126,000 in 1991), meaning that 99 percent of our 
workplaces were not inspected at all.
    Third, it is unfortunately still true that some employers 
expose their workers to serious dangers in an effort to speed 
production or save costs. For these employers, OSHA needs a 
tough enforcement program with ``teeth.'' But even when OSHA 
finds a bad actor, the agency's civil and criminal penalties 
provide little deterrent. According to the agency, in fiscal 
year 2006, the average penalty for a serious violation was a 
mere $883, only one-eighth of the statutory maximum of $7,000. 
For many companies, a fine of this size won't even register.
    Under the OSH Act, the crime of willfully causing the death 
of a worker is treated as a misdemeanor, with a maximum 
sentence of 6 months. There is no criminal penalty at all for 
employers who willfully cause permanent injuries. Moreover, 
when OSHA finds an imminent danger at a workplace, it has no 
authority to shut down the hazardous work, process, or machine, 
but instead must first obtain a court order, which can take 
days.
    Fourth, OSHA is able to regulate only a small number of the 
many hazards workers face on the job. For example, OSHA 
currently regulates hundreds of dangerous workplace chemicals 
through a series of badly outdated Permissible Exposure Limits 
(PELs), many of which were issued in 1971 based on science as 
old as the 1940s and 1950s. OSHA's 1989 effort to update these 
standards was overturned by the courts even though for nearly 
all of the affected chemicals there was no debate over the need 
for increased protection.
    Even worse, the Bush administration has all but shut down 
the agency's rulemaking function, withdrawing at least 24 
critical safety and health standards from the agency's 
regulatory agenda. This action has left millions of affected 
workers with no protection against serious hazards such as 
glycol ethers, tuberculosis, and metalworking fluids. Many 
hardworking Americans have suffered workplace injuries, 
illnesses, and fatalities that could have been avoided had 
these OSHA and MSHA standards been issued.
    In the face of this Administration's abdication of 
responsibility, it is clear that Congress must play a greater 
role in improving workplace health and safety.
    OSHA must be reinvigorated so that it can fulfill its role 
in spearheading reductions in workplace fatalities, injuries, 
and illnesses. Public servants committed to the agency's 
mission of advancing worker safety and health must have the 
power to lead OSHA. In addition, we must fund the agency at 
higher levels to enable OSHA inspectors to reach more of the 
most dangerous workplaces. These new resources would also allow 
OSHA to build productive relationships and partnerships with 
business, labor, and nonprofit organizations that can reduce 
injuries and fatalities. Rebuilding the leadership and 
strengthening the funding of these agencies represents the 
bedrock for a sound workplace health and safety policy.
    In addition to increasing the enforcement staff to 
facilitate more inspections of dangerous workplaces, OSHA needs 
better and more strategic enforcement tools to deter 
noncompliance among those employers who disregard worker 
protection in favor of production speed or profit.
    OSHA can and should also improve how it targets 
inspections, so that its investigations focus on the employers 
and industries that pose the greatest risks to workers. It can 
also adapt its policies to make sure that employers do not 
avoid health and safety responsibilities by outsourcing work 
through subcontracting or misclassification of employees. OSHA 
enforcement should send a clear message to companies and their 
subcontractors about their fundamental responsibility to 
provide a safe workplace.
    With regard to penalty policies, OSHA must increase the 
penalties for noncompliance, particularly in the case of 
serious, repeat, and egregious violations, for example, by 
overhauling the methods for calculating civil penalties. The 
bottom line is that when an employer exposes workers to serious 
hazards, it should pay meaningful fines.
    I would also support legislation to strengthen OSHA's 
enforcement program. First, the agency's ``egregious penalty'' 
policy allows OSHA to penalize the very worst employers with 
meaningful fines that can run as high as millions of dollars, 
but the policy is perpetually challenged by employers. The 
policy should be codified to end these challenges. Second, the 
OSH Act must be amended to strengthen criminal penalties--to 
enable the Department of Justice to prosecute a felony when an 
employer willfully causes death or serious bodily injury to a 
worker. Some of these changes are included in S. 1244, the 
Protecting America's Workers Act, a bill now pending before 
this committee. Third, OSHA inspectors should have imminent 
danger tag-out authority like their counterparts at MSHA; this 
valuable tool can save lives by allowing an inspector to shut 
down operations that pose a substantial and immediate risk of 
harm.
    However, even with greater resources and a strong, targeted 
enforcement program, OSHA will never be able to inspect every 
hazardous workplace. For that reason, we must use all available 
tools to get employers and workers to find and fix hazards 
before a worker is hurt or killed. OSHA should expand the use 
of safety and health programs so that all employers with 
hazardous workplaces take a systematic approach to injury and 
illness prevention, with the help and participation of their 
employees. The evidence is strong that such programs save 
lives, and in many cases save money.
    In many ways, workers are the front line of safety 
enforcement. Since close to 20 percent of inspections arise 
from complaints, OSHA should encourage exercise of employee 
rights in workplaces where workers face significant risks but 
may be reluctant to use them. It can do so through improved 
outreach to workers via labor unions, worker centers, not-for-
profit organizations, and community groups as well as outreach 
by OSHA itself. The Department of Labor should develop a ``one 
stop'' complaint process so workers unfamiliar with the 
Department's different agencies and procedures can easily 
enforce their rights. It must also ensure that workers are not 
discriminated against for exercise of those rights.
    Legislation is also needed to extend the coverage of the 
OSH Act to the estimated 8.6 million State and local government 
employees who presently lack any OSHA protection. These hard-
working public servants deserve protection from the hazards 
they face every day in serving their communities. Notably, the 
proposed Protecting America's Workers Act, which I have 
cosponsored, would effectuate this change.
    OSHA must also reestablish strong regulatory programs to 
promulgate standards that protect American workers. Standards 
must be prioritized to address the most serious hazards that 
affect the most workers. In addition, new approaches must be 
explored to expand the reach of these regulatory programs. For 
example, in recent years representatives of labor, industry and 
professional safety and health organizations have worked 
together to develop a new advisory committee approach to 
updating OSHA's Permissible Exposure Limits based on NIOSH 
recommendations and the best, most current science. Similarly, 
negotiated, multiparty rulemaking holds promise as a 
collaborative regulatory approach where the affected parties 
are small in number and work closely with OSHA to satisfy the 
statutory criteria for safety and health standards. Last, OSHA 
must ensure that those rules already on the books--many of 
which are now decades old--are updated in the most effective 
manner.
    The major features for a policy to improve workplace health 
and safety are clear. In fact, many of these changes do not 
require major legislation, but do require agency leadership and 
focus. Right now, that leadership is lacking, so I applaud the 
subcommittee for shining a spotlight on these problems.
    Thank you.
   Prepared Statement of the Uniform and Textile Service Association
    The Uniform & Textile Service Association (UTSA) appreciates the 
opportunity to submit this statement for the record regarding the 
subcommittee's hearing held on April 1, 2008 entitled ``Serious OSHA 
Violations: Strategies for Breaking Dangerous Patterns.''
    UTSA is an international, not-for-profit, trade association 
representing over 40 textile supply and service companies with over 
2,500 production facilities, depots, and branches all across the United 
States and Canada many of which are small businesses. Companies in the 
industrial laundry industry provide and maintain, clean employee 
uniforms, protective outerwear, linens, patient gowns, towels, reusable 
shop towels and floor mats, and employ more than 135,000 Americans.
    The Association and its members wholeheartedly support the 
assertion, made at the hearing that safer workplaces result from a 
corporate culture that embraces safety at all levels, especially one in 
which senior management adopts safety as a core value of their 
organization. Countless corporate mission statements tout safety as a 
``priority,'' but in our view, priorities can change; values do not. 
Therefore in UTSA's view, safety is more than a priority--it is a core 
value, a value that should be integrated into the culture, 
communications and business operations of all of our members.
    Toward that end, the Uniform and Textile Service Association, in 
cooperation with the Textile Rental Services Association, is 
spearheading a long-term, multi-faceted effort to transform our 
industry's facilities into models of world-class safety. This new 
effort, which is also sponsored by the Western Textile Services 
Association, the Independent Textile Rental Association, UniLink and 
the CSC Network will be known as the Laundry Safety ESP (Effective 
Solutions + Prevention) program.
    The goal of Laundry Safety ESP is to reduce workplace injuries and 
illnesses within the laundry industry, and it has been crafted to 
involve every plant and service center in the uniform, textile rental, 
healthcare and hospitality laundering business. The program will 
facilitate more than just compliance with Federal, State, and local 
requirements, but will provide a road map for the achievement of world-
class safety programs and processes at every applicable industry 
location.
    As a part of Laundry Safety ESP's launch, the industry has declared 
May 2008 as the first annual Laundry Safety Awareness Month. Each year 
in May, participating companies will conduct a series of interactive 
safety review programs that enhance existing compliance training 
programs and focus attention on specific subjects that have been 
identified by a panel of industry safety professionals as among some of 
the most critical safety topics facing our industry and its workers.
    Laundry Safety ESP will help laundries go beyond basic OSHA 
compliance by incorporating interactive safety review, internal 
inspections, employee awareness, safety-related employee activities and 
general employee involvement in safety issues.
    Through Laundry Safety ESP the industry will demonstrate the 
strength of its existing programs, enhance them, and develop additional 
industry-wide procedures to achieve significantly lower accident 
levels.
    Key Elements of Laundry Safety ESP include:

    <bullet> An annual industry-wide Safety Awareness Month focusing 
week-by-week on four specific safety topics;
    <bullet> Annual collection and compilation of injury and illness 
data, and reporting of accident prevention practices;
    <bullet> A research component that will help identify why laundry 
workplace accidents occur;
    <bullet> An annual Safety Summit to foster discussion on a variety 
of health and safety topics;
    <bullet> Industry-specific health and safety campaigns;
    <bullet> Annual awards to recognize plants with exemplary safety 
records;
    <bullet> A Health and Safety Committee which will oversee all 
aspects of Laundry Safety ESP.

    UTSA is proud of its members' historic safety record, yet we 
recognize that the industry must continuously improve in order to 
achieve an accident-free workplace--this is why Laundry Safety ESP was 
developed. UTSA is confident that Laundry Safety ESP will significantly 
reduce injuries and illnesses across the entire industry, which in 
turn, will lead to world-class safety records. In the laundry industry 
safety is much more than a priority--it is a core value.
    The Uniform & Textile Service Association appreciates the 
opportunity to submit this statement for the subcommittee's 
consideration. If you have any questions please contact Tony Wagner, 
UTSA's Director, Environment & Government Affairs at 703-247-2608 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4c3d5d3dad1c6f4e1e0e7f59ad7dbd99a">[email&#160;protected]</a>
                                 ______
                                 
                              Attachments
    Two charts and one graph are attached which show the rates of 
injury and illness as well as days away, restricted or transferred (as 
reported by the Bureau of Labor Statistics). As the data indicate, not 
only has the laundry industry's injury and illness record improved over 
the past few years, but our members' companies have had a better 
history of employee safety than those in similar industries. While the 
trend is favorable for our industry's employees, UTSA is taking steps 
to do better; that is the reason why we are implementing Laundry Safety 
ESP.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                            Smithfield Foods, Inc.,
                                      Smithfield, VA 23430,
                                                     April 7, 2008.
Hon. Patty Murray, Chair,
Subcommittee on Employment and Workplace Safety,
U.S. Senate,
Washington, DC 20510.

Hon. Johnny Isakson, Ranking Member,
Subcommittee on Employment and Workplace Safety,
U.S. Senate,
Washington, DC 20510.
    Dear Chairman Murray and Ranking Member Isakson: I understand that 
your subcommittee held a hearing on April 1 regarding OSHA violations 
and that a witness included a Smithfield Foods plant among a group of 
facilities that he asserted had in some way failed to provide a safe 
environment for workers. The committee may not have been aware that the 
witness represents an organization that has long been hostile to 
Smithfield. Smithfield did not have an opportunity to respond at the 
hearing, so I write to set the record straight on this issue.
    At Smithfield Foods, our employees are our most valuable asset, 
which is why senior management has consistently made on-the-job safety 
a top priority. We strongly believe in rigorous safety standards. Our 
policy is not simply to meet State and Federal standards, but to exceed 
them. We have set the standard in the meat and livestock industry for 
keeping workers safe and healthy on the job.
    Smithfield has developed a unique Employee Injury Prevention 
Management System (EIPMS) that is deployed at all locations throughout 
our company. The EIPMS is based on the Occupational Health and Safety 
Assessment System (OHSAS) 18001 guideline and is designed to involve 
all employees, from management down, in maintaining a safe working 
environment. This program requires each of our facilities to establish 
and maintain a management system that ensures compliance with all 
local, State and Federal regulatory statutes, general industry-accepted 
safe work practices and other standards including company-specific 
requirements. Because we have a wide range of operations, from farms to 
packing plants to office buildings, each location's EIPMS is unique; 
however, all plans include performance goals and measurements, hazard 
identification and risk assessment, safety and awareness training and 
clearly defined roles and responsibilities. In addition, each location 
must develop an internal audit of its Health and Safety program and is 
subject to external auditing by Smithfield Foods corporate or a select 
third party auditing firm.
    Recent statistics demonstrate that our EIPMS is working. We have 
seen a substantial reduction in occupational injury and illness rates 
for our organization. Our Calendar Year 2007 injury and illness stats 
indicate a 26 percent decrease in the Total OSHA Incident Recordable 
(TIR) Rate, a 29 percent decrease in the Days Away, Restricted, 
Transferred (DART) Rate and a 14 percent decrease in our Days Away 
(DAW) Rate. Previous years' data shows that we are at or below the 
national average in these categories.
    The witness before your committee referred specifically to our 
Smithfield Packing Co. plant in Tar Heel, NC. He cited selected events, 
none of them recent, to suggest that the Tar Heel plant is unsafe. In 
fact, Tar Heel's safety record is strong. Our data show a downward 
trend at this location in line with reductions at the rest of our 
company. In 2007, the Tar Heel plant's injury and illness rates were 
reduced by an average of 9 percent, with a Total Recordable Rate of 
6.9, a DART Rate of 6.0 and a DAW Rate of 0.9. The Tar Heel plant is 
the largest pork processing plant in the world, a crown jewel of the 
Smithfield family. We have gone to great lengths to ensure the safety 
and well-being of our workforce there. In addition to our standard 
safety programs, we operate an on-site Family Medical Center open to 
all Tar Heel employees and their families. The facility offers primary 
care, laboratory, 
X-ray and pharmacy services 6 days a week for the low cost of $10 per 
visit.
    Health and safety is not just a priority for Smithfield Foods, it 
is a core value of our business, which is why we feel the need to 
defend our record when it is attacked by groups who have little 
incentive to speak objectively about our company. We have made a 
commitment to being an industry leader in this area. If you fairly 
examine our full record and our practices I am confident you will agree 
that we are achieving that goal.
    I welcome any questions that you may have.
            Sincerely,
                                          Dennis H. Treacy,
               Vice President, Environmental and Corporate Affairs.
                                 ______
                                 
    Textile Rental Services Association of America 
                                            (TRSA),
                                      Alexandria, VA 22314,
                                                    April 15, 2008.
Hon. Patty Murray,  Chairman,
Employment and Workforce Safety Subcommittee,
Committee on Health, Education, Labor, and Pensions,
U.S. States Senate,
Washington, DC 20510.
    Dear Madam Chairman: On behalf of the Textile Rental Services 
Association of America (TRSA), I would appreciate your placing this 
correspondence in the record for the April 1 Employment and Workforce 
Safety Subcommittee hearing titled ``Serious OSHA Violations: 
Strategies for Breaking Dangerous Patterns.'' TRSA has a long 
commitment to helping our industry be safe, so I welcome the 
opportunity to let you and members of the subcommittee know about 
TRSA's historical and continuing efforts relating to this goal.
    Founded in 1912, TRSA is the world's largest textile service 
industry association, representing more than 1,000 industrial laundry 
facilities in 24 countries. The membership of TRSA represents a cross-
section of the industry, including some of the world's largest textile 
service companies, along with numerous mid-size and one-plant 
operations. Our membership includes companies currently doing business 
in commercial laundering and rental services to commercial, industrial 
and institutional accounts, as well as firms selling services, 
equipment and supplies to commercial launderers and linen rental 
companies.
    TRSA's mission is to advance the professionalism of its members and 
promote their success through government advocacy, education, marketing 
and businesses enhancing services. TRSA is committed to addressing the 
changing needs of the industry, and our members, while striving to 
surpass industry standards by uniting members through a progressive 
organization.
    TRSA has always believed that educating its membership on the 
importance of a safe workplace and instilling a commitment to safety 
principles is an essential part of its core mission. Throughout its 
history, TRSA has developed resources and programs to improve the 
knowledge of its members on the most up-to-date practices to make our 
workplaces safer.
    Together with our sister association, Uniform & Textile Service 
Association (UTSA), TRSA established the Production Management 
Institute (PMI) in 1990. A strong and ongoing program, PMI is designed 
to educate plant managers and supervisors on state-of-the-art plant 
operations, including leadership and supervisory skills. From the 
beginning, safety has been a key component of PMI, and it will be a 
major focus at the upcoming PMI session in May.
    In addition, during the February TRSA Tech/Plant Summit of industry 
executives, I announced the TRSA Safety Initiative. The TRSA Safety 
Initiative is a comprehensive program that was conceived to help the 
textile service industry improve workplace safety. It encompasses four 
key areas: to educate TRSA members on how to improve safety; to serve 
the TRSA membership by assisting individual members on how to enhance 
the safety of their facilities; to track the progress of safety 
improvements through the collection and analysis of data; and to 
represent to the public and government bodies the industry's commitment 
to safe facilities. One aspect of the Safety Initiative, SafetyESP 
(Safety Enhancement Stewardship Program), is being administered in 
cooperation with UTSA and will focus on tracking industry progress on 
safety improvement through data collection and analysis.
    TRSA--and its members--understand the importance of a safe 
workplace and we are committed to making the working environments of 
our membership among the safest in the world. We have been in contact 
with OSHA to make sure that the lead Federal agency on safety is aware 
of our Safety Initiative and we have asked the agency to provide 
constructive criticism and other input that will make the TRSA Safety 
Initiative even more effective.
    My staff and I would appreciate the opportunity to meet with you 
and/or your staff for a dialogue similar to our recent discussions with 
OSHA. We also plan to meet with other subcommittee members and their 
staffs as well.
    Thank you for the opportunity to let us share what TRSA has done, 
and is doing, to improve safety in the textile services industry. If 
you have any questions or would like additional information, please 
contact me or TRSA's Director of Government Affairs Larry Fineran. Both 
of us can be reached at (703) 519-0029 or through e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b29383438322d3e293a1b2f29283a7534293c">[email&#160;protected]</a> or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90fcf6f9fef5e2f1fed0e4e2e3f1beffe2f7be">[email&#160;protected]</a>
            Sincerely,
                                            Roger Cocivera,
         President, Textile Rental Services Association of America.

    [Whereupon, at 11:27 a.m. the hearing was adjourned.]

                                   



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
